APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Eleventh Circuit (June 19, 2020) ....................... 1a
Opinion of Justice Jordan Concurring in
Part and Dissenting in Part ............................. 17a
Opinion of Justice Grant Concurring in
Part and Dissenting in Part ............................. 28a
Order of the United States District Court for the
Southern District of Georgia
(January 29, 2018) .................................................. 40a
REHEARING ORDER
Order of the United States Court of Appeals for
the Eleventh Circuit Denying Petition for
Rehearing En Banc (September 1, 2020) ............. 105a
SEARCH WARRANT RELATED DOCUMENTS
Case Summary Submitted by Laurens County
Sherriff’s Department (January 27, 2015) ........... 107a
Search Warrant and Affidavit By Investigator
Chris Brewer (September 29, 2014) ..................... 115a

APPENDIX TABLE OF CONTENTS (Cont.)
AFFIDAVIT AND DEPOSITIONS, RELEVANT EXCERPTS
Affidavit of Teresa Pope Hooks
(June 23, 2017) ...................................................... 126a
Deposition of Buck Forte
(April 4, 2017) ....................................................... 129a
Deposition of Kasey Loyd
(December 9, 2016) ............................................... 134a
Deposition of Rodney Garrett
(December 1, 2016) ............................................... 145a
Deposition of Brandon Faircloth
(October 10, 2016) ................................................. 147a
Deposition of Robert Toney
(September 12, 2016) ............................................ 150a
Deposition of Ryan Brooks
(September 12, 2016) ............................................ 153a
Deposition of Steve Vertin
(September 12, 2016) ............................................ 159a
Deposition of Lance Padgett
(August 17, 2016) .................................................. 162a
Deposition of Bill Harrell
(August 17, 2016) .................................................. 168a
Deposition of Christopher Brewer
(August 16, 2016) .................................................. 173a
Deposition of Teresa Pope Hooks
(August 8, 2016) .................................................... 194a
Deposition of William Meeks
(April 4, 2017) ....................................................... 210a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(JUNE 19, 2020)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
TERESA HOOKS, ET AL.,

Plaintiffs-Appellees,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants-Appellants.
________________________
No. 18-10628
D.C. Docket No. 3:16-cv-00023-DHB-BKE
Appeal from the United States District Court
for the Southern District of Georgia
Before: JORDAN, GRANT, and SILER, Circuit Judges.
SILER, Circuit Judge:
In 2014, David Hooks (hereafter “Hooks”) called
the Laurens County Sheriff’s Department to report a
robbery on his property. Several items including a
car went missing, so he asked officers to investigate,
and they did. The next day, Hooks was dead—shot
 Honorable Eugene E. Siler, Jr., United States Circuit Judge for
the Sixth Circuit, sitting by designation.

App.2a
and killed in his home by the same police department
he had called seeking help.
The district court ruled that all claims must go
to trial, so it denied qualified immunity to the officers,
and they now appeal. On some claims, we agree, and
on others we do not. We affirm in part, reverse in
part, and remand.
Background
The Shooting.
As Teresa Hooks (hereafter “Teresa”) got ready
for bed one night in late September 2014, she looked
out an upstairs window and saw several men clad in
dark clothing running toward the back of her home.
Her husband was asleep downstairs.
The day before, the Hooks’s property had been
robbed, so when dark-clothed men rushed toward the
door shortly before midnight, Teresa was alarmed.
She ran downstairs, banging on the walls to wake
her husband. Hooks emerged from his slumber naked,
holding a shotgun, and he asked his wife what was
happening. The Hooks feared they again were being
robbed.
But the men at the door were not there to break
the law—they were the law. Believing Hooks was
involved in the meth trade, members of the Laurens
County Sheriff’s Response Team had come to execute
a search warrant. Officers breached the door, and
seconds later they fired twenty-three shots. Hooks
suffered fatal wounds.

App.3a
The Previous Day.
To understand what led up to the shooting, we
must go back to the day before. That’s when Hooks
noticed things missing from his property in East
Dublin, Georgia, including a Lincoln Aviator and
several guns. He called police, and Sgt. Robbie Toney
and Deputy Brian Fountain went to the Hooks home to
investigate. Hooks showed the officers around his
property while Toney tried to collect fingerprints, which
was unsuccessful. Hooks thought former employees
might be to blame, but he was not sure, so police left
with plans to stay in touch with Hooks. Toney left
Hooks a voicemail the next morning and went to the
Hooks property, but no one was home.
The Garrett Arrest.
At the same time, Laurens County Sgt. Ryan
Brooks received a call from Beverly Garrett that her
husband was having health issues. In truth, though,
the Garretts lured Brooks over because they wanted
their son, Rodney Garrett (hereafter “Garrett”), to turn
himself in. Garrett had a warrant out for stealing a
truck, and when police arrived, he walked out of the
woods and said he messed up.
Garrett had been living in the woods to avoid
police. He told Brooks about the truck theft, but also
about a different car—a Lincoln Aviator. Garrett had
the Aviator in his possession, so Brooks ran the VIN
number, and the vehicle came back stolen—it was
from the Hooks’s property. Garrett explained that he
had been wandering down the highway and randomly
came across the Hooks’s home, walked up the driveway,
and noticed the Aviator was unlocked. So was another
vehicle on the property, and in that car, Garrett took

App.4a
digital scales, some money, and a bag. Then, Garrett
said he went into the Hooks’s garage, took a shotgun
and rifle, and returned to the Aviator with his loot to
drive off.
Garrett stopped at a gas station, opened the bag,
and noticed a large amount of methamphetamine in
it. Garrett, a known meth user who was admittedly
high when he stole the Hooks’s property, said the drug
quantity scared him. Only a well-connected dealer
would have so much meth, Garrett said, so he thought
it best to turn himself in.
Eventually, Sgt. Christopher Brewer and Corporal
Timothy Burris arrived at Garrett’s property, searched
the inside of the Aviator, and found two guns, as well
as a black metal case, which apparently contained the
meth. Deputies asked Garrett about other property in
his shop, but Garrett denied anything else was stolen.
Back at the Sheriff’s Office, Sgt. Lance Padgett,
Brooks, Brewer, and Burris questioned Garrett, who
relayed the same information about the drugs and
guns. Garrett also told police he regularly received
meth from his friend Chris Willis, with whom he
lived in a tent in the woods. Garrett denied knowing
Hooks, but police believed they had enough information
to search Hooks’s property.
The Warrant.
Worried that Hooks might learn about Garrett’s
arrest, Brewer acted quickly to obtain a search warrant.
In the warrant affidavit, Brewer included the Garrett
information, as well as information from a prior
investigation involving a man named Jeffrey Frazier. In
that case from five years earlier, Frazier told police he

App.5a
supplied Hooks with meth from Atlanta. Both Brewer
and Burris investigated at the time, but nothing
ever corroborated Frazier’s claim, and no file was
ever opened on Hooks. Yet, Brewer’s warrant affidavit
stated:
Your affiant is familiar with the residence and
the occupant of the residence, David Hooks,
from a prior narcotics investigation involving
Jeff Frazier. During this investigation Frazier
had been interviewed by law enforcement and
stated that he had been the source of supply
for multiple ounces of methamphetamine to
Hooks which Hooks was redistributing.
The affidavit also stated that Garrett had “provided other information which led to the recovery of
stolen property which law enforcement was unaware of
prior to this confession.”
A magistrate judge signed the search warrant at
9:56 p.m., just over two hours after police interviewed
Garrett. The warrant allowed police to search the Hooks
residence and curtilage. Sheriff William Harrell did not
review the application, but he agreed that Brewer
had probable cause based on what Brewer told him.
Warrant Meeting and Execution.
Officers then decided to bring in the Sheriff’s
Response Team to execute the warrant that evening.
Moving quickly was important, Brewer claimed,
because police had concerns that Hooks could destroy
evidence. During the meeting, officers discussed the
fact that Hooks had just been robbed and had weapons
on the property, so they were told to be on high alert.

App.6a
Shortly before midnight, a line of cars approached
the Hooks’s property. Teresa saw the cars, but did
not know they were law enforcement, so she rushed
downstairs, and tried to wake up her husband. As
officers began pounding on the back door, Hooks
came out of a bedroom, holding a gun.
Deputy Kasey Loyd, an officer involved in the execution of the warrant, said he saw a man and woman
through the backdoor window and police knocked for
about thirty seconds before entering the house. At that
point, Hooks ran toward the dining room, shotgun in
hand. That was the last time Teresa saw her husband
alive. Seconds later, police fired shots, killing Hooks
after, officers claim, he raised his gun.
Teresa ran into the master bedroom, locked the
door, called her son to report that they were being
robbed, and asked him to contact 911. After a few
moments, Teresa recognized the sound of police radios,
opened the bedroom door, and was handcuffed by Officer Steve Vertin. Vertin took Teresa out the backdoor
and had her sit in a chair by the pool.
At that point things had changed. No longer would
the Response Team be conducting the search it expected. Instead, the Georgia Bureau of Investigation
would take over. Harrell knew “the search warrant was
not going to go any further.” Although not under arrest,
Teresa was not free to leave until, Vertin testified, “GBI
investigators . . . deemed she could go.” A woman officer
searched Teresa but found nothing.
After the GBI interviewed her, Teresa had zip-tie
handcuffs removed and was free to leave. She rushed
to the hospital in Macon, but her husband had already
died. Police did not find any drugs.

App.7a
The Lawsuit.
Teresa sued officers on behalf of Hooks’s estate,
as well as in her own capacity, alleging that the search
of her home, the shooting death of her husband, and her
detention violated the Fourth Amendment. She claimed
that police included false information and omitted
key facts in the warrant affidavit, making it and the
warrant’s execution invalid. Invoking qualified immunity, officers moved for summary judgment, but the
district court denied the motion.
Jurisdiction and Standard of Review
Under the collateral order doctrine, we may review
an interlocutory appeal of a district court’s summary
judgment order denying qualified immunity. Behrens v.
Pelletier, 516 U.S. 299, 306-08 (1996). In exercising that
authority, we (1) give no deference to the district court
and (2) view all evidence and make all inferences in
favor of the non-moving party. Perez v. Susczynski, 809
F.3d 1213, 1216-17 (11th Cir. 2016). Viewing the record
that way, we determine whether qualified immunity
shields officers—that is, whether the officers violated
clearly established law. Id. We do not address factual
disputes; we focus on purely legal questions. Mitchell
v. Forsyth, 472 U.S. 511, 530 (1985).
Discussion
“[N]o Warrants shall issue, but upon probable
cause, supported by Oath or affirmation.” U.S. Const.
amend. IV. Usually, a warrant establishes probable
cause, but not when “the magistrate . . . issuing a warrant was misled by information in an affidavit that
the affiant knew was false or would have known was
false except for his reckless disregard of the truth.”

App.8a

United States v. Leon, 468 U.S. 897, 923 (1984). When
that occurs, the warrant is invalid if, without that
information, the warrant would lack probable cause. In
considering probable cause, we do not isolate events,
but consider the “totality of the circumstances,” to
decide whether there was a “fair probability that contraband or evidence of a crime will be found in a
particular place.” United States v. Kapordelis, 569 F.3d
1291, 1310 (11th Cir. 2009) (quoting Illinois v. Gates,
462 U.S. 213, 238 (1983)). Affidavits support probable
cause when they “establish a connection between the
defendant and the residence to be searched and a
link between the residence and any criminal activity.”
United States v. Martin, 297 F.3d 1308, 1314 (11th
Cir. 2002).
Probable cause is “not a high bar.” District of
Columbia v. Wesby, 138 S. Ct. 577, 586 (2018) (quoting
Kaley v. United States, 134 S. Ct. 1090, 1103 (2014)).
The mere “probability or substantial chance of criminal
activity” is all that is needed. Id. (quoting Gates, 462
U.S. at 243-44 n.13). This “flexible and fluid concept”
turns on examining all information together. Paez v.
Mulvey, 915 F.3d 1276, 1286 (11th Cir. 2019). Nothing
even approaching “conclusive proof or proof beyond a
reasonable doubt” is required. Id. And police need not
“resolve every inconsistency found in the evidence.”
Id. Officers just have to be reasonable given the
totality of the circumstances. Id.
At the same time, affiants cannot lie or omit critical information. Paez, 915 F.3d at 1286. In Franks v.
Delaware, 438 U.S. 154, 171 (1978) the Supreme Court
held that a warrant fails to provide probable cause if
it includes a “deliberate falsity or . . . reckless disregard” for the truth. In those situations, courts put

App.9a
aside all the recklessly included false information and
determine whether the affidavit still supports probable
cause. Id. This also extends “to information omitted
from warrant affidavits.” Madiwale v. Savaiko, 117 F.3d
1321, 1326 (11th Cir. 1997) (emphasis added). Minor
or insignificant omissions, on the other hand, cannot
invalidate a warrant. Id. at 1327.
To determine if officer conduct invalidates a warrant, then, we first ask if the affidavit included any
“intentional or reckless misstatement or omission.”
Paez, 915 F.3d at 1287. Recklessness occurs when an
officer “should have recognized the error, or at least
harbored serious doubts” about the information. United
States v. Kirk, 781 F.2d 1498, 1503 (11th Cir. 1986). An
officer cannot ignore “easily discoverable facts” and
“choose to ignore information.” Kingsland v. City of
Miami, 382 F.3d 1220, 1229 (11th Cir. 2004). If we
determine that the officer acted recklessly, then, at the
second step, we ask if those misstatements and omissions were material to the probable cause determination. Paez, 915 F.3d at 1287.
Taking all inferences in Teresa’s favor, Brewer is
not entitled to qualified immunity. First, Brewer made
reckless misstatements and omissions. For example,
Brewer’s affidavit recites that Frazier told police Hooks
was “redistributing” meth, but Frazier never said as
much. Indeed, Corporal Burris—the person who interviewed Frazier at the time—could not remember
Frazier’s saying Hooks provided meth to any third
party.
What’s more, the investigation happened five years
earlier, and nothing corroborated Frazier’s claims.
Police never interviewed Hooks, and no file was opened.
Reading Brewer’s affidavit gives one the impression

App.10a
that Frazier had the goods on Hooks. Brewer should
have realized this, or at least had serious doubts about
the Frazier information. Madiwale, 117 F.3d at 132627; Kirk, 781 F.2d at 1503. Otherwise any information
that someone at one time told police about someone
else—no matter how old, or how wrong—could be used
to support probable cause.
Nor can Brewer prevail by claiming he cleared
the affidavit with Burris. He tries, arguing that if
Burris saw the affidavit and confirmed it, then the act
cannot be reckless—at worst, that’s negligence, he
claims. But the extent of his discussion with Burris is
a factual claim, not a legal one. After all, a quick look
at the record makes it far from clear what happened.
Brewer testified that he “believe[d]” he talked with
Burris about Frazier but when asked if he “talk[ed]
to Burris about his contact with Frazier,” Brewer
“hesitate[d] to swear to that under oath.” Brewer could
not “recall specific questions that we talked about or
information that we referenced,” but it was “not . . .
when was the time, what was the setting, where were
y’all at.” Burris, too, was vague. All he could say was
that he “probably” looked at the warrant, but he could
not “say for certain.” Nor could Burris “specifically
recall looking through” the warrant application. Yet,
defendants claim that this record, as a matter of law,
requires dismissal. Not so. Ultimately, Brewer’s discussions with Burris might have provided a reason
for including the Frazier information, but that’s a
factual question—one that lies beyond our reach at
this time.
The same can be said about the affidavit’s Garrett paragraph. Brewer, presumably to bolster Garrett’s
credibility, wrote that Garrett “provided other informa-

App.11a
tion which led to the recovery of stolen property which
law enforcement was unaware of prior to this confession.” (emphasis added). It is true that police asked Garrett about other property—a four-wheeler, a generator,
a chainsaw, a miter saw, and more. Then, only hours
later, Brewer submitted his affidavit. So what supported his claim that Garrett’s information led to recovery
of previously unknown stolen property? In briefing,
defendants say that Garrett admitted those items were
stolen, but he did not. Garrett said he bought the fourwheeler. He denied any involvement with alleged stolen
tools and a generator. He claimed a trailer was his,
that he bought a chainsaw, as well as cutting torches
and a miter saw. Like the district court, we are “unable
to locate any crimes—other than his rampant prior possession and use of [drugs] and the theft of the Hooks’s
property” that Garrett admitted to. This is something
Brewer should have known—indeed probably did know
considering his involvement in the Garrett interview.
Or, put another way, including this information in
the affidavit was reckless. Kirk, 781 F.2d at 1503.
And clearly so. Thus, qualified immunity does not
protect Brewer’s conduct. Wesby, 138 S. Ct. at 589.
True, Brewer was not required to “resolve every inconsistency in the evidence,” Paez, 915 F.3d at 1286, or
“explore and eliminate every theoretically plausible
claim of innocence,” Kingsland, 382 F.3d at 1229.
But nor could he turn a blind eye to easily discoverable facts and ignore critical information. Id.
Indeed, an officer must make some “basic investigatory
steps.” Howard v. Gee, 538 F. App’x 884, 890 (11th
Cir. 2013). Brewer was not required to turn over
every rock to confirm Frazier’s story, but he should
do something to ensure the affidavit’s accuracy. See

App.12a

Rankin v. Evans, 133 F.3d 1425, 1435 (11th Cir. 1998).
And on that point, the record does not establish, as a
matter of law, that Brewer did so.
Still, the misstatements and omissions must be
material to the probable cause determination. Paez, 915
F.3d at 1287. If an officer recklessly includes irrelevant
information in an affidavit, then probable cause
remains intact and defendants prevail. Id. To determine materiality we delete the misstatements, include
the omissions, and ask whether the affidavit still
establishes probable cause. Id.; Kirk, 781 F.2d at 1502.
Here, that means eliminating: (1) the Garrett “other
crimes” information, and (2) the fact that Frazier
said Hooks distributed drugs. And it means including:
the five-year-old Frazier investigation turned up no
information on David Hooks, and none of Frazier’s
claims had been corroborated. All police would have
in this “new affidavit” is Garrett’s saying he stole
drugs from Hooks and questionable information from
Frazier. Nothing would support drugs in the Hooks’s
home. The question is: does this amount to probable
cause to search the Hooks’s home? We think not.
Although probable cause requires only a minimal
showing, a warrant affidavit cannot be so hollow as
to be meaningless—it must include a “probability or
substantial chance of criminal activity.” Wesby, 138
S. Ct. at 586.
Remember though, this is a qualified-immunity
case. And that means plaintiff must show defendants
not only violated constitutional rights—they violated
clearly established ones. Wesby, 138 S. Ct. at 589-90.
We define the right at issue with a high degree of
specificity before determining whether the officer exceeded constitutional bounds. Id. at 590. So while it

App.13a
is clearly established that an officer may not recklessly
make material misstatements and omissions in a warrant affidavit, Madiwale, 117 F.3d at 1226-27, we
must determine it was clearly established that Brewer’s
conduct violated these principles, Wesby, 138 S. Ct. at
589-90. That typically means that binding precedent
controls the case, but such precedent need not be identical—it must only “squarely govern” our case. Kisela
v. Hughest, 138 S. Ct. 1148, 1153 (2018) (per curiam).
Plenty of authority does. Misstatements and omissions in affidavits pierce qualified immunity only when
the “new affidavit” lacks even arguable probable cause.
Madiwale, 117 F.3d at 1324. This not-quite-probablecause standard turns on whether “under all of the
facts and circumstances, an officer reasonably could—
not necessarily would—have believed that probable
cause was present.” Crosby v. Monroe Cty., 394 F.3d
1328, 1332 (11th Cir. 2004). But it also requires us to
consider whether an officer “in the same circumstances
and possessing the same knowledge” as Brewer could
have thought there was a significant chance that
Hooks had methamphetamine in his home. Grider v.
City of Auburn, 618 F.3d 1240, 1257 (11th Cir. 2010)
(emphasis added). If factual questions remain about
the information Brewer “possessed or could have
possessed” we cannot conclude arguable probable
cause existed because we cannot say that an officer with
the same information as Brewer could think probable
cause existed. Kingsland, 382 F.3d at 1232.
And those are things we do not know. Brewer
was involved in the 2009 Frazier investigation, so he
may have known that Frazier’s information was bunk.
Or, maybe not. Plus, the record is vague as to
whether Brewer asked Burris about the Frazier

App.14a
investigation before submitting the affidavit. In other
words, there is a “question[ ] of fact regarding the
information [Brewer] possessed or could have possessed.” Kingsland, 382 F.3d at 1232. And “when it is
unclear how much of the proffered evidence tending
to support a finding of arguable probable cause
was . . . misrepresented,” we decline to find arguable
probable cause. Id. If it turns out that Brewer knew
the Frazier information was a misrepresentation and
that he never confirmed it with Burris (or anyone
else), his conduct would “create[ ] factual issues as to
. . . honesty and credibility,” id., thus meaning officers
“possessing the same knowledge” as he could not
have reasonably thought probable cause existed,
Grider, 618 F.3d at 1257. Besides, whether Frazier’s
information could establish arguable probable cause
largely turns on the “veracity, reliability, and basis of
knowledge, as well as any independent corroboration
of the details of the tip.” Feliciano v. City of Miami
Beach, 707 F.3d 1244, 1254 (11th Cir. 2013). No doubt,
the veracity and reliability of Frazier’s information—
and what Brewer knew about it—remains in play.
In short, we accept plaintiff’s story and answer the
pure legal question of whether that version amounts
to a violation of clearly established law. Al-Amin v.
Smith, 511 F.3d 1317, 1325 (11th Cir. 2008). In this
context, a defendant does not violate clearly established
law if he has arguable probable cause. But that turns
on circumstances the defendant faced and knowledge
the defendant had. And because those things are not
clear, we cannot grant summary judgment to Brewer.
We reach the opposite result for Vertin and Harrell. As to Vertin, Teresa argues that he illegally
detained her outside her house. But, at the very least,

App.15a
Vertin did not violate any clearly established law, so
he is entitled to qualified immunity. See Croom v.
Balkwill, 645 F.3d 1240, 1246-47 (11th Cir. 2011). Officers may temporarily detain occupants of a house while
executing a search warrant. Muehler v. Mena, 544 U.S.
93, 98 (2005). Yes, the GBI took over the investigation
and Laurens County officers never executed the warrant they intended to, but there is no authority—let
alone clearly established authority—that suggests this
distinction makes a difference. Wesby, 138 S. Ct. at
589-90.
As to Harrell, the unlawful detention claim fails
because Vertin is entitled to qualified immunity. Myers
v. Bowman, 713 F.3d 1319, 1328 (11th Cir. 2013). And
on the illegal search claim, plaintiff cannot meet the
“extremely rigorous” supervisor-liability standard.
Piazza v. Jefferson Cty., 923 F.3d 947, 957 (11th Cir.
2019). Harrell must have “either directly participated
in the unconstitutional conduct” or there must be “a
casual connection . . . between the supervisor’s actions
and the alleged constitutional violation.” Keith v.
DeKalb Cty., 749 F.3d 1034, 1047 (11th Cir. 2014).
Neither exists here. Harrell was at the warrant execution meeting, but nothing suggests he was personally involved in unconstitutional conduct. See
Smith v. LePage, 834 F.3d 1285, 1298 (11th Cir.
2016). He also had no role in securing the warrant.
He did not “direct[ ] subordinates to act unlawfully or
kn[o]w that the subordinates would act unlawfully and
fail[ ] to stop them from doing so.” Cottone v. Jenne, 326
F.3d 1352, 1360 (11th Cir. 2003). And nothing shows
that Harrell “had subjective knowledge of a risk of
serious harm” to the Hooks that he recklessly dis-

App.16a
regarded.” Keith, 749 F.3d at 1048. So he keeps his
qualified immunity shield.
Two final notes: First, Teresa can pursue punitive
damages against Brewer. Such damages are available
in a § 1983 case “when the defendant’s conduct is shown
to be motivated by evil motive or intent or when it
involves reckless or callous indifference to the federally
protected rights of others.” Smith v. Wade, 461 U.S. 30,
55 (1983). Hooks may attempt to prove this at trial.
Second, we do not address defendants’ proximatecause argument because it is outside our grasp. In
reviewing the denial of qualified immunity, we have
jurisdiction over only the legal issue of whether the
defendant violated clearly established law, which does
not include whether a genuine factual dispute exists
as to an element of a claim (such as causation). See
Leslie v. Hancock Cty. Bd. of Educ., 720 F.3d 1338,
1344 (11th Cir. 2013). The causation issue is not “inextricably intertwined” with immunity, so we could not
exercise pendent jurisdiction over it, either. See Smith
v. LePage, 834 F.3d 1285, 1292 (11th Cir. 2016).
We AFFIRM the district court’s order as to Brewer, REVERSE as to Harrell and Vertin, and REMAND
for further proceedings consistent with this decision.

App.17a
OPINION OF JUSTICE JORDAN CONCURRING
IN PART AND DISSENTING IN PART
JORDAN, Circuit Judge, concurring in part and dissenting in part.
For the reasons stated in the majority opinion
and in the district court’s order, I agree that Officer
Brewer is not entitled to qualified immunity on the
unreasonable search claim. I also agree that Sheriff
Harrell should not be held liable in his supervisory
capacity on any claim, and that Ms. Hooks is entitled
to pursue punitive damages.
I part ways, however, with the majority’s holding
that the two-hour detention of Ms. Hooks in cuffs
following the shooting of her husband did not violate
clearly established law. This detention of an innocent
person—without probable cause, without a contemporaneous execution of a valid search warrant, and without
exigent circumstances—is a clear Fourth Amendment
violation far outside any narrow exception permitted
by Supreme Court precedent. With respect, I dissent
from the grant of qualified immunity to Officer Vertin
and Sheriff Harrell on Ms. Hooks’ detention claim.
[***]
The Fourth Amendment protects “[t]he right of
the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and
seizures.” U.S. Const. Amend. IV. A person is “seized”
within the meaning of the Fourth Amendment when
“there is a governmental termination of freedom of
movement through means intentionally applied.” Brower v. Cty. of Inyo, 489 U.S. 593, 597 (1989) (emphasis
omitted). See also Terry v. Ohio, 392 U.S. 1, 16 (1981)

App.18a
(“[W]henever a police officer accosts an individual and
restrains his freedom to walk away, he has ‘seized’
that person.”).
As a “general principle . . . Fourth Amendment
seizures must be supported by the ‘long prevailing
standards’ of probable cause[.]” Dunaway v. New
York, 442 U.S. 200, 212-13 (1979) (“The requirement of
probable cause has roots that are deep in our history.”)
(citation and internal quotation marks omitted). See
also Michigan v. Summers, 452 U.S. 692, 700 (1981)
(“[E]very arrest, and every seizure having the essential
attributes of a formal arrest, is unreasonable unless
it is supported by probable cause.”); United States v.
Virden, 488 F.3d 1317, 1321 (11th Cir. 2007) (same).
The Constitution permits certain types of limited
exceptions to this general rule, including some detentions not supported by probable cause. See, e.g., Terry,
392 U.S. at 20. The guiding principle is reasonableness
—“balanc[ing] the nature and quality of the intrusion
on the individual’s Fourth Amendment interests
against the importance of the governmental interests
alleged to justify the intrusion.” United States v. Place,
462 U.S. 696, 703 (1983). But unless one of these exceptions applies, all prolonged detentions must be supported by probable cause. See Dunaway, 442 U.S. at 21013.
The majority bases its resolution of Ms. Hooks’
detention claim on a narrow rule articulated in Summers, 452 U.S. at 704-05. Summers permits “temporary
detentions by law enforcement of a premises’ occupants
while those premises are being searched pursuant to
a search warrant.” Croom v. Balkwill, 645 F.3d 1240,
1247 (11th Cir. 2011) (citing Summers, 452 U.S. at 705).
See also Muehler v. Mena, 544 U.S. 93, 100-02 (2005)

App.19a
(officers acted reasonably by detaining an occupant
in handcuffs for two to three hours while a search of
the premises was in progress given the fact that the
warrant sought weapons and evidence of gang membership).
The problem with relying on Summers, of course,
is that no search was ever conducted during the
detention of Ms. Hooks. After the shooting, Officer
Vertin handcuffed Ms. Hooks with metal handcuffs
behind her back, took her out the back door to the
side of the house, and had her sit on a patio chair by
the pool. Another officer searched Ms. Hooks’ person
and found nothing of note. Officer Vertin removed
the metal handcuffs and replaced them with plastic
zip-tie handcuffs. Ms. Hooks’ detention continued up
to and through her eventual interview by GBI officers
approximately two hours after her initial escort from
the interior of the house. She was not permitted to
leave the premises until approximately 1:30 a.m.
Both Officer Vertin and Sheriff Harrell testified
that as soon as the shooting occurred, they knew
Laurens County officers could not execute the search
pursuant to the search warrant. This was because
the established policy for officer-involved shootings was
to secure the premises, cease any further investigation,
and await the arrival of GBI to conduct an independent
investigation. Significantly, even GBI did not conduct
a search during the time Ms. Hooks was detained. In
fact, GBI agents did not acquire a search warrant for
the Hooks residence until approximately 1:52 a.m.—
after Ms. Hooks was released. Thus, Ms. Hooks’ detention was not incidental to any search whatsoever, as
neither the GBI nor Laurens County officers conducted
a search during the two-hour detention.

App.20a
The majority does not address this fundamental
contradiction with the precedent it cites. It says only
that it finds irrelevant the fact that Laurens County
officers did not execute their original search warrant
because GBI took over the investigation. See Maj.
Op. at 16. In just a few sentences, and without directly
saying so, the majority endorses a dramatic broadening
of what the Supreme Court intended to be an exception to the general rule that a seizure of this nature
and duration must be supported by probable cause.
See Bailey v. United States, 568 U.S. 186, 200 (2013)
(“Because [the Summers] exception grants substantial
authority to police officers to detain outside of the
traditional rules of the Fourth Amendment, it must be
circumscribed.”). The majority’s extension is so broad,
in fact, that it essentially eliminates one of the exception’s core elements: the requirement of a contemporaneous search pursuant to a valid warrant.
The majority’s expansion of Summers (and Mena)
would permit officers to detain innocent people virtually
indefinitely, absent probable cause, as long as some
warrant for the premises exists and some search is
expected to happen eventually (whether or not the
search is contemporaneous with the detention, or even
imminent). The Supreme Court intended Summers to
be a “categorical” exception not subject to ad hoc determination. See Mena, 544 U.S. at 97-98. See also Bailey,
568 U.S. at 193 (“The rule announced in Summers
allows detention incident to the execution of a search
warrant[.]”). By extension, the inverse of Summers
must be similarly categorical: when no search is
contemporaneously executed, its exception does not
apply. We are simply not at liberty as a court of appeals

App.21a
to fashion Fourth Amendment exceptions beyond what
the Supreme Court has specifically authorized.
[***]
That is not my only concern. Assuming that the
initial brief detention of Ms. Hooks was reasonable—
and I believe it was, given the dangerous series of
events that preceded it and the officers’ need to secure
the premises for safety—there was no justification
for her continued lengthy detention in cuffs once the
interests justifying that detention disappeared. As
explained in Croom, “a seizure that is reasonable at
its inception may quickly become unreasonable if it
extends beyond its unique justification.” 645 F.3d at
1250 (citing Florida v. Royer, 460 U.S. 491, 500 (1983)).
In the related Terry stop context, for example,
the Supreme Court has held that the police may not
extend an otherwise lawful traffic stop—without reasonable suspicion—to conduct an unrelated investigation.
See Rodriguez v. United States, 135 S. Ct. 1609, 1612
(2015) (“A seizure justified only by a police-observed
traffic violation . . . become[s] unlawful if it is prolonged
beyond the time reasonably required to complete th[e]
mission of issuing a ticket for the violation.”) (citation and internal quotation marks omitted). Indeed,
as we recently recognized, when it comes to unlawfully
prolonged detentions, even a relatively short prolongation violates the Constitution. See United States v.
Campbell, 912 F.3d 1340, 1355 (11th Cir. 2019)
(officer’s 25-second-long questioning of a driver about
“crime in general” impermissibly prolonged an otherwise lawful traffic stop and violated the Fourth
Amendment because it was unrelated to the initial
purpose of the stop and unsupported by reasonable
suspicion) (quoting Rodriguez, 135 S. Ct. at 1616).

App.22a
As set forth above, Ms. Hooks was held in cuffs
for two hours while her husband was dying in the
hospital, even though no search was being conducted.
The Supreme Court—and we—have permitted detentions as long or longer than the one endured by Ms.
Hooks, but in all of those cases the detentions were
incident to and during the execution of a valid search
warrant. See Mena, 544 U.S. at 97-98; Croom, 645 F.3d
at 1249; Daniel v. Taylor, 808 F.2d 1401, 1402 (11th
Cir. 1986). That critical fact is missing here.
Not only was Ms. Hooks’ detention not incidental
to any search, but the justifications for the Summer
exception did not exist. See Bailey, 568 U.S. at 194
(cautioning that the Summers “exception to the Fourth
Amendment rule prohibiting detention absent probable
cause must not diverge from its purpose and rationale”).
The Supreme Court has identified “three important
law enforcement interests that, taken together, justify
the detention of an occupant who is on the premises
during the execution of a search warrant: officer
safety, facilitating the completion of the search, and
preventing flight.” Id. (quoting Summers, 452 U.S. at
702-03) (internal quotation marks omitted). Not one
of these interests justified the detention of Ms. Hooks.
First, Sherriff Harrell and Officer Vertin did not
detain Ms. Hooks to facilitate the completion of the
search (e.g., “to open locked doors or locked containers”).
See Summers, 452 U.S. at 703. As they both acknowledged in their depositions, they knew they would not
be searching the premises as soon as they heard Mr.
Hooks had been shot, because GBI would take over.
Thus, they knew they would not be needing Ms. Hooks’
assistance to aid in a search.

App.23a
Second, although Sheriff Harrell claimed that he
detained Ms. Hooks to ensure officer safety, there was
no reason to believe Ms. Hooks posed a safety risk.
Unlike in Mena, 544 U.S. at 100, where the officers
executed a search warrant of premises where “a
wanted gang member reside[d]”—an “inherently dangerous situation[ ]”—here, there was no evidence Ms.
Hooks was dangerous, there was no reason to suspect
her of any wrongdoing, and no charges against her
were contemplated. An officer had already searched
her person, and Sheriff Harrell and his deputies had
control of the premises.
Third, flight was not a concern. As the Supreme
Court explained in Summers, flight becomes a risk
“in the event that incriminating evidence is found.”
452 U.S. at 702. But neither the Lauren County officers
nor GBI were searching for evidence implicating Ms.
Hooks, and there was no indication or fear that she
would flee. Sheriff Harrell stated in his deposition that
Ms. Hooks “need[ed] to be there until the GBI talked
to her as a witness.” D.E. 83-8 at 121:11-12 (emphasis
added). Yet there was no reason to believe she would
not freely and willingly make herself available to
GBI later as a witness.
Holding Ms. Hooks in cuffs for two hours for questioning (when no search was being conducted) was not
a valid reason to prolong a detention under Summers.
Cf. Mena, 544 U.S. at 101 (holding that questioning
Mena about her immigration status during the detention did not violate the Fourth Amendment because
“the Court of Appeals did not find that the questioning
extended the time Mena was detained”). Not surprisingly, our sister circuits have rejected the application
of Summers to witness-detention scenarios divorced

App.24a
from the execution of a search warrant. See Cruz v.
Barr, 926 F.3d 1128, 1144 (9th Cir. 2019) (explaining
that although officers may ask questions of Summers
detainees, that “does not allow officers to conduct a
Summers detention for the purpose of obtaining
answers from detainees” or to “hold[ ] them long beyond
the length of the search so they can be further interrogated”); United States v. Watson, 703 F.3d 684, 695
(4th Cir. 2013) (holding that Summers did not apply
to officers’ three-hour detention of a building occupant,
while the officers sought to obtain a search warrant for
the building, because “the presence of a search warrant
was central to the Court’s decision” in Summers).
As explained earlier, absent an exception to the
probable cause requirement, Ms. Hooks’ detention is
governed by the “general rule that Fourth Amendment
seizures are ‘reasonable’ only if based on probable
cause.” Dunaway, 442 U.S. at 213. The majority says
the prolonged detention of Ms. Hooks did not violate
any clearly established law, see Maj. Op. at 16, but
the Fifth Circuit holds otherwise.
In Heitschmidt v. City of Houston, 161 F.3d 834
(5th Cir. 1998), the plaintiff, who was not a target of
the police’s investigation and was not suspected of
any wrongdoing, was detained for four hours in
handcuffs while the police searched his house during
an investigation of illegal activity by another occupant.
See id. at 835-36. The Fifth Circuit reversed the district
court’s grant of qualified immunity to the officers,
holding that the plaintiff sufficiently alleged a violation of his clearly established right to be free from an
unreasonable seizure. See id. at 839. In reaching this
conclusion, the Fifth Circuit explained that the
justifications supporting the plaintiff’s detention were

App.25a
“far less persuasive than was the case in Summers ”—
the plaintiff was not trying to flee, the officers had no
reason to believe he was involved in any crime, and
there was no reason to believe he would endanger
the officers. See id. at 838-39 (“While the existence of
a search warrant may, in some circumstances, support
a reasonable belief that anyone present at the premises to be searched is engaged in criminal activity
. . . that justification is significantly weakened when,
as here, police know the occupant’s identity and yet
have no articulable reason for suspecting that person of criminal activity.”).
Here, as in Heitschmidt, there was no justification
for the prolonged detention of Ms. Hooks, who was a
witness to the police shooting her husband but not a
suspect of any crime. As the district court aptly noted:
“[A]llowing [Ms. Hooks] to leave the premises to go to
the hospital to attend to her dying husband would in
no way have impeded any search or investigation under
the totality of the circumstances; in fact, her continued
detention most likely hampered the investigation by
unnecessarily diverting manpower.” D.E. 131 at 65
n.60. The majority does not explain why the result
here should not be the same as in Heitschmidt.
[***]
Even if we were to assume that the general
requirement of probable cause does not control, we
would have to review the detention of Ms. Hooks under
the longstanding Fourth Amendment principle of
reasonableness, which requires “balancing the nature
and quality of the intrusion on the individual’s Fourth
Amendment interests against the importance of the
governmental interests alleged to justify the intrusion.”
Place, 462 U.S. at 703. “[W]e look to the ‘objective rea-

App.26a
sonableness’ of the law enforcement officer’s actions,
asking: would the facts available to the officer at the
moment of the seizure . . . warrant a man of reasonable
caution in the belief that the action taken was appropriate?” Croom, 645 F.3d at 1249 (citations and internal quotation marks omitted).
After the shooting of her husband, Ms. Hooks was
cuffed with zip-ties, searched, and placed in a chair
by the pool on the side of her house. There she stayed
for approximately two hours in the rain, at all times
bound with zip-ties. She was held even though Officer
Vertin and Sheriff Harrell testified there was no
probable cause to arrest her. They also understood
that, after the shooting of Mr. Hooks, no search of
the premises would be conducted by Laurens County
officers.
The two-hour involuntary detention of Ms. Hooks,
while she was restrained by zip-tie cuffs and confined
to a chair, hardly strikes me as a “slight” intrusion
into her Fourth Amendment protected interests. Not
only was the detention lengthy, but handcuffs as a
use of force made the detention “more intrusive” than
what was authorized in Summers. See Mena, 544 U.S.
at 99.
Even if we accept that the intrusion here was
“slight,” the government interests on the other side of
the Fourth Amendment ledger cannot be characterized
as “substantial” as to justify the prolonged seizure.
As discussed, the officers’ articulated purposes for Ms.
Hooks’ detention were safety and awaiting the arrival
of GBI to interview her. But once the premises were
secured, and Ms. Hooks was searched and deemed
not to be a threat, those safety concerns were substantially diminished. There was no evidence to indicate

App.27a
that Ms. Hooks was a suspect or flight risk, that she
would interfere with the search, or that she would be
unavailable for interview by GBI at some later date.
The justifications for detaining her absent any probable
cause were simply non-existent.
[***]
I would hold that the two-hour detention of Ms.
Hooks in cuffs, without probable cause to arrest her,
with no ongoing search of the premises, and with no
exigent circumstances, violated clearly established
Fourth Amendment law. Accordingly, I would affirm
the district court’s denial of qualified immunity to
Officer Vertin and Sheriff Harrell on Ms. Hooks’ detention claim.

App.28a
OPINION OF JUSTICE GRANT CONCURRING IN
PART AND DISSENTING IN PART
GRANT, Circuit Judge, concurring in part and dissenting in part.
I agree that Sergeant Vertin has qualified immunity for his detention of Teresa Hooks. I also agree
that the plaintiff has not met the “extremely rigorous”
standard for holding Sheriff Harrell liable for the
actions of his subordinates on any of the claims.
Piazza v. Jefferson Cty., 923 F.3d 947, 957 (11th Cir.
2019) (citation omitted). But I disagree with the majority’s ruling denying qualified immunity to Sergeant
Brewer for his search warrant application. According
to the majority, the search warrant here was not valid
—indeed, was not even arguably valid—even though
the warrant (1) was based on the testimony of a witness who voluntarily admitted to serious crimes in
order to talk to police; (2) explained that the witness
rifled through the cab of a pickup truck parked next
to a house; (3) relayed that the witness found a large
amount of methamphetamine and digital scales; (4)
stated that the witness grabbed those items and
stole another car along with two guns from the same
property; (5) reported that the house belonged to a man
who had previously been named as a drug dealer by an
informant; (6) was prepared by an officer who checked
with an assistant district attorney to confirm that his
affidavit would establish probable cause for a search
of the car owner’s house; and (7) was approved by a
magistrate judge. That cannot be the rule. Because of
that disagreement, I respectfully concur in part and
dissent in part.
[***]

App.29a
By the time he heard Rodney Garrett’s unsolicited
car-theft confession, Laurens County Sheriff’s Office
narcotics unit supervisor Christopher Brewer had
heard from several sources over the years that David
Hooks was trafficking in methamphetamine. One of
those sources was a meth dealer named Jeff Frazier.
In an interview with narcotics officers in 2009, Frazier
described Hooks as a smart, careful drug dealer who
was jealous of his territory and a dangerous guy to
cross. According to Frazier, Hooks dealt mostly in
cocaine but also did some business in methamphetamine. Frazier said that he personally delivered over
100 grams of meth to Hooks about once a month.
Sgt. Brewer hoped that Frazier’s information
might be the lead he needed to get something solid on
Hooks. He drove out to Hooks’s house in an unsuccessful effort to make contact with him, and he and other
narcotics officers lingered in the area from time to
time hoping to see something suspicious or make an
informative traffic stop. But they were never able to
corroborate Frazier’s information—until Garrett came
along.
In the late summer of 2014, Sergeant Brewer
learned that Garrett had turned himself in to Sergeant
Brian Brooks, who was a family friend of the Garretts
and who had known Rodney Garrett since he was a
child. Garrett was addicted to methamphetamine and
had turned to stealing to support his habit. He confessed to Sgt. Brooks that he had stolen a luxury SUV,
two guns, and a “large amount of meth” from David
Hooks’s property.
Garrett said that he had been kicked out of the
house where he had been staying and wandered onto
the Hooks property looking for something to steal,

App.30a
stopping now and then to smoke meth along his way.
At the end of a half-mile driveway, he saw two
vehicles parked under the carport next to the house,
a shed about 50 yards from the house, and a Lincoln
Aviator, conveniently parked in the dark near the
shed. The keys were in all three vehicles.
Garrett took two long guns from the shed and got
into the Aviator. He saw that the Aviator was low on
gas, so he rifled through the cab of Hooks’s pickup
truck, looking for gas money. He found some loose bills
in the center console, as well as a neoprene bag shaped
like a beer bottle. The bag felt like it might contain
paper money, so Garrett grabbed it, along with a set
of digital scales that he found in the console under
the bag, and took off in the Aviator.
When Garrett got to a gas station and opened the
bag, he was startled to find that it was full of meth—
about three or four thousand dollars’ worth, he thought.
The rest of that night, and the next, Garrett hid out
in the woods smoking some of the meth and trying to
decide what to do. His mind raced—he was certain
that only a big-time drug dealer would have that much
meth lying around in his car. He considered selling
the rest of it and getting out of town, but the only
person he could think of who might buy it was his
own drug source, and he couldn’t trust that person to
keep quiet. He saw no easy way out.
Finally, Garrett decided that his best course was
to turn himself in and hand the drugs over to the
police. He knew that between another vehicle theft a
few days earlier and the theft of the Aviator and guns
from the Hooks property he would get a stiff prison
sentence. But he feared the big-time drug dealer whose
property he had stumbled upon, and he hoped that

App.31a
the police could protect him. So he went home, and his
mother called Sgt. Brooks, who was a family friend.
His confession followed.
When Sgt. Brewer heard Garrett’s story, it added
up. Sgt. Brewer was familiar with David Hooks’s house
from the Frazier investigation, so he recognized the
Hooks property from Garrett’s description of the location and layout of the house, carport, and shed. What’s
more, he knew that the guns and the Aviator had been
stolen from Hooks just as Garrett claimed, because
Hooks had reported the theft and provided a description of the guns and the VIN for the Aviator. Sgt.
Brewer had reason to believe Garrett when he said
that the methamphetamine came from Hooks’s other
car, based on past reports of Hooks’s drug trafficking
from Frazier and others. And to top it off, he had a
meth addict who had been stealing to feed his habit
but was willing to give up nearly a month’s supply of
the drug and go to jail out of fear for his safety.
Sgt. Brewer thought that he had enough to get a
warrant to search Hooks’s house. But just to be sure,
he called an assistant district attorney and asked his
opinion. The attorney thought that if Sgt. Brewer put
Garrett’s tip and all the corroborating information
that he had in a search warrant application, it would
be enough to find probable cause for the search. So
Sgt. Brewer prepared an affidavit relating Garrett’s
story and added some of the reasons that he found
Garrett’s story believable.
Given these facts, I have no doubt that “reasonable
officers in the same circumstances and possessing the
same knowledge” as Sgt. Brewer “could have believed
that probable cause existed.” Lowe v. Aldridge, 958
F.2d 1565, 1570 (11th Cir. 1992) (citation omitted). And

App.32a
surely it was at least arguably enough for the magistrate to make the “practical, common-sense judgment”
that there was a “fair probability” of finding contraband
or other evidence of criminal activity in David Hooks’s
house. Illinois v. Gates, 462 U.S. 213, 238, 244 (1983).
That being so, the majority ought to have concluded
that Sgt. Brewer is entitled to immunity from suit on
any claim arising from his warrant application. Lowe,
958 F.2d at 1570. Instead, while paying lip service to
the correct analytical framework, the majority begins
its analysis with a clear factual error, continues by
making too much of an irrelevant statement, and
concludes by measuring its improperly truncated “new
affidavit” against an artificially high legal standard.
The majority’s first mistake is one of fact—Frazier
did say that David Hooks was distributing methamphetamine, though not in so many words. The majority
wrongly declares that “Frazier never said as much,”
based on the deposition testimony of Corporal Tim
Burris, who interviewed Frazier in 2009 and contemporaneously reported the content of the interviews to Sgt.
Brewer. It’s true that Cpl. Burris testified in 2016 that
he did not recall Frazier saying that David Hooks
sold meth to “any third party.”
The good news is that we are not forced to rely
on Cpl. Burris’s memory of the Frazier interviews—
the record contains an audio recording that we can rely
on instead. And in that recorded interview, Frazier
referred to both Hooks’s “meth business” and his
“coke business.” He also said that Hooks was angry
because a nearby drug dealer was “moving a lot of dope”
and “taking some of his business obviously.” And if
that is not enough to show that Frazier revealed Hooks
to be a drug dealer, Frazier also told Cpl. Burris that

App.33a
he was delivering about a quarter pound of methamphetamine (roughly 113 grams) to Hooks every month.
That’s a lot of meth—so much that no one would
seriously suggest that it could be for personal use.
Moreover, the inference that Hooks was redistributing the methamphetamine that he got from Frazier
was not just a matter of common sense. In Georgia, as
Sgt. Brewer was no doubt aware, anyone who possesses
28 grams or more of methamphetamine is guilty of
trafficking—a more serious offense even than possession with intent to distribute. See O.C.G.A. § 16-1331(e); United States v. Madera-Madera, 333 F.3d 1228,
1231-32 (11th Cir. 2003). So while Sgt. Brewer’s statement in the warrant affidavit that Frazier said “that
he had been the source of supply for multiple ounces of
methamphetamine to Hooks which Hooks was redistributing” was a rough summary of Sgt. Brewer’s takeaway from the interviews rather than a direct quote,
it was certainly “‘truthful’ in the sense that the information put forth is believed or appropriately accepted
by the affiant as true.” Franks v. Delaware, 438 U.S.
154, 165 (1978). The majority’s decision to discard
Frazier’s information in its probable cause analysis
was wrong.
The majority also finds fault with Sgt. Brewer’s
affidavit statement that Garrett had confessed to “other
criminal offenses” not related to the Hooks theft and
“provided other information which led to the recovery
of stolen property which law enforcement was unaware
of prior to this confession.” Yes, that statement was
partially false—though Garrett had confessed to stealing another car and buying a stolen chainsaw, police
learned of both of those thefts before talking to Garrett.
But even if this partial misstatement was inten-

App.34a
tional or reckless (and it’s not at all clear that it was
either), it was not material to the analysis because
probable cause would not “be negated if the offending
statement was removed.” Paez v. Mulvey, 915 F.3d
1276, 1287 (11th Cir. 2019). Considering all the other
information in Sgt. Brewer’s affidavit, whether Garrett
also confessed to previous petty crimes just didn’t
matter. See O’Ferrell v. United States, 253 F.3d 1257,
1267 (11th Cir. 2001).
To put an even finer point on it, even if we were to
make all the changes to the warrant that the majority
suggests, the “new” search warrant affidavit would still
establish (at least) arguable probable cause to search
Hooks’s home. See Paez, 915 F.3d at 1288. To begin, the
majority seriously undervalues the information provided by Garrett, which formed the heart of Sgt.
Brewer’s probable cause showing. If believed, Garrett’s
claim that he had discovered digital scales and a
significant amount of methamphetamine in David
Hooks’s car—while the car was parked a few feet from
Hooks’s back door, in the middle of the night in rural
Laurens County—was enough to “supply the authorizing magistrate with a reasonable basis for concluding
that [he] might keep evidence of his crimes at his
home, i.e., a ‘safe yet accessible place.’” United States
v. Kapordelis, 569 F.3d 1291, 1310 (11th Cir. 2009)
(citation omitted).
The majority complains that Sgt. Brewer lacked
direct evidence that Hooks kept methamphetamine
in his home. But as we have said before, there “need
not be an allegation that the illegal activity occurred
at the location to be searched, for example the home,”
as long as the affidavit establishes “a connection
between the defendant and the residence to be searched

App.35a
and a link between the residence and any criminal
activity.” Id. (citation omitted). Sgt. Brewer made both
connections here.
The affidavit explained that Sgt. Brewer was
“familiar with” Hooks and his home from a prior
investigation, meaning that he had personally driven
to the Hooks home and was able to confirm that the
house Garrett described belonged to David Hooks—
thus establishing “a connection between the defendant
and the residence to be searched.” Id. And evidence
that Hooks had 20 grams of methamphetamine—not
an amount suitable for personal use—stashed right
outside his house was enough to provide the required
link to the house. See United States v. Anton, 546 F.3d
1355, 1358 (11th Cir. 2008) (evidence that a suspect
possesses contraband of a type that he would normally
be expected to hide in his home supports a finding of
probable cause to search the home). “The justification
for allowing a search of a person’s residence when
that person is suspected of criminal activity is the
common-sense realization that one tends to conceal
fruits and instrumentalities of a crime in a place to
which easy access may be had and in which privacy
is nevertheless maintained.” Kapordelis, 569 F.3d at
1310 (citation omitted). The fact that Hooks had scales
and a bag full of methamphetamine in his car raised
a “fair probability” that he had drugs and related
paraphernalia in his house too. Gates, 462 U.S. at
238.
The affidavit also contained enough information
supporting Sgt. Brewer’s belief in the truth of Garrett’s
statement about where he found the methamphetamine. Because the affidavit relied on hearsay from an
informant, Sgt. Brewer was required to provide infor-

App.36a
mation from which the magistrate could evaluate the
informant’s credibility, including his “veracity” and
“basis of knowledge.” Gates, 462 U.S. at 230. This
does not mean that Sgt. Brewer was required to
vouch for Garrett’s good character; Garrett, like many
police informants, was hardly a model citizen, and
Sgt. Brewer did not try to cast him in that light in his
affidavit. Where an informant’s background and character are questionable or unknown, his “veracity” can
be established by showing that “corroboration through
other sources of information reduced the chances of a
reckless or prevaricating tale,” and provided “a substantial basis for crediting the hearsay.” Id. at 244-45
(citation omitted). And the informant’s veracity and
basis of knowledge are “closely intertwined issues that
may usefully illuminate the commonsense, practical
question whether there is ‘probable cause’ to believe
that contraband or evidence is located in a particular
place.” Id. at 230.
Sgt. Brewer’s affidavit described three circumstances supporting the reliability of Garrett’s information.
First, in explaining how he got the methamphetamine,
Garrett voluntarily confessed to stealing the Aviator
and two guns, as well as the drugs and digital scales,
from David Hooks’s property. The fact that Garrett was
willing to risk significant criminal exposure (he was
later sentenced to 10 years with 5 to serve in prison)
tended to make his account of where he found the
methamphetamine more believable. Although the fact
that an informant’s statement is against his penal
interests is not enough to establish probable cause
standing alone, admissions “of crime, like admissions
against proprietary interests, carry their own indicia
of credibility” and provide at least some support for a

App.37a
finding of probable cause. United States v. Harris, 403
U.S. 573, 583 (1971) (plurality opinion); see United
States v. Burston, 159 F.3d 1328, 1334 (11th Cir. 1998).
Garrett also confessed that he often smoked a
gram of meth a day, that he had been smoking meth
on the night of the thefts, and that he was looking for
something to steal in order to support his habit when
he entered Hooks’s property. This confession, besides
being yet another statement against Garrett’s penal
interests, gave Sgt. Brewer an additional reason to
believe that Garrett had stumbled on the drug stash
as he said. After all, where would Garrett have gotten
the money to buy 20 grams of methamphetamine? And
if he had traded stolen goods for the drugs after leaving
the Hooks property, as the district court suggested,
why would he have turned it over to law enforcement, rather than keeping it for his own use? In this
context, Garrett’s explanation—that he was alarmed
by the amount of meth that he found and afraid for
his safety once the owner discovered its theft—made
sense. See Massachusetts v. Upton, 466 U.S. 727, 734
(1984) (“internal coherence” of informant’s story supported finding of probable cause).

Second, the fact that Garrett’s knowledge was
based on his personal observation supported the reliability of his information. See United States v. Brundidge, 170 F.3d 1350, 1353 (11th Cir. 1999). Garrett
claimed to have found the methamphetamine in David
Hooks’s car himself—and he had proof of his firsthand
experience, because he still had the drugs, along with
the Aviator and guns that he admitted to stealing at
the same time. It would have been a different matter
if Garrett claimed that he had stolen a car and some
drugs from Hooks but could not produce either one.

App.38a

Third, Sgt. Brewer provided information from a
previous informant (Frazier) who had also claimed that
David Hooks was involved with methamphetamine.
To be sure, Frazier’s information was stale and had not
been corroborated before. But otherwise-uncorroborated allegations made by two informants in separate
statements can corroborate each other. See United
States v. Martin, 615 F.2d 318, 326 (5th Cir. 1980).1
And stale information connecting a suspect with drug
trafficking in the past can provide support for allegations of more recent drug activity. See United States
v. Magluta, 198 F.3d 1265, 1272 (11th Cir. 1999),
vacated in part on other grounds on reh’g 203 F.3d
1304, 1305 (11th Cir. 2000); United States v. Harris,
20 F.3d 445, 450 (11th Cir. 1994).
With all of this information corroborating Garrett’s
claim that he found 20 grams of methamphetamine
in Hooks’s car, Sgt. Brewer had plenty of facts to
support the magistrate’s finding of probable cause—
more than he needed to preserve his qualified immunity
from the plaintiff’s civil claims. To deny qualified
immunity, we must conclude not only that the revised
affidavit does not support a finding of probable cause,
but also that “a reasonably well-trained officer” in the
appellant’s “position would have known that his
affidavit failed to establish probable cause and that
he should not have applied for the warrant.” Malley
v. Briggs, 475 U.S. 335, 345 (1986). And “if officers of
reasonable competence could disagree on this issue,
1 See

Bonner v. City of Prichard, 661 F.2d 1206, 1209

(11th Cir. 1981) (en banc) (adopting as binding precedent all decisions of the former Fifth Circuit handed
down before October 1, 1981).

App.39a
immunity should be recognized.” Id. at 341. Sgt. Brewer
had at least arguable probable cause to obtain the
search warrant, and he should not be held personally
liable for any damages arising from the execution of
the warrant.
[***]
If this search warrant application doesn’t satisfy
the “arguable probable cause” standard, I almost don’t
know what would. I therefore respectfully dissent to
the majority’s decision on the warrant, and join the
remainder of the majority opinion.

App.40a
ORDER OF THE
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF GEORGIA
(JANUARY 29, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually; and
ESTATE OF DAVID HOOKS, by Teresa Pope Hooks,
Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER; STEVE VERTIN; and
WILLIAM “BILL” HARRELL;

Defendants.
________________________
CV 316-023
Before: Dudley Hollingsworth BOWEN JR.
United States District Judge.
On September 24, 2014, Sheriff’s Deputies with a
search warrant forcibly entered the rural home of
David and Teresa Hooks at 11:00 p.m. where they
shot and killed David Hooks as he ran naked, holding
a shotgun by his side. This suit for damages turns
upon the issue of whether the search warrant was
lawfully obtained. Motions for summary judgment filed

App.41a
by Defendants Christopher Brewer and William “Bill”
Harrell place the issue squarely before the Court. A
thorough and sifting examination of the record reveals
genuine disputes of material fact regarding the existence of probable cause to seek the warrant. Defendants’ motions for summary judgment are therefore
DENIED.1
I.

Background

Around midnight on September 22, 2014 (into the
early morning of September 23, 2014), numerous items
were stolen from the curtilage of the rural residence
of David and Teresa Hooks, located at 1184 Highway
319 North, East Dublin, Georgia. (See Doc. No. 83-18,
at 3 (Sergeant Robbie Toney’s investigative summary).)
At approximately 2:00 p.m. on September 23, 2014,
David Hooks called the Laurens County Sheriff’s Office
to report these thefts. (Id.) Sergeant Robbie Toney
received the call, during which David Hooks reported,
inter alia, that: (i) both his and his wife’s personal
vehicles had been entered and money and guns had
been taken from these vehicles and a nearby detached
garage; and (ii) an additional vehicle he owned, namely
a Lincoln Aviator, had been stolen. (Id.) David Hooks
provided Sergeant Toney with the Aviator’s vehicle
identification number (“VIN”), which Sergeant Toney
entered into GCIC as a stolen vehicle. (Id.) Shortly
thereafter, Sergeant Toney—joined by Laurens County
Deputy Brian Fountain—went to the Hooks property.
(Id.; see also Doc. No. 83-16 (Deputy Fountain’s incident report listing all items purportedly stolen from
1 This Order also addresses the motions for summary judgment
filed by Defendant Harrell and Defendant Steve Vertin respecting
Plaintiff’s illegal detention claim.

App.42a
the Hooks property, including two pistols, five long
guns, and several thousand rounds of ammunition).)
David Hooks took the officers to the scene of the thefts,
where the officers dusted for—but were unable to
obtain—usable fingerprints. (Doc. No. 83-18, at 3.)
The officers left shortly thereafter. (Id.)
At approximately 4:43 p.m. on September 24,
2014, Laurens County Sergeant Ryan Brooks received
a personal phone call on his cell phone from Beverly
Garrett. (Brooks Dep., Doc. No. 85, at 30; see also Doc.
No. 76-9 (Sergeant Brooks’ incident report).) During
this call, Beverly Garrett requested that Sergeant
Brooks come to her residence because her husband,
Monty Garrett, was having issues with his blood pressure. (Brooks Dep. at 30.) Upon his arrival at the
Garretts’ residence, Beverly Garrett directed Sergeant
Brooks to speak with Monty Garrett on their back
porch; Monty Garrett, in turn, informed Sergeant
Brooks that his son, Rodney Garrett, was scared and
wanted to turn himself in to someone he trusted (i.e.,
Sergeant Brooks).2 (Id. at 31.) Monty Garrett then
informed Sergeant Brooks that Rodney Garrett was
“laying in the woods watching to make sure [Sergeant
Brooks] was the only one coming.” (Id.)
Sergeant Brooks turned around and saw an individual walking from the woods where Rodney Garrett
was said to be hiding.3 (Id.) As he started down the
2 Sergeant Brooks is a family-friend to the Garretts and has known
Rodney Garrett since childhood. (Brooks Dep. at 5 (“We went to
school together, went to church together. Just family friends.
My family knows all of his family or a lot of his family.”).)
3 Because he was concerned law enforcement officers were looking
for him in connection with the theft of a green truck owned by
Hipolito Mendoza, Rodney Garrett was “living in the[se] woods

App.43a
driveway to confront this individual, Sergeant Brooks
recognized him as Rodney Garrett;4 when they met,
with Chris [Willis in a tent] for a day or two.” (Garrett Interview
Tr., Doc. No. 126-1, at 5; Garrett Dep., Doc. 101-1, at 47-48; see
also Brooks Dep. at 19 (in the course of investigating Rodney
Garrett’s theft of Mr. Mendoza’s truck, Rodney Garrett’s wife
informed Sergeant Brooks on or about September 21, 2014 that
Rodney Garrett had been staying somewhere in the woods in a
tent and that “he wasn’t the same as he used to be and didn’t
act the same”).) Sergeant Brooks and other Laurens County
officers were aware that Chris Willis regularly supplied Rodney
Garrett with methamphetamine and had previously attempted
to fence stolen goods on Rodney Garrett’s behalf. (See, e.g.,
Garrett Interview Tr. at 4-5, 8-10; Brooks Dep. at 21-29.)
4 Notably, Rodney Garrett’s own testimony casts suspicions on
the voluntary nature of his submission to Laurens County
authorities. Indeed, Rodney Garrett’s family had made several
prior failed attempts to convince him to turn himself in to
authorities. (Garrett Dep. at 19 (Q: “And would you agree with
me that it—it’s not surprising that there’s some text messages
back and forth from you to other people regarding looking—
looking out for—for the law and whether or not the law was
riding around your house, things of that nature?” A: “Well, my
mother tried to get me to turn myself in several times, my sister
did. Told me, just call and let them know where I was at and
they—they would take me to the sheriff’s department or get the
sheriff’s department to pick me up, but I just quit answering all
together.”). Undeterred, his family persisted in “trying to talk
[him] into going to—turn [himself] in, come clean.” (Id. at 5556.) When Rodney Garrett failed to do so himself, however,
Beverly Garrett called Sergeant Brooks and had him come to
her house under false pretenses and, when he arrived, Sergeant
Brooks went out into the woods, found Rodney Garrett and
arrested him. (Id. (Q: “Now, it—and it—it was more or less your
mother who—is it your understanding it was your mother who
called Ryan Brooks—” A: “Em-hmm, yeah.” Q: “—to come—come
to her house?” A: “Yep.” Q: “And is it your understanding that
what she told Ryan Brooks to get him to come to her house was
that your father was having blood pressure issues—” A: “Yeah.”
Q: “—and he needed checked on?” A: “Yeah. She was worried

App.44a
they shook hands and embraced in a hug. (Id.)
Notably, Sergeant Brooks was aware at the time of
their interaction that Rodney Garrett: (i) was addicted
to methamphetamine;5 (ii) was presently under the
influence of methamphetamine and had not slept in
7 to 10 days;6 (iii) had a proclivity to deceive law
enforcement as well as his friends and family; and
about him because he knew that I—that I was out of the
residence and they were trying to talk me into going to-turn
myself in, come clean.” Q: “Yeah. And then once Mr. Brooks got
there, they told Mr. Brooks, Rodney is down in the woods?” A:
“Yeah. I was actually at my house, but yeah.” Q: “Yeah. And at
that point in time, Ryan Brooks came down there, found you
and—and arrested you?” A: “Yes, sir.”).) Upon subsequent crossexamination by Defendants’ counsel, however, Rodney Garrett
amended his story and said he “was ready to come clean” and
said he knew he was going to be arrested and was “going to
turn [himself] in.” (Id. at 69-70.)
5 Rodney Garrett testified that from the end of 2012 through his
arrest on September 24, 2014, he used methamphetamine every
day and night, typically smoking approximately one to one-anda-half grams of meth per day (which he stated was an $80-to
$100-a-day habit). (Garrett Dep. at 12-14.) When he purchased
methamphetamine, he typically bought between a gram and three
and a half grams (colloquially known as an “8-ball”) at a time.
(Id. at 19-20.) At the time of his arrest, Rodney Garrett made
approximately $550 to $750 per week after taxes and sustained
his drug habit by stealing from neighbors and local businesses
and then selling the stolen goods. (Id. at 15-18.)
6 Rodney Garrett testified that, at the time he was arrested, he
had been awake “for almost two weeks straight.” (Garrett Dep.
at 33.) Rodney Garrett further testified that when he “would stay
up for 7 to 10 days” in a row he would “start to see—meth users
call them ‘shadow people.’” (Id. at 69.) He further testified that
he had bought three and a half grams of methamphetamine approximately two days prior to burglarizing the Hooks property. (Id.
at 49.)

App.45a
(iv) had lied to Sergeant Brooks himself less than
three days before regarding his involvement in
suspected criminal activity. (Brooks Dep. at 10-11,
19, 27-28; Garrett Dep., Doc. No. 101-1, at 34, 69; see
also Defendants’ Response to Plaintiff’s Statement of
Material Facts Which Plaintiff Contends Create Genuine Issues (“DRPSMF”), Doc. No. 106, ¶ 14.)
At the end of their embrace, Rodney Garrett stated
that he “had messed up.” (Brooks Dep. at 31.) Believing
that Rodney Garrett was referring to his suspected
theft of a green truck owned by Hipolito Mendoza,7
Sergeant Brooks told Rodney Garrett that they would
“go to the office and talk about it and get everything
sorted out.” (Id.) Rodney Garrett, however, insisted
that “[t]here’s another vehicle you need to know
about,” at which point they walked back into the
woods to where a Lincoln Aviator was parked. (Id. at
32.)
Rodney Garrett then attempted to explain his possession of the Aviator to Sergeant Brooks. (Brooks
Dep. at 32-33; see also Doc. No. 76-9; Garrett Interview
Tr., Doc. No. 126-1, at 2-3.) According to Sergeant
Brooks’ recollection of Rodney Garrett’s account, Rodney
Garrett was walking along Highway 319 around

7 At the time of their interaction, a warrant had been sworn out
by Laurens County officers for Rodney Garrett’s arrest in connection with the theft of Mr. Mendoza’s truck. (See Garrett Dep. at
10; Frazier Dep., Doc. No. 83-7, at 6-7.) Rodney Garrett was aware
that police officers were looking for him in connection with the
theft of Mr. Mendoza’s truck. (Garrett Dep. at 10-11, 18-19, 48.)
Mr. Mendoza’s truck had been recovered by Laurens County
officers on September 21, 2014 without the assistance of
Rodney Garrett. (Brooks Dep. at 26-29.)

App.46a
midnight on the evening of September 22, 2014.8 As he
was walking, he saw a driveway with its gate open
and decided to investigate.9 (Brooks Dep. at 33.)
Parked on the grass near the Hooks residence Garrett
found the unlocked Lincoln Aviator with its keys
inside. (Id.) Rodney Garrett then walked over to
another vehicle located near a detached garage on
the same property;10 when he opened the door to this
vehicle, he located a neoprene bag (which he believed
to contain money) and some digital scales,11 which
he took. (Id.) He also looked around in the detached
garage and found a gun safe,12 from which he took a
shotgun and a rifle. (Id.) He then entered the Aviator
with the pilfered neoprene bag, scales, and firearms
and drove away from the property. (Id.) Before
8 Rodney Garrett testified that, while walking down the highway,
he stopped two or three times to smoke methamphetamine before
reaching the Hooks property. (Garrett Dep. at 23.)
9 Unbeknownst to Garrett, this was the Hooks driveway, which
is approximately half-a-mile long. (Garrett Dep. at 24-27; Garrett
Interview Tr. at 3, 7, 11.) While the mail address indicates
proximity to the highway, the Hooks residence is thousands of
feet from Highway 319. The seclusion of the home is important
and easily seen on publicly-available satellite views of the property.
10 Rodney Garrett testified that he smoked more methamphetamine while inside the detached garage. (Garrett Dep. at 26-28.)
11 Rodney Garrett testified that he used his own set of scales to
ensure he was not being swindled when he purchased methamphetamine. (Garrett Dep. at 47.) It is unclear whether Laurens
County officers ever recovered the scales used by Rodney Garrett
when he would purchase methamphetamine.
12 (Garrett Interview Tr. at 3 (“Went over and looked the keys
were in the ignition step into his shop there and he had what
looked to be a metal gun safe that the locks had been ripped out
of . . . I didn’t do that . . . [sic] they were already gone[.]”).)

App.47a
returning to his home, however, Rodney Garrett stopped at a gas station and decided to inspect the contents
of the pilfered neoprene bag. Therein, he claims to have
then discovered approximately 20 grams of methamphetamine. (Id. at 33-34.) He later parked the Aviator
in the woods near his parents’ residence. (Id. at 34.)
After hearing Rodney Garrett’s story, Sergeant
Brooks called in the Aviator’s VIN, which came back
stolen. (Id. at 35-36.) Sergeant Brooks then called
another Laurens County officer, Sergeant Gerald
Frazier, who subsequently called Defendant Sergeant
Christopher Brewer at approximately 5:30 p.m. and
requested that Defendant Brewer travel to Sergeant
Brooks’ location.13 (Doc. No. 76-9, at 2; Brewer Dep.,
Doc. No. 72-1, at 7.) Shortly thereafter, Defendant
Brewer and Corporal Timothy Burris arrived at the
Garretts’ residence and the officers searched the Aviator’s interior. (Brooks Dep. at 38.) Therein, they
located scales and two firearms, but not the neoprene
bag. (Doc. No. 76-9, at 2.) Instead, the officers discovered
a locked metal case, approximately one foot square in
size, which Rodney Garrett claimed was his own and
into which he had placed the contents of the neoprene
bag;14 because it was locked, however, they were
unable to examine its contents. (Brooks Dep. at 38-41;
Brewer Dep. at 124-28; Doc. No. 76-9, at 2.) Defendant
Brewer then asked Sergeant Brooks to take Rodney
Garrett and find the key to the metal case, which
Rodney Garrett claimed was at his residence (but
13 At the time of Rodney Garrett’s arrest, Defendant Brewer was
the supervisor of the Laurens County Sheriff’s Office Narcotics
Unit. (Brewer Dep. at 7.)
14 Rodney Garrett later testified that he stole this metal case
from the Hooks property. (Garrett Dep. at 61.)

App.48a
was ultimately unable to locate it).15 (Doc. No. 76-9,
at 2.)
While at Rodney Garrett’s residence, Sergeant
Brooks read Rodney Garrett his Miranda rights and
asked him to identify any property inside his shop
that was stolen; in response, Rodney Garrett “looked
around and said no yall [sic] got everything.”16 (Id.)
Sergeant Brooks also asked Rodney Garrett about
the location of a four-wheel ATV he had previously
been seen operating. (Brooks Dep. at 42.) Rodney
Garrett denied stealing the ATV but admitted that
he knew where it was located;17 accordingly, Rodney
15 The officers were never able to locate the key for the metal
case. (Brewer Dep. at 124-28.) Somehow the case was opened
later in Defendant Brewer’s office. (See Brewer Dep. at 125 (Q:
“The—the—when was the first time that you saw the contents
of the bag that Garrett said he had taken from the console of
the truck?” A: “When I returned to my office and began to
inventory the items in the lockbox.” Q: “Okay. When you
received the lockbox—well, between the time you received the
lockbox from Garrett and the time that you got to your office
did you open it?” A: “No, sir.” Q: “You obtained a key to open it,
I take it?” A: “No, sir.” Q: “Someone did?” A: “I don’t think we
ever found the key.”); see also Brooks Dep. at 38-41 (Sergeant
Brooks never saw the contents of the metal case); Burris Dep.,
Doc. No. 83-1, at 27-30 (Corporal Burris did not know what was
in the metal case); Garrett Dep. at 61-65 (Rodney Garrett never
saw the metal case opened (or its contents) after he turned it
over to the officers).)
16 Rodney Garrett was then-known to be a suspect in several
other outstanding burglaries and/or thefts that occurred in the
Laurens County area. (See, e.g., Brooks Dep. at 7-16, 22-29, 45-48.)
17 Rodney Garrett told the officers that he had purchased the
ATV from Jimmy White a year or two before. (Garrett Interview
Tr. at 5.)

App.49a
Garrett and the officers drove out and found the ATV.
(Id. at 42-43.)
The officers subsequently took Rodney Garrett
to the Laurens County Sheriff’s Office. (Brooks Dep.
at 44; Doc. No. 76-9, at 2.) En route, Sergeant Brooks
received a call from another Laurens County officer,
Sergeant Lance Padgett, who stated that the stolen
Aviator was his assignment and that he needed to
question Rodney Garrett in regards thereto. (Brooks
Dep. at 44.) Sergeant Padgett then called Sergeant
Toney to inform him that David Hooks’ Aviator had
been located. (Doc. No. 83-18, at 4.)
When Rodney Garrett arrived at the Laurens
County Sheriff’s Office, Sergeant Padgett—along with
Sergeant Brooks, Corporal Burris and Defendant
Brewer—took him to an office for questioning, which
began at approximately 7:45 p.m. (Brooks Dep. at 45;
Garrett Interview Tr. at 2.) During this questioning,
Rodney Garrett admitted to the officers that: (i) he was
temporarily “living” in a tent in the woods with his
friend, Chris Willis; (ii) Mr. Willis’ house was littered
with enough “baggies” that it “would have blowed
[sic] your mind;”18 (iii) he regularly bought methamphetamine from Mr. Willis (and/or an associate of Mr.
18 This appears to be a reference to Mr. Willis’ possession of bagged
quantities of methamphetamine or other controlled substances.
(see Garrett Interview Tr. at 8 (Padgett: “[W]hat about Chris
[Willis]? What has he been up to?” Garrett: “[N]othing but
wrong[.]” Padgett: “[W]ell, let’s hear it[.]” Garrett: “I know meth
probably hard too. He uh.” Brooks: “[T]ell em what you was
telling me about the false floors in his house[.]” Garrett: “[N]o
uh it’s not false floors its carpet . . . what would be carpet is
baggies he’s got that many laying on the floor. If you’d walked
in it would have blowed [sic] your mind.”).)

App.50a
Willis, Jeremy Lumley, with Mr. Willis acting as an
intermediary or broker); (iv) he was presently “strung
out” on methamphetamine; (v) he had smoked
approximately a half-gram of the methamphetamine
purportedly taken from the Hooks property, up to
and throughout the night before his arrest; and (vi)
he had contemplated selling the methamphetamine
to a few individuals, including Mr. Willis. (Garrett
Interview Tr. at 2, 4-5, 8-10; see also Padgett Dep.,
Doc. No. 83-15, at 15-17; Garrett Dep. at 60-61, 78.)
Despite the officers’ repeated attempts to get him to
admit otherwise, Rodney Garrett maintained that he
had never had any prior interaction with David
Hooks or his property. (Garrett Interview Tr. at 4, 7,
10-11; Garrett Dep. at 57-58; see also Brewer Dep. at
60-62 (“I don’t know if this will help you, but after
the interview concluded I do not recall any steps I took
to determine if [Rodney] Garrett did, in fact, know
[David] Hooks.”).) Further, despite David Hooks having
reported seven firearms and thousands of rounds of
ammunition being stolen from his property, Rodney
Garrett insisted that he only took a shotgun and a
rifle.19 (See Garrett Interview Tr. at 3-6, 10.) The
officers also questioned Rodney Garrett about other
thefts in which he was a suspect, for all of which he
either denied having any knowledge or gave exculpatory
19 (See, e.g., Garrett Interview Tr. at 6 (Padgett: “[W]ell something is up cause you telling me you stole his truck and stole 2
guns and there is other guns in there that went missing[.]”
Garrett: “[W]ell if I gonna admit to it . . . I would’ve.”).) On October
11, 2014, Laurens County officers located additional stolen
property at “a location that is associated with Rodney Garrett,”
namely his uncle Lenwood Lord’s residence. (Doc. No. 83-18, at
5, 14-15.) Notably, this recovered property included a shotgun
reported stolen by David Hooks on September 23, 2014. (Id.)

App.51a
explanations.20 (Garrett Interview Tr. at 3, 5-10; see
also Brooks Dep. at 45-48.) Moreover, the officers also
inquired whether he had swapped any of the items
he had taken from the Hooks property for drugs or
cash, which he denied. (Garrett Interview Tr. at 4, 6,
10.)
When the questioning ended at approximately
8:10 p.m., Sergeant Padgett wrote a citation against
Rodney Garrett for his burglary of the Hooks property
and directed Sergeant Brooks to have him booked in
the Laurens County jail.21 (Brooks Dep. at 45; DRPSMF
¶ 32.) Sergeant Padgett then called Sergeant Toney
and informed him that Rodney Garrett had turned
himself in and claimed that he did not steal any
other property from the Hooks property other than
the Aviator, two guns, scales, money, and methamphetamine. (Doc. No. 83-18, at 4; see also Toney Dep.,
Doc. No. 83-17, at 27-29.) At approximately 8:30 p.m.,
Defendant Brewer, Sergeant Padgett, and Corporal
Burris called Laurens County’s Deputy Chief Assistant
District Attorney Brandon Faircloth and spoke with
him “for a few minutes” about seeking a search warrant

20 E.g., he found it broken down in the woods, bought it from a
coworker “probably a year in [sic] a half two years ago,” “was
working on it for a man,” “[t]hat was a different model than what
he had,” “naw that’s good, that’s mine,” “bought it at a yard sell
[sic],” “bought ‘em never used ‘em,” etcetera. (See Garrett
Interview Tr. at 3, 5-10.)
21 Rodney Garrett was never charged with possession of the
methamphetamine he professed to have taken from the Hooks
property. (Garrett Dep. at 68.)

App.52a
for the Hooks property.22 (See Faircloth Dep., Doc.
No. 83-5, at 10-11, 14-15, 17-43.)
22 What information was disclosed to—and what information
was withheld from—Mr. Faircloth during this discussion remains
unclear. Nevertheless, Mr. Faircloth testified that he explicitly
advised the officers to provide the magistrate with each and
every relevant fact they had in their possession to ensure they
did not obtain a search warrant under false pretenses. (See
Faircloth Dep. at 28-30 (Q: “And basically, what I’m understanding
is that you left Brewer with the, I guess we would call it, advice
that he should put everything he had into the affidavit to get
the search warrant?” [objection to form] A: “I think that’s fair. I
mean, basically, we always advise officers that they want to
make sure that they tell the full truth and that they give a full
picture to the Magistrate. You don’t want a situation where
they think that something is not important—not that they’re
trying anything but they’re just—they are focusing on things
that they view as more important and so they leave something
out that the Magistrate may think is the most important part
either way. And so to make sure that the Magistrate is in the
best position to rule whether to give a warrant or not, it’s best
to make sure they have all of the information. And so that’s
what we always tell them is, ‘Everything that you know, you
need to include in the affidavit. And if there’s something that
you know that’s not in the affidavit, you need to make sure that
you tell them,’ because we don’t want them to ever be—you
know, getting a warrant obviously under false pretenses, which
is not really an issue, but also just accidentally leaving something
out that might be a critical point.” Q: “So if Chris Brewer didn’t
put everything into the affidavit, he would have done that
against your advice?” [objection to form] A: “I mean, I guess so.
But again, you have to bear in mind that our advice is literally
just that. It’s our legal opinion because we have a duty to give
law enforcement legal opinions on stuff when they need help on
that. But our advice is never guidance. And it’s never, you
know, something they have to follow. And at no point do we try
to supplant the idea that they may know better than us on
whatever they’re doing, not just, you know, going out to a crime
scene or interviewing a witness but also preparing a search
warrant. So, you know, ultimately, they’re professionals. They

App.53a
Significantly, Corporal Burris was the case agent
investigating one Jeff Frazier in or around 2009.
(Burris Dep., Doc. No. 83-1, at 9-24, 50-60; see also
Doc. No. 83-2, at 5-28 (records relating to the investigation of Jeff Frazier).) During this investigation, Jeff
Frazier-purportedly admitted to Corporal Burris that
he was bringing methamphetamine back from Atlanta
and distributing it to others, including David Hooks and
other well-to-do businessmen, judges, and attorneys
in the greater Dublin area. (Burris Dep. at 9, 15.)
Importantly, Jeff Frazier’s accusations were never
corroborated, and no case file was opened regarding
David Hooks in relation to the investigation of Jeff
Frazier or otherwise, despite having Jeff Frazier under
surveillance for over two months and conducting
numerous controlled purchases via informants during
that period. (Burris Dep. at 13-24, 59-60; see also
Brewer Dep. at 78-79, 95-96.) Defendant Brewer was
directly involved in the investigation of Jeff Frazier.23
have to make the choice that they make as far as what information they include or not. And whether they listen to us or not,
that’s entirely up to them because we can’t tell them what to do
and we don’t. But, by the same token, we do always advise
them and give them—it’s our opinion—make sure any relevant
fact you include in your discussion with the Magistrate, whether
it’s on paper in the affidavit or in your sworn testimony.”).)
23 Defendant Brewer testified that he investigated David Hooks
in connection with the investigation of Jeff Frazier by: (i)
driving “up onto the [Hooks] property attempting to make
contact with somebody”; (ii) “rid[ing] through and try[ing] to
catch people leaving” the Hooks property; and (iii) attempting
to set up controlled purchases from David Hooks. All of these
attempts were unsuccessful and failed to corroborate Jeff
Frazier’s accusation. (See Brewer Dep. at 78-79, 94-97; see also
DRPSMF ¶¶ 38-39.) Defendant Brewer testified that no records
exist of any of these purported efforts and that no case file was

App.54a
(See Brewer Dep. at 74, 78-79; Burris Dep. at 50-60;
see also Doc. No. 83-2, at 29-30 (Defendant Brewer’s
narrative regarding October 2009 investigation of Jeff
Frazier).)
Without further investigation, Defendant Brewer
sought a search warrant for the Hooks residence and
its curtilage.24 (Doc. No. 1-2, at 3-5 (Defendant Brewer’s
initiated with regards to David Hooks. (Brewer Dep. at 78-79,
95-96.) Moreover, Defendant Brewer testified that he had been
informed by Sergeant Gerald Frazier that Sergeant Frazier had
interviewed a suspect by the name of “May” who had reportedly
told Sergeant Frazier that David Hooks was distributing
methamphetamine. (Brewer Dep. at 74-76.) In his own deposition, however, Sergeant Frazier testified that—approximately
one year before Rodney Garrett’s burglary of the Hooks
property—he had “worked a break-in or a theft from [David
Hooks’] truck” which resulted in the arrest of David Hooks’
former employee, Markell May, but that there had been no
criminal investigation of David Hooks as a result thereof (or for
any other reason). (Frazier Dep. at 23-24.) Defendant Brewer
testified that he did not include Mr. May’s accusations in the
affidavit in support of the Hooks search warrant because he
“couldn’t recall anything other than [he] remembered [Sergeant]
Gerald [Frazier] telling me about this guy . . . but neither one of
[them] could come up with enough information while [he] was
writing to include that in the affidavit.” (Brewer Dep. at 92-93.)
Finally, Defendant Brewer testified that there was an accusation
by a “Robbie Miller” in 2002 “[t]hat David Hooks was distributing methamphetamine,” but provided no further information as
to whether he was actually aware of this accusation by Mr. Miller
at the time of applying for the search warrant on September 24,
2014 and/or the circumstances of such accusation. (Id. at 93, 96.)
24 The search warrant sought controlled substances, particularly methamphetamine, and “[p]araphernalia necessary for
manufacturing, packaging, cutting, weighing, and/or distributing
controlled substances” as well as “[c]urrency of the United
States obtained, connected with and/or possessed to facilitate the
financing of illicit drug trafficking.” (Doc. No. 1-2, at 1.)

App.55a
affidavit in support of search warrant); Brewer Dep.
at 4.) Because he was “trying to expedite the process”
of securing a search warrant, Defendant Brewer did
not “go back and pull Frazier’s file” or otherwise review
any records relating to the investigation of Jeff Frazier
or any other individual(s) who may have claimed a
connection between David Hooks and illegal activity.
(Brewer Dep. at 77, 83-87, 90-94.) No additional oral
testimony was provided to the issuing magistrate in
support of the warrant application, other than possibly
reciting the contents of the affidavit offered in support
thereof.25 (Brewer Dep. at 28-29.)

25 (Brewer Dep. at 28-29 (Q: “When you met with the magistrate,
did you provide any testimony or information to the magistrate
beyond what’s contained within the application for the search
warrant and affidavit?” A: “Yes. Is that a question or were you
reading that from the document?” Q: “No. I’m asking that as a
question.” A: “I do not recall any oral testimony; however, in
reviewing my document, there was a note in there that I
provided her with a copy of the affidavit and provided her with
oral testimony. Quite commonly, and I’m assuming that that’s
what this meant, was that I read her the part of the affidavit
that specifically applied with this search warrant application.”
Q: “So you read the affidavit?” A: “Not the whole affidavit.” Q:
“Okay.” A: “Just the part that specific—that would be a specific
search warrant application.” Q: “So in referencing the process of
seeking the warrant to be signed by the magistrate, your
testimony is that you read part of the warrant application/affidavit
to the magistrate?” A: “That is my common practice.” Q: “Okay.
But beyond that, though, as you sit here today, do you recall
providing information other than what you read from your
application to the magistrate?” A: “No. I do not have an independent recollection of that.” Q: “Do you have any record other
than, I know you’ve referred to a record, some note you say that
you—other than that is there any other record that might
contain a notation by you to the effect of the information that
you provided to the magistrate, if any—” A: “No, sir.” Q: “—over

App.56a
Laurens County Magistrate Judge Faith Snell
signed the search warrant for the Hooks property on
September 24, 2014 at 9:56 p.m. (See Doc. No. 1-2, at
1-2 (the search warrant).) The Laurens County Sheriff’s
Response Team (“SRT”), which would ultimately serve
the search warrant, however, was assembled and
briefed at some point between 8:00 p.m. and 10:00 p.m.
Defendant Sheriff William “Bill” Harrell was present
for this briefing and questioned Defendant Brewer
regarding the factual basis for the search warrant
and the steps he had taken to investigate these
underlying facts.26 (Harrell Dep., Doc. No. 83-8, at
55-70; Brewer Dep. at 176-77; Forte Dep., Doc. No.
83-6, at 11-14; Loyd Dep., Doc. No. 83-13, at 32-35;
Meeks Dep., Doc. No. 83-14, at 21-23; Wood Dep.,
Doc. 83-20, at 9.) During the briefing, it was discussed that the executing officers should not be in a
hurry and they should take their time with the
“knock and announce” to allow sufficient time for any
and above what was within the affidavit application?” A: “No,
sir.”).)
26 Defendant Harrell further testified that he had conversations with Defendant Brewer regarding the warrant prior to the
beginning of the SRT’s briefing. (Harrell Dep. at 69 (Q: “You
had had conversations with Brewer about the warrant prior to
the briefing starting?” A: “Yes.” Q: “And those would be face-toface conversations?” A: “Yes.” Q: “And in those face-to-face
conversations he outlined to you what he had done and what
his probable cause was?” A: “Best I recall, yes.” Q: “And you
agreed that his actions at that point in time were appropriate?”
A: “Yes.”).) Defendant Harrell admits that he had “the authority
at any time to pull the plug” on the execution of the search
warrant. (Id. at 70.) He testified, however, that he could not
recall whether he was present prior to Judge Snell signing the
search warrant. (Id. at 54-55.)

App.57a
occupants to come to the door. (Loyd Dep. at 39, 43,
48-49.)
The SRT and other members of the Laurens
County Sheriff’s Office, including Defendants Brewer,
Harrell, and Corporal Steve Vertin, drove out to Highway 319 North, down the half-mile driveway and
arrived at the Hooks residence to execute the search
warrant at approximately 11:00 p.m.27 Deputy Kasey
Loyd was stationed at the residence’s back door in
standard uniform (navy hat, navy shirt, khaki pants),
while the other-executing officers-stacked behind Deputy Loyd-wore dark-green tactical gear with the word
“SHERIFF” sewn in black stitching on the front of
their bulletproof vests. (Loyd Dep. at 35-36, 60; Vertin
Dep., Doc. No. 83-19, at 18, 31; Wood Dep. at 19.)
At the time Laurens County officers were approaching her residence, Teresa Hooks was upstairs
getting ready for bed. (Hooks Aff., Doc. No. 90, ¶ 2.)
As she turned off the light beside her bed, she heard
the sounds of a car approaching. (Id.) While Defendants
state that their vehicles’ blue lights were activated
before service of the warrant, Teresa Hooks states
that she looked out of her upstairs window and could
not see anything other than a dark vehicle and
27 At the time the officers approached the Hooks residence, it
was nighttime, cloudy, and windy, but not raining. (Loyd Dep.
at 61-62.) It began raining shortly after the officers entered the
Hooks residence and continued throughout Teresa Hooks’ subsequent pool-side detention. (Hooks Aff., Doc. No. 90, ¶ 12.)
Weather reports recorded at nearby Dublin Municipal Airport
indicate that it was 61 degrees Fahrenheit and “misting” at the
times in question. (Doc. No. 127-2, at 4, 9; see also Doc. No. 87-1,
at 1-2 (Laurens County 911 computer-aided dispatch report
indicating at 11:14 p.m. that “air evac cannot lift due to weather”).)

App.58a
several people dressed in dark colors with head cover
“rushing towards” the back of her home. (Id. ¶¶ 2-3;
Hooks Dep., Doc. No. 69, at 112; see also Frazier Dep.,
Doc. No. 83-7, at 16 (blue lights were not activated).)
She then heard pounding on her back door and
indiscernible yelling. (Hooks Dep. at 120-22; Hooks Aff.
¶ 11.) Fearing that her property was being burglarized
again, she ran down the stairs while banging on the
wall in the hopes of waking David Hooks, who was
asleep in the master bedroom on the first floor.
(Hooks Aff. ¶ 4; Hooks Dep. at 15.) As she reached the
bottom of the stairs, David Hooks opened the master
bedroom door—naked and holding a shotgun—and
asked what was happening.28 (Hooks Aff. ¶ 5.) David
Hooks stepped back into the master bedroom to put
on a pair of pants; before he could do so, however, the
back door was forcibly breached.29 (Id.; see also Hooks
Dep. at 104-24.)
28 These would be the last words spoken between David and
Teresa Hooks. (Hooks Dep. at 166, 169-170.)
29 According to Deputy Loyd, he knocked on the back door two
or three times and announced “sheriff’s office, search warrant.”
(Loyd Dep. at 50-54.) While Defendants assert that there was a
pause of approximately 20 to 30 seconds between each such
announcement, Deputy Loyd himself testified that the entire
“knock and announce” phase lasted less than 30 seconds. (Id.)
After his initial knocking, Deputy Loyd claims he saw a woman
in a red shirt and a man through the back door’s window. (Id. at
53.) While he originally believed that these individuals were
coming to answer the back door, he claims that before reaching
the door the individuals “dipped off to the last room on the
right.” (Id. at 55-56.) Believing that these individuals were
attempting to flee or destroy evidence, Deputy Loyd made the
decision to breach the back door and stepped out of the way to
allow the other officers to knock-down the door with a battering
ram and enter the residence. (Id. at 38, 56-59.) As they crossed

App.59a
In response to the sound of the back door being
forcibly opened, David Hooks rushed across the foyer
and into the living room—heading towards the dining
room, the kitchen and back door—with his shotgun
down by his side and with Teresa Hooks following
close-behind. (Hooks Aff. ¶ 6.) Before the Hooks could
reach the dining room, however, the officers fired 23
shots. In the resulting hail of bullets, David Hooks
was struck by three.30 (Hooks Aff. ¶¶ 7, 13; Hooks Dep.
the threshold into the residence’s kitchen, the officers yelled
“Sheriff’s office with a search warrant.” (Id. at 59.) Notably,
Teresa Hooks attests that “the layout of [her] house makes it
physically impossible to see the foyer from the backdoor of [her]
home.” (See Hooks Aff. ¶ 14 & Exs. 1 & 2.) Moreover, she testified
that she was not aware that the individuals forcibly-entering
her home were law enforcement officers and further attests that
“[a]t no time during the course of events, including before they
forcibly entered my home, could [she] ever understand anything
that was being said by the individuals.” (Hooks Dep. at 127-28;
Hooks Aff. ¶ 11 (“All I ever heard was yelling by multiple people
but nothing was ever clear about what was being said.”).)
30 David Hooks remained conscious after being shot. (Jones
Dep., Doc. No. 83-12, at 51-54; Johnson Dep., Doc. No. 83-11, at
13-14, 16-17, 19-20, 22-23.) Immediately after he was shot, the
SRT’s paramedics tended to David Hooks’ injuries in an attempt
to stabilize him for transport. (Woods Dep. at 25-30.) Emergency
services were called but, due to the inclement weather, air
evacuation was not possible. (Jones Dep. at 55; Johnson Dep.,
Doc. 83-11, at 23-24; Doc. No. 87-1, at 1-2.) An ambulance arrived
on the premises at approximately 11:14 p.m. and left shortly
thereafter with David Hooks headed for the nearby Fairview
Park Hospital. (Johnson Dep. at 9-10, 15-16; Harrell Dep. at
112-13.) The paramedics knew at the time that they were
headed to Fairview Park that its facilities were inadequate
given the severity of David Hooks’ injuries, but were afraid that
he would not survive a longer trip if he was not properly
stabilized first. (Wood Dep. at 33 (Q: “At some point in time
during your involvement with Mr. Hooks, did you realize he

App.60a
at 124-27; Forte Dep. at 33.) David Hooks never raised
or fired his shotgun. (Hooks Aff. ¶¶ 6-7; Hooks Dep.
at 127.)
During the gunfire, Teresa Hooks turned around,
ran across the living room and through the foyer and
ducked, unscathed, into the master bedroom, locking
the door behind her. (Hooks Aff. ¶ 7; Hooks Dep. at
129-30.) From the master bedroom, she called her
son, Brandon Dean, and told him that she was being
robbed, shots had been fired, and he should call 911.31
was going to have to go somewhere other than Fairview Park?”
A: “Yes, sir.” Q: “Okay. About when did you come to that
realization?” A: “Whenever we was (sic) on the scene. We tried
to originally try to fly him out. Could not fly him out due to
weather. Due to transport time it was too long to try to leave
[the] scene to make it to Macon in case something did happen to
him.” Q: “Right.” A: “So we elected to carry him to Fairview
Park to make sure he was stabilized so other transportations
[sic] could be evaluated for him.”).) David Hooks was subsequently transported via ambulance from Fairview Park Hospital’s
emergency room to the Coliseum Hospital in Macon. (Johnson
Dep. at 23-26; Hooks Dep. at 175.) Notably, it is an approximately
8-mile drive from the Hooks residence to the Fairview Park
Hospital, and an approximately 50-mile drive from Fairview
Park Hospital to the Coliseum Hospital.
31 Brandon Dean’s residence is located across a pond from the
Hooks residence; after receiving the aforementioned phone call
from Teresa Hooks, he immediately called 911 to inform them
of the shooting. (Dean Dep. at 51-54; Hooks Dep. at 153-54.)
The 911 operator told him to stay on the phone until law enforcement arrived at the Hooks residence. (Dean Dep. at 51-54.)
Shortly thereafter he saw blue lights from across the pond and
was disconnected from the 911 operator, so he got in his truck
and drove over to the Hooks residence. (Dean Dep. at 51-54;
Hooks Dep. at 153-54.) Upon arriving at the Hooks residence,
he exited his vehicle unsure of what was transpiring; he was
quickly tackled by Laurens County officers and handcuffed
behind his back. (Dean Dep. at 55-61; Brooks Dep. at 54-55;

App.61a
(Hooks Dep. at 131-32; Dean Dep., Doc. No. 70, at 5152.) Aware that there was at least one other individual
in the house besides David Hooks, now incapacitated
and moribund, the officers began shouting for whoever
was still in the house to come out. (Vertin Dep. at 34.)
Teresa Hooks testified that she did not hear any
commands prior to opening the door, but rather recognized the sounds of police radio chatter from inside
the master bedroom; accordingly, she slowly opened
the door, showed her empty hands, and walked out of
the bedroom towards Defendant Vertin in response
to his commands. (Hooks Dep. at 162-64; Vertin Dep.
at 37-38.)
Defendant Vertin handcuffed Teresa Hooks with
metal handcuffs behind her back and took her out
the back door because he “knew that area was secure
and there was nobody there possibly going to shoot at
us or shoot us.”32 (Vertin Dep. at 37-39; Hooks Dep.
Hooks Dep. at 154; Frazier Dep. at 18.) He was placed in the
back of a police vehicle and detained for interview by the GBI.
(Dean Dep. at 61-63.) Defendant Harrell and the other Laurens
County officers were aware that Teresa Hooks had called
Brandon Dean and that he was on his way to the Hooks
residence before he arrived. (Brooks Dep. at 54 (“The Sheriff
come (sic) over the radio and said that Ms. Hooks had called her
son and he was supposed to be on the way to the location and
he told us to just watch out for him to get there.”); Vertin Dep.
at 39 (“I asked her if anybody else was in the house. She told
me, no, but she had called her son and he was on the way over.
I yelled out to the perimeter guys that her son was on the way
over.”); see also Doc. No. 87-1, at 3-4 (Laurens County 911
dispatch report of call received from Brandon Dean at 11:02
p.m.).)
32 To reach the back door, Defendant Vertin required Teresa
Hooks, who was barefoot, to walk through broken glass and her
husband’s blood. (Hooks Dep. at 137-38 (“He walks me to the

App.62a
at 137.) Defendant Harrell “told somebody, ‘Y’all get
her separated and go from there and provide somebody
with a seat if they needed a seat to sit down.’” (Harrell
Dep. at 116.) Defendant Vertin then took Teresa Hooks
to the side of the house and had her sit in a patio
chair by the pool. (Vertin Dep. at 38-39; Hooks Dep. at
141-42.)
Defendant Vertin testified that “as soon as the
shooting happened,” he knew that Laurens County
officers would not be involved in the search of the
Hooks property; rather, any search would be handled
by the Georgia Bureau of Investigation (“GBI”).33
(Vertin Dep. at 47; see also Harrell Dep. at 113; Burris
Dep. at 69-70; Doc. No. 87-1, at 5.) Further, while
living room, put the handcuffs on me, behind me. He tells me to
follow him and to keep looking at him, and he walks me
through the living room and the dining room. Then when we get
to the kitchen I see blood. He walks me through the glass and
the blood because I was barefooted. He takes me outside, puts
me in a chair by the pool.”); see also Vertin Dep. at 38-40, 45;
Forte Dep. at 37; Jones Dep. at 57-58.) When she reached the
back door of the house, she could see her husband lying on a
stretcher. (Hooks Dep. at 139.) Teresa Hooks was wearing a
shirt and sweatpants that had no pockets. (Hooks Dep. at 16061; Vertin Dep. at 39.)
33 Defendant Harrell similarly testified that he knew that “the
search warrant was not going to go any further.” (Harrell Dep.
at 113.) Indeed, at approximately 11:15 p.m. on September 24,
2014, Laurens County’s Captain Stan Wright contacted GBI
Special Agent Jerry Jones requesting “GBI assistance . . .
regarding an officer involved use of force incident.” (Doc. No. 87-1,
at 5.) During this phone call, Captain Wright informed Special
Agent Jones that “[t]he scene had been secured and [Laurens
County] sheriff’s office members involved in the incident were
waiting to be interviewed” and that the request for assistance
was made “on behalf of [Defendant] Harrell.” (Id.)

App.63a
Defendant Vertin testified that Teresa Hooks was not
under arrest and that he had no probable cause to
arrest her, he admits that she was not free to leave
and that he posted a guard with her to ensure that
she would be unable to leave. (Vertin Dep. at 40-42;
see also Jones Dep., Doc. No. 83-12, at 58-65.) Indeed,
Defendant Vertin testified that he detained Teresa
Hooks “for the [GBI] investigators . . . until they
deemed she could go,” and asserts that it was standard
operating procedure to detain anybody “in the house
. . . until the investigators decide whether they need
them or not.” (Vertin Dep. at 46.) Defendant Harrell
testified that, once Teresa Hooks was taken outside
of the house, Laurens County officers had complete
control of the inside and outside of the residence and
deemed the property “cleared”; nevertheless, Defendant
Harrell maintains that Teresa Hooks’ continued detention was for her own safety (and the safety of the
Laurens County officers) and to ensure she remained
on the premises to be interviewed by GBI. (Harrell
Dep. at 118-21.)
During her pool-side detention, Defendant Vertin
directed a female Laurens County officer, Deidre
Byrd, to search Teresa Hooks’ person. She found
nothing of note. (Vertin Dep. at 41-43.) Defendant
Vertin later removed the metal handcuffs from Teresa
Hooks but immediately replaced them with plastic
zip-tie handcuffs. (Id. at 41.) During her detention,
Teresa Hooks was “terrified” and pleaded with the
officers to find out about her husband’s status and
whether she could visit with him, all of which were
ignored or denied. Indeed, she was told she could not

App.64a
move until GBI interviewed her.34 (Hooks Dep. at
140-41, 145-47, 194; Jones Dep. at 59; Loyd Dep. at 7375.) Her detention continued up to and through her
eventual interview by GBI officers approximately two
hours after her initial escort from the interior of the
house. (Hooks Aff. ¶ 12; Doc. 94-1, at 10 (GBI interview
summary indicating that Teresa Hooks’ interview
began at approximately 12:43 a.m. on September 25,
2014).)
After being interviewed by GBI agents, Defendant
Harrell removed the zip-tie handcuffs from Teresa
Hooks and allowed her to leave the premises at
approximately 1:30 a.m. on September 25, 2014. (Hooks
Dep. at 140-42, 150-51; Hooks Aff. ¶ 12.) No search of
the Hooks residence or other property occurred while
she was on the premises. (Hooks Aff. ¶¶ 7-8; see also
Doc. No. 87-1, at 8-10.) She and Brandon Dean then
got in his truck and drove approximately 55 miles to
the Coliseum Hospital in Macon where David Hooks
had been transported. (Hooks Dep. at 157, 175.)
David Hooks died of his injuries shortly after Teresa
Hooks arrived at the hospital in Macon, but before
she and her children were able to see him.35 (Hooks
Dep. at 160, 175-76; Dean Dep. at 75-76.)
34 Notably, no questions were asked of Teresa Hooks during her
detention prior to her questioning by GBI agents. (Hooks Dep.
at 142.) Only after her questioning by GBI agents, she learned
that her husband had been taken to the hospital. (Id. at 157,
164.)
35 Hooks Dep. at 175-77 (Q: “Okay. All right. So you got to
Macon, got to the hospital. Tell me what happened next.” A:
“We—They called—When we got there, they—on the phone
they had told me to let them know at the front desk that I was
there and they would meet me. And they did. And we went to

App.65a
At approximately 1:52 a.m. on September 25, 2014,
GBI Special Agent Lindsey Giddens acquired a separate search warrant for the Hooks residence on the
grounds that “there [was] probable cause to believe
evidence of violations of Aggravated Assault on a Police
Officer O.C.G.A. [§] 16-5-21(c) [was] located within the
[Hooks] residence.” (Doc. No. 87-1, at 6-9.) On September 26, 2014, GBI agents sought a “search warrant
addendum,” noting in their application that: (i)
“Laurens County Sheriff’s Office personnel ha[d] not
executed a search of the residence, vehicles and outside buildings located within the curtilage for
methamphetamine as authorized by the September
24, 2014 drug search warrant;” and (ii) GBI agents
“began executing the search warrant issued to [Special
Agent] Giddens on September 25, 2014” but “ha[d]
not conducted a search for methamphetamine and
paraphernalia.” (Id. at 10.) The addendum application requested authorization for “GBI agents to search
the waiting room. He was in surgery, and they told me they had
lost him one time and got him back. And the nurse came out
and told me that. And probably—probably between five and ten
minutes, her—the nurse and the doctor came out and said that
he-he didn’t make it.” Q: “And you understood that to mean he
passed away, correct?” A: “Yes.” [ . . . ] Q: “So your husband was
still in—Where—When you saw your husband, where was he in
the hospital? Was he still in the surgery room, or had he been
taken to a different place?” A: “He was kind of in a corridor.” Q:
“On a stretcher—On a gurney?” A: “Yes.” Q: “Okay. And you did
in fact identify him as your husband to them, correct?” A: “Yes.”
Q: “And filled out paperwork indicating—” A: “Yes.” Q: “—the
same? Did you have time to interact with him and look at him
in any way where you could see his injuries or see anything
that had happened to him?” A: “I did.” Q: “Okay. What is it that
you saw?” A: “His head was swollen, big; the side of his face was
gone; his chest was open.”).)

App.66a
the residence, vehicles, and outside buildings located
within the curtilage for controlled substances, specifically methamphetamine . . . because this was the
reason Laurens County SRT and deputies were at
this location.” (Id.) The addendum was signed by
Judge Snell on September 26, 2014. (Id.) No contraband or related items were located on the premises
during GBI’s search thereof. (Hooks Aff. ¶ 10.) Teresa
Hooks was not allowed back into her home until
approximately 8:00 p.m., September 26, 2014. (Id. ¶ 9.)
On April 19, 2016, Plaintiff Teresa Hooks—in
both her individual capacity and as the administratix
of the Estate of David Hooks—initiated this action
against Defendants Brewer, Harrell, Vertin, and
Randall Deloach in their individual capacities. (Doc.
No. 1.) On August 29, 2016, Plaintiff requested leave
to file an amended complaint, which the Court granted
on September 6, 2016. (Doc. Nos. 32, 34; see also Doc.
No. 35 (the Amended Complaint).) On January 24,
2017, the parties filed a stipulation of dismissal with
prejudice with regards to Defendant Deloach, which
the Court granted on February 2, 2017. (Doc. Nos.
61, 62.) Defendants Brewer, Harrell, and Vertin filed
their respective motions for summary judgment on
May 18, 2017. (Doc. Nos. 75, 77, 78.) On November
29, 2017, the Court entertained oral argument by the
parties on the aforementioned motions. At the summary
judgment hearing, the Court allowed the parties to
submit additional materials relevant to the matters
in dispute for the Court’s consideration, including
information regarding the weather conditions on the
date of the incident, investigative photographs, and
search warrants obtained by Defendant Brewer in

App.67a
other matters.36 The Court also allowed the parties
to submit supplemental briefing on Defendants’ motions
for summary judgment, which the parties filed on
December 15, 2017. (See Doc. Nos. 126, 127.)
II.

Summary Judgment Standard

The Court should grant summary judgment only
if “there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). The purpose of the summary judgment rule is to dispose of unsupported
claims or defenses which, as a matter of law, raise no
genuine issues of material fact suitable for trial.
Celotex Corp. v. Catrett, 477 U.S. 317, 322-23 (1986).
In considering a motion for summary judgment,
all facts and reasonable inferences are to be construed
in favor of the nonmoving party. Hogan v. Allstate
Ins. Co., 361 F.3d 621, 625 (11th Cir. 2004). Moreover,
[t]he mere existence of some factual dispute
will not defeat summary judgment unless
the factual dispute is material to an issue
affecting the outcome of the case. The
relevant rules of substantive law dictate the
materiality of a disputed fact. A genuine
issue of material fact does not exist unless
there is sufficient evidence favoring the nonmoving party for a reasonable jury to return
a verdict in its favor.

36 While the majority of these additional materials have not been
filed with the Clerk because of their voluminous nature, the
Court has nevertheless expanded the record to include these
materials to the extent they are referenced in this Order.

App.68a

Chapman v. AI Transp., 229 F.3d 1012, 1023 (11th
Cir. 2000) (en banc) (quoted source omitted) (emphasis
supplied). The party opposing the summary judgment
motion, however, “may not rest upon the mere allegations or denials in its pleadings. Rather, its responses
. . . must set forth specific facts showing that there is a
genuine issue to be tried.” Walker v. Darby, 911 F.2d
1573, 1576-77 (11th Cir. 1990).
The Clerk has given the nonmoving party notice
of the summary judgment motions and the summary
judgment rules, of the right to file affidavits or other
materials in opposition, and of the consequences of
default. (Doc. No. 81.) Therefore, the notice requirements of Griffith v. Wainwright, 772 F.2d 822, 825
(11th Cir. 1985) (per curiam), are satisfied. The time
for filing materials in opposition has expired, and the
motions are ripe for consideration.
III. Discussion
In the amended complaint, Plaintiff asserts two
primary causes of action, namely: (A) a claim—in
both her individual and administratrix capacities—
against Defendants Brewer and Harrell for illegally
obtaining and executing the search warrant in violation
of the Fourth Amendment; and (B) a claim—in her
individual capacity—against Defendants Harrell and
Vertin for detaining her in violation of the Fourth
Amendment.37 (Doc. No. 36, at 19-23.) Plaintiff seeks,
37 Out of an apparent abundance of caution, Defendants Harrell
and Vertin have also analyzed Plaintiff’s detention claim under
state law (i.e., Georgia’s false imprisonment statute, O.C.G.A.
§ 51-7-20), arguing that they are entitled to official immunity from
such a claim. (See Doc. No. 77-1, at 18-20; Doc. No. 78-1, at 1620.) In her responses, however, Plaintiff has only analyzed her

App.69a

inter alia, damages for the wrongful death of David
Hooks, damages to the Hooks residence and related
property, punitive damages and an award of her litigation expenses. (Id. at 24-26.) Defendants contend that
they are entitled to qualified immunity on Plaintiff’s
claims.
Qualified immunity is a judicially-created affirmative defense under which “government officials performing discretionary functions generally are shielded from
liability for civil damages insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person would have
known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).
“To receive qualified immunity, the public official must
first prove that he was acting within the scope of his
discretionary authority when the allegedly wrongful
acts occurred.” Lumley v. City of Dade City, 327 F.3d
1186, 94 (11th Cir. 2003) (citations omitted). Here, it
is clear that Defendants were acting in their discretionary capacities when they engaged in the conduct presently challenged by Plaintiff, a point which Plaintiff
does not contest. Accordingly, the burden shifts to
Plaintiff to demonstrate that qualified immunity is not
appropriate. See id.
“In resolving questions of qualified immunity at
summary judgment, courts engage in a two-pronged
inquiry.” Tolan v. Cotton, 134 S. Ct. 1861, 1865 (2014).
“The first [prong] asks whether the facts, taken in
the light most favorable to the party asserting the
detention claim under 42 U.S.C. § 1983. (See Docs. 87, 94.)
Accordingly, the Court provisionally deems any such state-law
claim abandoned. See, e.g., Clark v. City of Atlanta, 544 F.
App’x 848, 855 (11th Cir. 2013).

App.70a
injury, show the officer’s conduct violated a federal
right.” Id. (quoting Saucier v. Katz, 533 U.S. 194, 201
(2001) (alterations omitted)). “The second prong of
the qualified-immunity analysis asks whether the
right in question was ‘clearly established’ at the time
of the violation.”38 Id. at 1866 (citing Hope v. Pelzer,
38 Tolan, 134 S. Ct. at 1866 (“Governmental actors are shielded
from liability for civil damages if their actions did not violate
clearly established statutory or constitutional rights of which a
reasonable person would have known. The salient question is
whether the state of the law at the time of an incident provided
fair warning to the defendants that their alleged conduct was
unconstitutional.” (internal quotations, citations, and alterations
omitted)); Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011) (“A
Government official’s conduct violates clearly established law
when, at the time of the challenged conduct, the contours of a
right are sufficiently clear that every reasonable official would
have understood that what he is doing violates that right. We
do not require a case directly on point, but existing precedent
must have placed the statutory or constitutional question beyond
debate.” (internal quotations, citations, and alterations omitted));
Hope, 536 U.S. at 741 (“Our opinion in Lanier thus makes clear
that officials can still be on notice that their conduct violates
established law even in novel factual circumstances. Indeed, in
Lanier, we expressly rejected a requirement that previous cases
be ‘fundamentally similar.’ Although earlier cases involving
‘fundamentally similar’ facts can provide especially strong support
for a conclusion that the law is clearly established, they are not
necessary to such a finding. The same is true of cases with
‘materially similar’ facts.” (citing United States v. Lanier, 520
U.S. 259 (1997))); Hill v. Cundiff, 797 F.3d 948, 979 (11th Cir.
2015) (“A right may be clearly established for qualified
immunity purposes in one of three ways: (1) case law with
indistinguishable facts clearly establishing the constitutional
right; (2) a broad statement of principle within the Constitution,
statute, or case law that clearly establishes a constitutional
right; or (3) conduct so egregious that a constitutional right was
clearly violated, even in the total absence of case law.” (internal
quotations and citations omitted)); see also Ziegler v. Martin
Cty. Sch. Dist., 831 F.3d 1309, 1326 n.12 (11th Cir. 2016) (“In

App.71a
536 U.S. 730, 739 (2002)). “Courts have discretion to
decide the order in which to engage these two
prongs . . . [b]ut under either prong, courts may not
resolve genuine disputes of fact in favor of the party
seeking summary judgment.”39 Id. (citations omitted).
A. The Search Warrant
The Fourth Amendment protects “[t]he right of the
people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures.” U.S. Const. Amend. IV. “Generally, a search is
reasonable under the Fourth Amendment when supported by a warrant or when the search fits within an
established exception to the warrant requirement.”
this circuit, the law can be clearly established for qualified
immunity purposes only by decisions of the U.S. Supreme Court,
Eleventh Circuit Court of Appeals, or the highest court of the
state where the case arose.” (citations omitted)).
39 Tolan, 134 S. Ct. at 1866 (“This is not a rule specific to qualified
immunity; it is simply an application of the more general rule
that a judge’s function at summary judgment is not to weigh the
evidence and determine the truth of the matter but to determine
whether there is a genuine issue for trial. . . . In making that
determination, a court must view the evidence in the light most
favorable to the opposing party.” (internal quotations and citations
omitted)); see also Johnson v. Breeden, 280 F.3d 1308, 1317
(11th Cir. 2002) (“[I]f the evidence at the summary judgment
stage, viewed in the light most favorable to the plaintiff, shows
there are facts that are inconsistent with qualified immunity
being granted, the case and the qualified immunity issue along
with it will proceed to trial.”); Simmons v. Bradshaw, 2018 WL
345324, at *5 (11th Cir. Jan. 10, 2018) (“In other words, the
question of what circumstances existed at the time of the encounter
is a question of fact for the jury—but the question of whether
the officer’s perceptions and attendant actions were objectively
reasonable under those circumstances is a question of law for
the court.” (citations omitted)).

App.72a

United States v. Prevo, 435 F.3d 1343, 1345 (11th
Cir. 2006). The Fourth Amendment further provides
that “no Warrants shall issue, but upon probable
cause, supported by Oath or affirmation.” U.S. Const.
Amend. IV.
“[P]robable cause is a fluid concept—turning on
the assessment of probabilities in particular factual
contexts—not readily, or even usefully, reduced to a
neat set of legal rules.” Illinois v. Gates, 462 U.S. 213,
232 (1983); see also Arrington v. Kinsey, 512 F. App’x
956, 959 (11th Cir. 2013) (“In determining whether
probable cause exists, we deal with probabilities which
are the factual and practical considerations of everyday life on which reasonable and prudent men, not
legal technicians, act.” (internal quotations and alterations omitted) (citing Rankin v. Evans, 133 F.3d 1425,
1435 (11th Cir. 1998))). Accordingly, “[p]robable cause
to support a search warrant exists when the totality
of the circumstances allow a conclusion that there is
a fair probability of finding contraband or evidence
at a particular location.” United States v. Brundidge,
170 F.3d 1350, 1352 (11th Cir. 1999) (citing United
States v. Gonzalez, 940 F.2d 1413, 1419 (11th Cir.
1991)); see also United States v. Martin, 297 F.3d 1308,
1314 (11th Cir. 2002) (“[T]he affidavit must contain
sufficient information to conclude that a fair probability
existed that seizable evidence would be found in the
place sought to be searched.” (citations omitted)).
Under this “totality of the circumstances” analysis,
an affidavit in support of a search warrant “should
establish a connection between the defendant and
the [area] to be searched and a link between the
[area to be searched] and any criminal activity” and

App.73a
must be based on “fresh” information. Martin, 297 F.3d
at 1314 (citations omitted).
An informant’s veracity and basis of knowledge are
relevant considerations—as opposed to independent
essential elements—in assessing whether probable
cause exists to support a search warrant. Gates, 462
U.S. at 233 (“[T]hey are better understood as relevant
considerations in the totality-of-the-circumstances
analysis that traditionally has guided probable cause
determinations: a deficiency in one may be compensated for, in determining the overall reliability of a
tip, by a strong showing as to the other, or by some
other indicia of reliability.”). Similarly, independent
police corroboration of an informant’s tip is a relevant
consideration—as opposed to an essential requirement
—in the Court’s analysis. Brundidge, 170 F.3d at 1353
(“[I]ndependent police corroboration has never been
treated as a requirement in each and every case.”);
see also Martin, 297 F.3d at 1314 (“[W]hen there is
sufficient independent corroboration of an informant’s
information, there is no need to establish the veracity
of the informant.” (citations omitted)). Further, “making
a statement against one’s penal interests without more
will not raise an informant’s tip to the level of probable
cause required under the Fourth Amendment.” Ortega
v. Christian , 85 F.3d 1521, 1525 (11th Cir. 1996)
(citations omitted)).
Of direct pertinence to the instant claim, the
Fourth Amendment prohibits officers from making
deliberately-or recklessly-false statements to secure
a search warrant. Madiwale v. Savaiko, 117 F.3d 1321,
1326 (11th Cir. 1997) (citing Franks v. Delaware, 438
U.S. 154, 171 (1978)); see also Smith v. Sheriff, Clay
Cty., 506 F. App’x 894, 898 (11th Cir. 2013) (“[T]he

App.74a
existence of a warrant will not shield an officer from
liability where the warrant was secured based upon
an affidavit that contained misstatements made either
intentionally or with reckless disregard for the truth.”
(citing W. Point-Pepperell, Inc. v. Donovan, 689 F.2d
950, 959 (11th Cir. 1982))); Daniels v. Bango, 487 F.
App’x 532, 537 (11th Cir. 2012) (“A law enforcement
officer recklessly disregards the truth when he should
have recognized the error in the warrant application,
or at least harbored serious doubts as to the facts
contained therein. This is especially true when the
inconsistency gives the agent cause to investigate
further.” (internal quotations and alterations omitted)
(citing United States v. Kirk, 781 F.2d 1498, 1503
(11th Cir. 1986)); cf. Madiwale, 117 F.3d at 1326
(“Negligent or innocent mistakes do not violate the
Fourth Amendment.”).
This prohibition similarly “applies to information
omitted from warrant affidavits,” such that “a warrant
affidavit violates the Fourth Amendment when it contains omissions made intentionally or with a reckless
disregard for the accuracy of the affidavit.” Madiwale,
117 F.3d at 1326-27 (citations omitted); see also Kingsland v. City of Miami, 382 F.3d 1220, 1228-29 (11th
Cir. 2004) (“[O]fficers should not be permitted to turn
a blind eye to exculpatory information that is available
to them, and instead support their actions on selected
facts they chose to focus upon . . . While the constitutional reasonableness of a police investigation does not
depend on an officer’s subjective intent or ulterior
motive in conducting the investigation, it does not
follow that the officer may then investigate selectively. . . . [A]n officer may not choose to ignore information that has been offered to him or her. . . . [n]or

App.75a
may the officer conduct an investigation in a biased
fashion or elect not to obtain easily discoverable
facts. . . . ” (internal citations omitted)); cf. Madiwale,
117 F.3d at 1327 (“Omissions that are not reckless, but
are instead negligent, or insignificant and immaterial,
will not invalidate a warrant.” (internal citations omitted)).
Nevertheless, “when material that is the subject
of the alleged falsity or reckless disregard is set to
one side, and there remains sufficient content in the
warrant affidavit to support a finding of probable
cause, then the warrant is valid.” Madiwale, 117 F.3d at
1326. Similarly, “even intentional or reckless omissions will invalidate a warrant only if inclusion of the
omitted facts would have prevented a finding of probable cause.” Id. at 1327. Moreover, even where a falsity
or omission would otherwise invalidate a warrant,
the relevant officers may still enjoy qualified immunity
so long as they would have had “arguable probable
cause” to seek the warrant (i.e., a reasonable officer
in the same circumstance and possessing the same
knowledge as the defendants could have believed that
probable cause supported the search). See id. (“[T]his
circuit has previously reasoned that an officer would
not be entitled to qualified immunity when the facts
omitted were so clearly material that every reasonable
law officer would have known that their omission
would lead to a search in violation of federal law.”
(citing Haygood v. Johnson, 70 F.3d 92, 95 (11th Cir.
1995))); Smith, 506 F. App’x at 899 (“[T]o overcome
summary judgment on qualified immunity grounds,
Smith must identify certain facts omitted from the
affidavit that were so clearly material that every
reasonable law officer would have known that their

App.76a
omission would lead to a search or seizure in violation
of federal law.” (internal quotations and citations
omitted)); Daniels, 487 F. App’x at 537 (“[A]n officer
will not receive qualified immunity if a reasonable
officer should have known that the statements in the
affidavit were included with a reckless disregard for
the truth or that facts were recklessly omitted from
the affidavit supporting probable cause.” (citing Kelly
v. Curtis, 21 F.3d 1544, 1554 (11th Cir. 1994))).
With these standards in mind, the Court now
turns to an analysis of whether the warrant issued
for the search of the Hooks residence was supported
by probable cause. The affidavit provided by Defendant
Brewer in support of the search warrant contains an
approximately twenty-two paragraph narrative. (See
Doc. No. 1-2, at 3-5.) Of these twenty-two paragraphs,
the first eighteen are generalized statements and
boilerplate language regarding Defendant Brewer’s
law-enforcement experience and general familiarity
with drug-trafficking practices.40 (Id.) The remaining
40 Defendants provided the Court with six “search warrants, sworn
to by [Defendant] Brewer, in other unrelated matters.” (See
Doc. 127, at 22; see also id. at 22 n.10 (“Defendants contend that
these search warrants are irrelevant to the matter presently
before the Court and do not wish to place these warrants into
the record. As such, Defendants have supplied the Court and
opposing counsel with copies separate from the court record.”
(citations omitted)).) Defendants admit that “[t]hese search
warrants are very similar to the search warrant in the instant
matter, in that all of the search warrants give [Defendant]
Brewer’s extensive experience and training as an investigator
with Laurens County Sheriff’s Office Drug Unit . . . Many of the
search warrants set out [Defendant] Brewer’s background and
experience, then give a brief description, of 1-4 paragraphs, of
the basis for [Defendant] Brewer’s probable cause for the
issuance of the search warrant.” (Id. at 22-23.) Notably, the

App.77a
four paragraphs are substantive and are repeated
below:
Within the past 6 hours your Affiant spoke
with Rodney Garrett after Garrett had waived
his Miranda Rights in writing. Garrett was
in custody for burglary and theft of a motor
vehicle as well as other offenses. Garrett had
been taken into custody after turning himself into Sgt. Ryan Brooks of the Laurens
County Sheriff [sic] Office and reporting some
of his crimes to Sgt. Brooks. Your affiant
responded to the location where Brooks had
met with Garrett where your affiant recovered approximately 20 grams of suspected
methamphetamine, a digital scale, two firearms, and a Lincoln Aviator which Garrett
stated he had taken from 1184 Highway 319
North, which is within the confines of
Laurens County, Georgia.
During the interview Garrett stated that
during the previous night he had traveled to
the residence at 1184 Highway 319 North
with the intentions of committing a theft.
affidavits provided by Defendant Brewer in support of three of
these other search warrants contain the exact same generalized
statements and boilerplate language regarding Defendant Brewer’s
law-enforcement experience and general familiarity with drugtrafficking practices contained in the affidavit in support of the
Hooks search warrant. (See Warrants Nos. 2011-0995 (search
warrant dated June 9, 2011 for residence of mother of convicted
felon believed to be in possession of firearm), 2012-1518 (search
warrant dated September 12, 2012 for residence where fugitive
was believed to be located), and 2013-1989 (search warrant
dated August 27, 2013 for data stored on cellular phone obtained
during execution of earlier search warrant).)

App.78a
Garrett stated that he entered the interior
of a pickup truck which was parked under
the carport of the residence and removed a
“neoprene” bag and a digital scale from the
center console of the vehicle. Garrett stated
that he believed the bag contain [sic] currency
at the time he removed it from the vehicle.
Garrett stated that after taking a Lincoln
Aviator which was also parked at the residence and traveling into the city of Dublin he
discovered the bag contained a large amount
of suspected methamphetamine. Garrett
stated that he then became scared for his
safety and placed the bag and scale into a
locked box which they had been recovered
from by your affiant.
Your affiant is familiar with the residence
and the occupant of the residence, David
Hooks, from a prior narcotics investigation
involving Jeff Frazier. During this investigation Frazier had been interviewed by law
enforcement and stated that he had been
the source of supply for multiple ounces of
methamphetamine to Hooks which Hooks was
redistributing.
Garrett also admitted to committing other
criminal offenses for which he was a suspect
and provided other information which led to
the recovery of stolen property which law
enforcement was unaware of prior to this
confession.
(Id. at 5.)

App.79a
Plaintiff asserts that the foregoing paragraphs
contain numerous falsities and/or material omissions.
Upon consideration of the record, as set forth in the
factual background, supra, and detailed in the subsequent explanatory footnotes, the Court finds that
there are genuine disputes of fact with respect to these
falsities and omissions, and further, the disputes are
material to the determination of probable cause. The
falsities and material omissions include: (i) the
falsity that Defendant Brewer was “familiar with”
David Hooks and the Hooks residence from a prior
narcotics investigation involving Jeff Frazier;41 (ii)
41 Defendant Brewer testified that at some undefined point in time
he and/or other Laurens County law enforcement officers “drove
out to the Hooks residence to verify that what [Jeff] Frazier had
told us as far as where Hooks was living was actually true . . .
[and that they] actually drove up onto the property attempting
to make contact with somebody at that time,” but that no such
contact was ever made. (Brewer Dep. at 78.) Yet, Defendant
Brewer further testified that his understanding of David Hooks’
relation to the investigation of Jeff Frazier came primarily—if
not entirely—from Corporal Burris’s post-arrest interview of
Jeff Frazier in 2009. (Id. at 71-85.) Corporal Burris testified,
however, that Jeff Frazier: (i) never told Corporal Burris that
David Hooks had ever distributed drugs to anyone; and (ii)
never told Corporal Burris when and/or where he had provided
methamphetamine to David Hooks (i.e., whether it was at the
Hooks residence or another location). (Burris Dep. at 14-24.)
Corporal Burris further testified that: (a) Jeff Frazier’s accusations
regarding David Hooks were nothing more than a “generalized
statement [along the lines of] ‘I bring ounces back to David
Hooks;” (b) Jeff Frazier was the only person who had previously
accused David Hooks of drug-related activity; (c) there was
never any kind of observation (e.g., a stakeout, controlled
purchase, etc.) of David Hooks and/or the Hooks residence for
any reason at any time; (d) no information resulted from the
investigation that would indicate that the Hooks residence
contained equipment related to the manufacture, packaging,

App.80a
the falsity that Jeff Frazier had stated during an
interview that Hooks was “redistributing” methamphetamine that had been supplied by Jeff Frazier;42
(iii) the falsity that Rodney Garrett had admitted to
committing other criminal offenses for which he was
a suspect;43 (iv) the falsity that Rodney Garrett had
cutting, and/or distribution of methamphetamine and/or currency
connected to drug activity; (e) “there was nothing uncovered
during the course of the investigation of Jeff Frazier . . . that
signaled or indicated or in any way suggested that David Hooks
had anything to with Jeff Frazier;” and (f) there was never “any
information to the [Laurens County Sheriff’s Office’s] Drug Unit
to the effect that there were any drugs at David Hooks’ home or
on his property other than what [Rodney] Garrett had to say.”
(Id.)
42 See n.41, supra.
43 During his deposition, Defendant Brewer was unable to
specifically identify any—let alone catalog all—of the other
crimes to which Rodney Garrett had purportedly confessed.
(See Brewer Dep. at 34-42.) Indeed, while Defendant Brewer
testified that Rodney Garrett had admitted to committing
“other thefts, possible burglaries,” Defendant Brewer was unable
to say what items were stolen or from whom they were stolen.
(Id. at 40-41.) Having reviewed the record in this matter in
great detail, the Court is unable to locate any crimes—other
than his rampant prior possession and use of methamphetamine
(and marijuana) and the theft of the Hooks’ property—for which
Rodney Garrett had admitted culpability; rather, Rodney
Garrett either outrightly denied any involvement in any other
criminal activity or provided exculpatory explanations for
possessing stolen goods (the great majority of which he denied
were in fact stolen). For example, when questioned by Sergeant
Brooks regarding a four-wheel ATV that Rodney Garrett had
previously been seen operating, Rodney Garrett denied having
stolen the ATV but admitted that he knew where the ATV was
located; indeed, when questioned about it at the station, Rodney
Garrett claimed that he had bought the ATV from a Mr. Jimmy
White approximately one and a half to two years prior. (Garrett

App.81a
provided other information which led to the recovery
of stolen property which law enforcement was unaware
of prior to his confession;44 (v) the omission that
Interview Tr. at 5; Brooks Dep. at 42-43.) When Sergeant
Brooks asked Rodney Garrett to point out any items located
inside his residence that were stolen (other than the Hooks’
property) before taking Rodney Garrett to the Sheriff’s Office,
Rodney Garrett “looked around and said no gall [sic] got
everything.” (Doc. No. 76-9, at 2; see also Garrett Interview Tr.
at 7 (Brooks: “[W]hat about the stuff I took from your house.
The red trailer and black trailer[?]” Garrett: “[T]hat’s mine[.]”
Padgett: “[W]hat else is out there that you know is stolen that
you can help us get our hands on[?]” Garrett: “[T]hat’s it. We
went out and look while ago. That was everything[.]” Padgett:
“[A]nd what did y’all go out and look for?” Garrett: “[T]hey just
wanted me to go out and look and make sure there wasn’t
anything else there that wasn’t mine that I didn’t buy and pay
for[.]” Brooks: “[Y]eah and I took him out there and told him to
show me anything else that we didn’t get the other night that
may have been stolen[.]”).) When questioned whether he had
stolen a Stihl chainsaw that was reported missing from a local
business, Rodney Garrett denied having stolen the chainsaw
and claimed that he bought it from a Mr. John Chinholster for
$200 (although Rodney Garrett later conceded—after repeated
questioning on the subject—that he had reason to question
whether the chainsaw was “hot” because of the low price he
paid for it). (Garrett Interview Tr. at 7-8; see also Brooks Dep.
at 45-48.) When asked about tools that had been stolen from
Mr. James Dixon, Rodney Garrett denied all knowledge and
claimed that Mr. Dixon had a personal vendetta against him
because of past business dealings. (See Garrett Interview Tr. at
5.) Indeed, the interview transcript is peppered with well-worn,
self-serving explanations often uttered by those caught in
possession of stolen property, ranging from his having bought
the relevant property “at a yard sell [sic],” to having been
“working on it for a man,” to having found it broken down in the
woods. (See id., generally; see also n.20, supra.)
44 Notably, none of the “other information” provided by Rodney
Garrett that purportedly led to the recovery of stolen property
was provided spontaneously (i.e., without prompting); rather, it

App.82a

was only after he was accused of having stolen the specific
property in question that he provided information as to its
location (along with an exculpatory explanation for his
possession of said property and/or knowledge of its location).
See n.10, n.43, supra. Moreover, it is unclear from the ambiguous
wording of Defendant Brewer’s affidavit whether he was
attesting that, prior to Rodney Garrett’s statements to the
officers, law enforcement was unaware that the property in
question had in fact been stolen or whether they were simply
unaware of its then-present location. If it is the former, this
would be a false and/or misleading statement given that most if
not all of the property about which Rodney Garrett was
questioned was already known—or at least believed—to be
stolen. (See Brooks Dep. at 7-11 (suspected theft by Rodney
Garrett on or about August 19, 2014 of property owned by Mr.
Faulk); id. at 11-16, 22-27 (suspected theft by Rodney Garrett
on or about September 21, 2014 of tools and other property
owned by Mr. Dixon); id. at 17-29 (suspected theft by Rodney
Garrett on or about September 21, 2014 of a green truck owned
by Mr. Mendoza).) If it is the latter, this still would be a false
and/or misleading statement given that the locations of the vast
majority of the stolen property about which Rodney Garrett was
questioned on September 24, 2014 were previously known to
Sergeant Brooks and other Laurens County law enforcement.
(See Brooks Dep. at 24-26 (on September 21, 2014—at Sergeant
Brooks’ instruction and in his presence—Monty Garrett identified
tools on Rodney Garrett’s property that did not belong to
Rodney Garrett); id. at 26-29 (on September 21, 2014, Chris
Willis informed Sergeant Brooks regarding the location of the
green truck stolen from Mr. Mendoza); id. at 45-48 (stolen Stihl
chainsaw recovered by Sergeant Brooks prior to interview of
Rodney Garrett at Sheriff’s Office); see also Doc. No. 76-9
(Sergeant Brooks’ incident report dated September 25, 2014).)
Indeed, other than the property stolen from the Hooks, the only
property that was located by officers as a result of Rodney
Garrett’s statements was a four-wheel ATV-that itself may not
have even been stolen. (See Brooks Dep. at 21, 42-44; Garrett
Interview Transcript at 5 (Rodney Garrett claimed that he
bought ATV from Jimmy White).) Further, Rodney Garrett had
never previously provided any accurate information to law

App.83a
David Hooks had reported the midnight burglary of
his property on the following afternoon of September
23, 2014;45 (vi) the omission that Laurens County
law enforcement officers met with David Hooks at
the Hooks residence on September 23, 2014 to investigate the aforementioned burglary, including dusting
for fingerprints in the detached garage and vehicles
on the premises;46 (vii) the omission that the “prior
narcotics investigation involving Jeff Frazier” occurred
in 2009;47 (viii) the omission that the lengthy 2009
investigation of Jeff Frazier resulted in no corroboration of Jeff Frazier’s assertion that he was supplying
methamphetamine to David Hooks;48 (ix) the omission of Rodney Garrett’s criminal history, including
enforcement officers that led to the recovery of stolen goods or
evidence of other crimes. (Brewer Dep. at 102-03.)
45 (See Toney Dep. at 17; Doc. No. 83-18, at 3-6.)
46 (See Toney Dep. at 17-23; Doc. No. 83-18, at 3-4; see also
Brewer Dep. at 100-02.)
47 (See Brewer Dep. at 71-96; Burris Dep. at 9, 39.) Defendants
argue that any information gleaned from the 2009 investigation
of Jeff Frazier would not be “stale” with regards to David Hooks’
suspected distribution of methamphetamine in September 2014
because David Hooks’ purported distribution of drugs was a
“continuous crime”; Defendants, however, have failed to put
forth sufficient evidence to demonstrate that they had a
reasonable basis to believe David Hooks was distributing drugs,
let alone on a protracted, repeated, or continuous basis. (See
Burris Dep. at 14-24; Brewer Dep. at 112-13, 175-76; see also
n.41 (regarding Burris’ testimony that Frazier gave no information
about the distribution of drugs), supra; n.56 (discussing the lack
of evidence of manufacturing, processing, and/or packaging on
the Hooks property), infra.)
48 (See Brewer Dep. at 71-97; Burris Dep. at 9-24, 50-60;
DRPSMF ¶¶ 38-39.)

App.84a
that he was a suspect in multiple thefts that had
recently occurred in Laurens County, that he was
suspected of dealing in stolen property, that there
was a warrant out for his arrest for a theft unrelated
to the Hooks (i.e., the theft of a Mr. Mendoza’s truck)
of which he was aware, and that he denied culpability
for any of these pending crimes;49 (x) the omission of
Rodney Garrett’s extensive history of methamphetamine purchase and use, including that he had a
regular supplier of methamphetamine with whom he
was presently living, from whom he had purchased
approximately 3.5 grams of methamphetamine less
than three days before the Hooks burglary, and who
had previously fenced stolen goods on his behalf;50
49 (See, e.g., Brewer Dep. at 70-99; Brooks Dep. at 7-16; 22-29,
45-48; Garrett Dep. at 15-19, 48, 59; see also n.10, n.43, n.44,
supra.)
50 (Garrett Dep. at 11-14 (Q: “Okay. So you had been doing
meth on a regular basis from the end of 2012 up until you were
arrested for—for this—” A: “Em-hmm, yes, sir.” Q: “—case in
November—I’m sorry, September 24, 2014?” A: “Yes.” Q: “How
regular would you do it?” A: “Every day.” Q: “Daily?” A: “Yes,
sir.” Q: “And how much meth do you think you would—you
would do in a normal day?” A: “A gram to gram and a half,
probably.” Q: “Okay. And would that more or less be seven days
a week?” A: “Yes, sir.” Q: “Take me through when you would—
when you were doing meth, what is the schedule like for something
like that? Is that something you do throughout the day or is it
something you do—” A: “Day and night.” Q: “—day and night?”
A: “It’s almost impossible to sleep on it, they say, unless-unless
you’re on it for a long time and then you get to where you could
sleep again, but I could never sleep.” Q: “Okay. So, as far as
actually doing it, would you do some early in the morning?” A:
“Early in the morning and then maybe again after lunch, and
then maybe again around 10 or 11:00 at night.” Q: “Okay. So it
was throughout the day?” A: “Yeah.” Q: “Okay. Now, what was
the—I’m assuming, since you were doing that much meth, that

App.85a
(xi) the omission of Rodney Garrett’s admission that
he had smoked methamphetamine before, during,
and after the burglary of the Hooks property, including
having smoked some of the methamphetamine that
he professed to have taken from the Hooks property;51
you had to be purchasing it?” A: “Yeah.” Q: “And what was the
going rate for a gram of meth back then?” A: “80 to $100 a
gram.” Q: “Okay.” A: “Usually.” Q: “So your daily habit was an
80-to $100-a-day habit?” A: “Yeah.”); id. at 19-20 (Q: “Okay.
Okay. When you would—when you would purchase meth for
your own use, what quantities would you purchase it in?” A:
“Usually—usually anywhere from a gram to three and a half
grams, what they call an 8-ball, a street 8-ball.” Q: “Okay. So
that would require you, based on your habit, to have to make
purchases several times a week?” A: “Yes, sir.”); id. at 49 (Q:
“You’ve talked about doing a lot of methamphetamine that day
and that evening, that night. When did you buy the methamphetamine that you were—you were doing that night?” A:
“Either Saturday or Sunday. I think it was Saturday evening.”
Q: “Okay. And do you remember how much you bought at that
point in time?” A: “Three and a half grams.” Q: “Three and a
half grams? That would be an 8-ball?” A: “Yes, sir.” Q: “And I
think you told—in your statement, you told Chris Brewer and
Lance Padgett that you were buying your meth from Chris
Willis?” A: “Yeah.” Q: “And is that who you bought that from?”
A: “That or either somebody he knew would come by—” Q:
“Okay.” A: “—and bring the drugs.”); id. at 55, 60, 70-71; Garrett
Interview Tr. at 4-5, 8-10).) Of note, Rodney Garrett testified
that he used his own set of scales to ensure he was not being
swindled when he purchased methamphetamine. (Garrett Dep.
at 47.) Sergeant Brooks was previously informed by Chris
Willis’s father, Bobby Willis, that Chris Willis had attempted to
sell stolen goods to Bobby Willis on behalf of Rodney Garrett.
(Brooks Dep. at 21-27.)
51 (Garrett Interview Tr. at 10; Padgett Dep. at 15-17; see also
Garrett Dep. at 21-34, 60-61, 77-79 (Q: “We’re sitting here
talking about all the methamphetamine you had smoked within
the—” A: “Yes.” Q: “—the house leading up to when you were
there, and then you actually smoked some in the—” A: “In the

App.86a
(xii) the omission that Sergeant Brooks “knew Rodney
Garrett was a meth[amphetamine] addict . . . and knew
at the time of his arrest he [i.e., Garrett] was under
the influence of methamphetamine and had not slept
in 7 to 10 days;”52 (xiii) the omission that Defendant
Brewer and the other officers who were present for
Rodney Garrett’s interview were aware that Rodney
Garrett was under the influence of methamphetamine
at the time of the interview;53 (xiv) the omission that
Sergeant Brooks and other officers “knew [Rodney
Garrett’s] propensity to lie to law enforcement and
his own family;”54 and (xv) the omission that Rodney
Garrett had never previously provided any accurate
information to law enforcement officers.55 Further,
while Defendant Brewer states in the search warrant
affidavit that the location to be searched was “the
residence of David Nelson Hooks” where he assumed
there would be located “[p]araphernalia necessary for
manufacturing, packaging, cutting, weighing, and/or
distributing controlled substances” as well as “[c]urrency of the United States obtained, connected with
and/or possessed to facilitate the financing of illicit
drug trafficking” (doc. no. 1-2, at 3), this conclusion
was based solely on Rodney Garrett’s statement that he
had stolen approximately twenty grams of methamphetamine and a set of scales from a vehicle located
room, in the shop, yeah.” Q: “—shop. Would it be fair to say that
at that point in time—” A: “You could have.” Q: “—you were
pretty high?” A: “Yes, sir. Em-hmm.”).)
52 (DRPSMF ¶ 14; see also Garrett Dep. at 77-79.)
53 (DRPSMF ¶ 17.)
54 (DRPSMF ¶ 14; see, e.g., Brooks Dep. at 8-18.)
55 (Brewer Dep. at 102-03.)

App.87a
within the curtilage of the Hooks property, which
Defendant Brewer himself testified “really ain’t that
much dope.”56
56 (See Brewer Dep. at 112-13 (Q: “In all of what you understood
Garrett had said, did Garrett ever say that he saw any illegal
substance inside of David Hooks’ home?” A: “No, sir.” Q: “Did he
ever say that he saw any illegal substance in any location, other
than in the truck from which he took the bag?” A: “No, sir.” Q:
“Did he ever identify—excuse me. Did he ever relay to you or to
your knowledge to any other law enforcement officer on the day
of the search warrant that he, Garrett, had observed any drug
paraphernalia over and above a bag and after he opened the
bag, a plastic bag?” A: “No. Other than the scale I don’t recall
anything else.” Q: “Okay. Did he ever relay to you or to any
other law enforcement officer on the day of the search warrant
application any observation that reflected the presence on
David Hooks’ property of the equipment needed to process or
produce illegal drugs?” A: “Not that I recall.” Q: “Did he ever
relay to you any information or to any other officer to the best of
your knowledge on the day of the search warrant application
that he, Garrett, saw items that consisted of packaging of drugs?
Again, other than the bag and the plastic bag?” A: “No. Not that
I recall.”); id. at 175-76 (Q: “Okay. So in a manner of speaking,
you weren’t aware of any shipment about to be made?” A: “No,
sir.” Q: “Or sale about to take place?” A: “No, sir.” Q: “Or
manufacturing that was taking place at the Hooks’ property?”
A: “No, sir.” Q: “Or evidence that reflected that chemicals
needed for the manufacture of meth were going to be delivered?”
A: “No, sir.” Q: “Or were even present on the property?” A: “No,
sir.” Q: “And there was no specific information that you had to
the effect that if there were illegal drugs there at the property
that they were about to be moved.” A: “Nothing specific.”); see
also id. at 115 (Q: “So as of the day of the search warrant was
there any source of information, law enforcement or informant
or citizen, any source of information that you had that provided
you with information about any drug activity taking place
inside the Hooks’ home?” A: “If you specifically narrow it down
to inside the home then I’d have to answer no.”).) Notably,
during Rodney Garrett’s interview, Sergeant Padgett estimated
that the street value of 20 grams of methamphetamine was

App.88a
Taking the facts in the light most favorable to
Plaintiff and drawing all reasonable inferences in her
favor, the facts support a conclusion that Defendants
Brewer and Harrell violated the Fourth Amendment in
obtaining and/or executing the search warrant. Indeed,
a reasonable factfinder could easily conclude that, in
his presentation to Judge Snell, Defendant Brewer:
(a) embellished, distorted, or otherwise supplied false
inculpatory facts; and (b) disregarded, ignored, or
otherwise omitted material exculpatory facts. Further,
the aforementioned falsities and omissions are clearly
integral to the “totality of the circumstances” of the
probable cause analysis. Moreover, given that the
material falsities and omissions in the affidavit were
known or reasonably knowable by Defendant Brewer,57
a reasonable factfinder could conclude that these
falsities (and omissions) were included (and omitted)
intentionally or with reckless disregard for the truth.
See Madiwale, 117 F.3d at 1327 (“A party need not
show by direct evidence that the affiant makes an
omission recklessly. Rather, it is possible that when
the facts omitted from the affidavit are clearly critical
to a finding of probable cause the fact of recklessness
may be inferred from proof of the omission itself.”
(internal quotations and citations omitted)). Similarly,
between three and four thousand dollars, which Defendant Brewer
testified “really ain’t that much dope.” (Brewer Dep. at 112; see
also Garrett Interview Tr. at 11 (Padgett: “3 or 4 thousand
dollars ain’t that big of a deal with a regular dope dealer. Chris
[Willis] could be making that everyday.”).)
57 Kingsland, 382 F.3d at 1228 (“A qualified immunity analysis
must charge the officer with possession of all the information
reasonably discoverable by an officer acting reasonably under
the circumstances.” (alterations omitted) (quoting Sevigny v.
Dicksey, 846 F.2d 953, 957 n.5 (4th Cir. 1988))).

App.89a
Plaintiff has provided sufficient evidence from which a
reasonable factfinder could conclude that the abovereferenced falsities and material omissions were
known or reasonably knowable by Defendant Harrell
and that Defendant Harrell was personally involved
in obtaining the search warrant or otherwise knew
Defendant Brewer was acting unlawfully and failed
to stop him from doing so. See Keating v. City of Miami,
598 F.3d 753, 762 (11th Cir. 2010) (“[S]upervisors are
liable under § 1983 either when the supervisor personally participates in the alleged constitutional violation
or when there is a causal connection between actions
of the supervising official and the alleged constitutional violation. A causal connection can be established
by, inter alia, facts which support an inference that
the supervisor directed the subordinates to act unlawfully or knew that the subordinates would act unlawfully and failed to stop them from doing so.” (internal
quotations and citations omitted)); Baskin v. Parker,
602 F.2d 1205 (5th Cir. 1979) (sheriff may be personally liable under § 1983 for search carried out
under illegally obtained warrant if he participated in
obtaining the warrant and organizing search party).
While the Court concludes that a reasonable jury
could determine that the affidavit contained falsities
and material omissions, Defendants Brewer and
Harrell may still enjoy qualified immunity if they
nevertheless had “arguable probable cause” to seek
the search warrant. When the aforementioned falsities
are removed from—and omitted material facts are
included in—the affidavit attested to by Defendant
Brewer in support of the search warrant, however,
arguable probable cause would not exist for the search
of the Hooks residence. That is, viewing the facts in

App.90a
the light most favorable to Plaintiff, a reasonable officer
in the same circumstances and possessing the same
knowledge as Defendants Brewer and Harrell could
not have believed probable cause existed under the
totality of the circumstances given they: (a) elected
not to obtain easily discoverable facts, turned a blind
eye to exculpatory information that was available to
them, or otherwise conducted their investigation in a
biased fashion; and (b) relied on an uncorroborated
tip from a criminal suspect who was known to lie to
law enforcement, even though the information supplied
was against the suspect’s penal interests. See Gates,
462 U.S. at 233; Kingsland, 382 F.3d at 1233; Madiwale, 117 F.3d at 1326-27; Brundidge, 170 F.3d at
1353; Martin, 297 F.3d at 1314. More particularly, in
the absence of the alleged falsities and in consideration of the material omissions, Defendants Brewer
and Harrell had only the uncorroborated word of a
known liar and car thief to put methamphetamine
and other evidence of drug activity in the home of
David Hooks. No reasonable officer in the same
circumstances and possessing the same knowledge
could have believed probable cause existed to support
the search warrant. See Garmon v. Lumpkin Cty., 878
F.2d 1406, 1410-11 (11th Cir. 1989) (“[A] magistrate’s
decision to issue an arrest warrant does not absolve
the officer who applied for the warrant from liability:
The question is whether a reasonably well-trained
officer applying for a warrant would have known
that his affidavit failed to establish probable cause
and that he should not have applied for the warrant.
If such was the case, the officer’s application for a
warrant was not objectively reasonable.”).

App.91a
In conclusion, the disputed issues of fact are
material because, if Plaintiff’s version of the facts is
accepted, the search warrant is unsupported by arguable probable cause. Accordingly, qualified immunity
from suit on this issue is effectively unavailable at
summary judgment, even though after a full trial
Defendants Brewer or Harrell may yet prevail. See
Simmons, 2018 WL 345324, at *4 (“If the official’s
motion [for summary judgment] does not succeed,
however, then his qualified immunity defense remains
intact and proceeds to trial.”); Herren v. Bowyer, 850
F.2d 1543, 1546 (11th Cir. 1988) (“[I]f the legal norms
allegedly violated were as a matter of law clearly
established at the appropriate time, a genuine fact
issue as to what conduct the defendant engaged in
would preclude a grant of summary judgment based
upon qualified immunity.” (citations omitted)).
Before turning to Plaintiff’s claim of unlawful
detention, the Court must address Defendants Brewer
and Harrell’s argument that they are entitled to
summary judgment on Plaintiff’s claims for property
damages, wrongful death, and punitive damages arising
out of the alleged unlawful search.
Plaintiff may recover punitive damages against
Defendants in their individual capacities if she can
show that their conduct was “motivated by an evil
motive or intent” or it involved “reckless or callous
indifference to federally protected rights.” Anderson
v. City of Atlanta, 778 F.2d 678, 688 (11th Cir. 1985);
see also Christiansen v. McRay, 380 F. App’x 862, 864
(11th Cir. 2010) (“[I]n order to receive punitive damages
in § 1983 actions, a plaintiff must show that the
defendant’s conduct was motivated by evil motive or
intent or involved reckless or callous indifference to

App.92a
the federally protected rights of others.”) Here,
Defendants conclusorily contend that Plaintiff cannot
make this showing. Yet, if the jury credits Plaintiff’s
version of events, it could reasonably find that Defendants were callously indifferent towards David and
Teresa Hooks’ federally protected rights. That is,
Plaintiff’s entitlement to punitive damages turns upon
the same genuine disputes of material fact related to
her claim of an unconstitutional search, and from
those facts, a jury must determine whether Defendants’
conduct manifested malevolent intent or reckless
indifference to the Hooks’ Fourth Amendment rights.
Accordingly, the Court will not grant summary judgment in favor of Defendants on Plaintiff’s claim for
punitive damages. With respect to Plaintiff’s claim
for property and wrongful death damages, common
law tort principles of damages and causation apply in
the § 1983 context. Jackson v. Sauls, 206 F.3d 1156,
1168 (11th Cir. 2000). That is, § 1983 defendants are
responsible for the natural and foreseeable consequences of their actions. Id. A plaintiff therefore must
show that, except for the constitutional tort, the
alleged “injuries and damages would not have occurred”
and that “such injuries and damages were reasonably
foreseeable consequences of the tortious acts or omissions in issue.” Id. In this case, Plaintiff’s entitlement to damages for property damage and wrongful
death hinge upon the resolution of genuine disputes
of material fact, especially with respect to proximate
cause.
In response, Defendants Brewer and Harrell contend that Plaintiff’s wrongful death claim is foreclosed
by the recent decision of the United States Supreme
Court, County of Los Angeles, Calif. v. Mendez, 137

App.93a
S. Ct. 1539 (2017). The Mendez Court abrogated the
Ninth Circuit’s “provocation rule,” which comes into
play only after a determination has been made that
a law enforcement officer’s use of force was otherwise reasonable. Id. at 1546. The “provocation rule”
“instructs the court to ask whether the law enforcement officer violated the Fourth Amendment in some
other way in the course of events leading up to the
seizure.” Id. If a separate Fourth Amendment violation was committed, the “provocation rule” would
provide a second path to liability for an officer’s use
of force and “render the officer’s otherwise reasonable
defensive use of force unreasonable as a matter of
law.” Id. (quoted source omitted) (emphasis in original).
In rejecting the “provocation rule,” the Court held
that this approach “manufacture[d] an excessive force
claim where one would not otherwise exist.” Id.
The Mendez Court, however, did not foreclose the
possibility of recovery for injuries proximately caused
by an unconstitutional entry occurring prior to the
use of force. Indeed, the Court recognized that the
harm proximately caused by two torts (warrantless
entry and excessive force) may overlap. Id. at 1548.
Yet, the two claims should not be conflated. Rather,
each claim must be analyzed separately to include
damages and proximate cause. Id. at 1548-49. In fact,
the Court remanded the case to the Ninth Circuit for
an analysis of whether proximate cause allows the
plaintiffs to “recover damages for their shooting
injuries based on the deputies’ failure to secure a
warrant at the outset.” Id. at 1549. Stated another
way, the Supreme Court left open the possibility that
a jury may “take into account unreasonable police

App.94a
conduct prior to the use of force that foreseeably
created the need to use it.” Id. at 1547 n.*.
In this case, genuine disputes of fact remain
regarding whether the risks associated with the
execution of an invalid search warrant were reasonably
foreseeable. The Court notes, for instance, in viewing
the evidence in the light most favorable to Plaintiff,
that Defendants sought a warrant and chose to
execute it at night upon a rural, secluded home of a
man who the officers knew owned firearms and had
been burglarized the day before. Include therewith
the fact that the officers did not knock and announce
their presence, and a reasonable jury could conclude
that the death of David Hooks was a reasonably foreseeable risk to their invalid entry. Of course, the
issue of whether David Hooks’ conduct—the material
details of which are hotly disputed by the parties—
was a superseding cause of his own death should also
be left to the jury in its consideration of causation.
Accordingly, genuine issues of material fact preclude
the grant of summary judgment on these categories
of damages.
B. Plaintiff’s Detention
As previously noted, the Fourth Amendment protects “[t] he right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable searches and seizures.” U.S. Const. Amend. IV.
A “seizure” occurs “when there is a governmental
termination of freedom of movement through means
intentionally applied.” Brower v. Cty. of Inyo, 489
U.S. 593, 596-97 (1989); see also Terry v. Ohio, 392
U.S. 1, 16 (1981) (“It is quite plain that the Fourth
Amendment governs ‘seizures’ of the person which do

App.95a
not eventuate in a trip to the station house and prosecution for crime—‘arrests’ in traditional terminology.
It must be recognized that whenever a police officer
accosts an individual and restrains his freedom to
walk away, he has ‘seized’ that person.”).
Generally, a seizure is reasonable if it is supported
by probable cause. Croom v. Balkwill, 645 F.3d 1240,
1246 (11th Cir. 2011) (“Traditionally, seizures by law
enforcement have been reasonable under the Fourth
Amendment only if justified by probable cause to
believe that the detainee committed a crime.”); Ortega,
85 F.3d at 1525 (“A warrantless arrest without probable
cause violates the Fourth Amendment and forms a
basis for a section 1983 claim. An arrest made with
probable cause, however, constitutes an absolute bar
to a section 1983 action for false arrest.” (citing Marx
v. Gumbinner, 905 F.2d 1503, 1505 (11th Cir. 1990)));
Daniel v. Taylor, 808 F.2d 1401, 1403 (11th Cir. 1986)
(“As a general rule, an official seizure of a person must
be supported by probable cause, even if no formal
arrest is made.” (citing Dunaway v. New York, 442
U.S. 200 (1979)). “Probable cause to arrest exists if the
facts and circumstances within the officer’s knowledge,
of which he has reasonably trustworthy information,
would cause a prudent person to believe, under the
circumstances shown, that the suspect has committed
or is committing an offense.” Ortega, 85 F.3d at 1525
(citations omitted).
Notwithstanding the foregoing, “certain types of
limited detentions—i.e. seizures lacking the essential
attributes of full, custodial arrests—may be constitutional even in the absence of probable cause.” Croom,
645 F.3d at 1246 (citing Terry, 392 U.S. at 20; and
United States v. Place, 462 U.S. 696, 703 (1983)). One

App.96a
such category of permissible “limited detentions”
are “temporary detentions by law enforcement of a
premises’ occupants while those premises are being
searched pursuant to a search warrant.” Id. at 1247
(citing Michigan v. Summers, 452 U.S. 692, 705, 101
(1981); and Muehler v. Mena, 544 U.S. 93, 100-02
(2005)). Nevertheless, even under this “categorical”
exception to the probable cause requirement, an
officer’s actions in detaining an individual must be
objectively reasonable in light of the facts available
to the officer. See Croom, 645 F.3d at 1249 (“When
evaluating a limited seizure under an exception to
the probable-cause requirement, we look to the ‘objective reasonableness’ of the law enforcement officer’s
actions, asking: ‘would the facts available to the officer
at the moment of the seizure or the search warrant a
man of reasonable caution in the belief that the
action taken was appropriate?’” (quoting Terry, 392
U.S. at 21-22)); see also Messerschmidt v. Millender,
565 U.S. 535, 547 (2012) (“[U]nder our precedents, the
fact that a neutral magistrate has issued a warrant
authorizing the allegedly unconstitutional search or
seizure does not end the inquiry into objective reasonableness.”).
In the case establishing the “temporary detention
during search pursuant to search warrant” exception
to the general requirement that probable cause exist
for a seizure, the Supreme Court stated that it was
“[o]f prime importance . . . that the police had obtained
a warrant to search [the detainee’s] house for contraband” because “[a] neutral and detached magistrate
had found probable cause to believe that the law was
being violated in that house and had authorized a
substantial invasion of the privacy of the persons who

App.97a
reside there” and therefore “detention of one of the
residents while the premises [are] searched, although
admittedly a significant restraint on [her] liberty,
was surely less intrusive than the search itself.”
Summers, 452 U.S. at 701. Accordingly, the Supreme
Court held that “for Fourth Amendment purposes, . . . a
warrant to search for contraband founded on probable
cause implicitly carries with it the limited authority
to detain the occupants of the premises while a proper
search is conducted.” Id. at 705 (emphasis added) (footnotes omitted); see also id. at 705 n.21 (“Although
special circumstances, or possibly a prolonged detention, might lead to a different conclusion in an unusual
case, we are persuaded that this routine detention of
residents of a house while it was being searched for
contraband pursuant to a valid warrant is not such a
case.” (emphasis added)).
Here, viewing the facts in the light most favorable
to the non-moving party and drawing all reasonable
inferences in her favor, a reasonable factfinder could
conclude that Defendant Harrell was the impetus for
Plaintiff Teresa Hooks’ detention or otherwise had
knowledge of her detention by subordinate officers
and failed to stop them from doing so. (See Harrell Dep.
at 116-21.) Further, at least with respect to Defendant
Harrell, Plaintiff has provided sufficient evidence to
demonstrate a genuine issue of material fact as to
whether Defendant Harrell had arguable probable
cause to believe that the search warrant was valid.
See Section III.A, supra. That is, a reasonable factfinder could conclude that Defendant Harrell himself
was aware—at the time he instructed Defendant Vertin
to detain Plaintiff—that the search warrant was
invalid. Were the factfinder to reach such a conclu-

App.98a
sion, no reasonable officer possessing the knowledge
of Defendant Harrell could reasonably conclude that
the detention of Plaintiff was lawful because he himself admits that he lacked probable cause to detain
her.58 Because Plaintiff’s right to be free from seizure
absent probable cause (or an exception thereto) was
clearly-defined at the time of her detention and Defendant Harrell has provided no other lawful justification for Plaintiff’s detention,59 Defendant Harrell is
not entitled to summary judgment on this issue.
But there is an even more fundamental reason
why Defendants Harrell and Vertin are not entitled
to rely on the “temporary detention during search
pursuant to search warrant” exception to the requirement that they have probable cause to detain Plaintiff;
no search occurred during—at least a significant portion
of—Teresa Hooks’ detention. Indeed, as admitted by
both Defendants Harrell and Vertin, they were aware
at the moment the officers fired their weapons that
neither they nor any other Laurens County officer
would be conducting a search pursuant to the search
warrant. (Harrell Dep. at 113; Vertin Dep. at 47; see
58 (See Harrell Dep. at 116-21 (only reasons for Teresa Hooks’
detention was safety of herself and officers and to hold her until
she could be interviewed as a witness by GBI agents); see also
Vertin Dep. at 42-47 (no probable cause to arrest Teresa Hooks;
rather, she was detained because it was “standard” to “detain
[anybody in the house] until the [GBI] investigators decide
whether they need them or not”).)
59 Defendants Harrell and Vertin themselves both argue that
“the case at bar is not a Terry stop case.” (Doc. No. 105, at 3;
Doc. No. 104, at 9 n.4 (“Sheriff Harrell adopts by reference as if
restated verbatim herein . . . Section I of [Defendant] Vertin’s
Reply Brief. . . . ”).)

App.99a

also Burris Dep. at 69-70; Doc. No. 87-1, at 5.) Further,
they knew their only role after the shooting was to
secure the site until GBI agents arrived and further
admit they were aware that the premises were secured
by 11:15 p.m.—shortly after Plaintiff was taken outside the residence.60 (See Harrell Dep. at 113; Vertin
Dep. at 47; see also Burris Dep. at 69-70; Doc. No. 871, at 5.) Additionally, a Laurens County officer searched
Plaintiff’s person during her detention and found
nothing of note, yet Defendants Harrell and Vertin
continued to hold Plaintiff without probable cause.61
(See Vertin Dep. at 41; Harrell Dep. at 117-21.)
60 While not argued by Defendants in their briefing, Defendant
Harrell testified that the only reasons he could conceive of for
Teresa Hooks’ detention was for her own safety, the safety of
officers on the premises, and to ensure she could be interviewed
as a witness by GBI. (See Harrell Dep. at 116-21.) While such
rationale may in exigent circumstances justify warrantless action,
see, e.g., Riley v. California, 134 S. Ct. 2473, 2494 (2014), United
States v. Place, 462 U.S. 696, 701-02 (1983), there is no indication
that such exigent circumstances existed at the time of Teresa
Hooks’ detention given the premises had been secured by 11:15
p.m. Indeed, allowing Plaintiff to leave the premises to go to the
hospital to attend to her dying husband would in no way have
impeded any search or investigation under the totality of the
circumstances; in fact, her continued detention most likely hampered the investigation by unnecessarily diverting manpower. See
Missouri v. McNeely , 569 U.S. 141, 149 (2013) (“To determine
whether a law enforcement officer faced an emergency that
justified acting without a warrant, this Court looks to the
totality of circumstances.”) (citations omitted).
61 Again, the Court notes that Defendants Harrell and Vertin
themselves assert that this “is not a Terry stop case.” (See n.59,
supra). And while Defendants Harrell and Vertin now attempt
to argue that they would have had probable cause to arrest
Teresa Hooks for obstruction (i.e., O.C.G.A. § 16-10-24) because
she purportedly “failed to comply with Defendant Vertin’s orders/

App.100a
Belying any argument that the GBI agents’ search
of the Hooks residence was somehow an extension or
continuation of the Laurens County officers’ search is
the undisputed fact that the GBI agents did not rely
on the search warrant obtained by Laurens County
officers; rather, the GBI agents sought-and were
granted on September 25, 2014 at 1:52 a.m.-their own
search warrant for the premises based on their belief
that probable cause existed to believe the residence
contained “evidence of violations of Aggravated Assault
on a Police Officer O.C.G.A. [§] 16-5-21(c)” (i.e., the
officer-involved shooting of David Hooks). (See Doc.
No. 87-1, at 6-9.) Indeed, in identifying the scope of
evidence or contraband sought to be located on the
Hooks premises, the search warrant obtained by GBI
originally made no mention of controlled substances;
rather, it was not until GBI agents sought the addendum to their own search warrant on September 26,
2014 that they began to search for methamphetamine
or other controlled substances. (Compare id. at 6-9;
with id. at 10 (“The GBI CSS began executing the
search warrant issued to [Special Agent] Giddens on
September 25, 2014. The residence has been secured
by law enforcement agencies since that time; however,
GBI agents have not conducted a search for methamphetamine and paraphernalia.”).) Moreover, in this
addendum, the attesting agent specifically states that
“Laurens County Sheriff’s Office personnel have not
executed a search of the residence, vehicles and outside
buildings located within the curtilage for methamphetrequests” (doc. no. 78-1, at 15), reaching such a conclusion would
require the Court to weigh the evidence and resolve a genuine
dispute of material fact—which is wholly inappropriate at
summary judgment. See Tolan, 134 S. Ct. at 1866.

App.101a
amine and paraphernalia as authorized by the September 24, 2014 drug search warrant.” (Id. at 10 (emphasis
added).)
In sum, viewing the facts in the light most favorable to Plaintiff and drawing all reasonable inferences
in her favor, a reasonable factfinder could conclude
that Defendants Harrell and Vertin improperly took
it upon themselves to treat the original search warrant
for the Hooks premises and its occupants as an arrest
warrant for Plaintiff or otherwise chose to detain her
without probable cause or valid exception thereto (or
at the very least expanded her detention past the
clearly-established boundaries of such exception). See
Muehler v. Mena, 544 U.S. 93, 101 (2005) (“[A] lawful
seizure can become unlawful if it is prolonged beyond
the time reasonably required to complete that mission.”
(internal quotations and citations omitted)). Indeed,
no reasonable officer could have concluded that there
was a justifiable benefit to detaining Plaintiff because
the premises were secured, she was not a suspect, and
she was readily available for interview at any subsequent point. See Mincey v. Arizona, 437 U.S. 385, 393
(1978) (“[T]he mere fact that law enforcement may be
made more efficient can never by itself justify disregard of the Fourth Amendment.”). Moreover, the law
was clearly-established at the time of this detention
that: (i) the general rule is that-absent an established
exception thereto-probable cause is required to seize
an individual “even if no formal arrest is made;” and
(ii) the “temporary detention during search pursuant
to search warrant” exception only applies “while a
proper search is conducted.” See Summers, 452 U.S.
at 696, 705 (citations omitted); see also Mena, 544

App.102a
U.S. at 101; Croom, 645 F.3d at 1247; Prevo, 435 F.3d
at 1345.
Accordingly, viewing the facts in the light most
favorable to the non-moving party and drawing all
reasonable inferences in her favor, Defendants Harrell
and Vertin’s detention of Plaintiff was not objectively
reasonable because no reasonable officer could believe
their actions were appropriate in the absence of probable cause or an established exception thereto. See
Croom, 645 F.3d at 1249. Therefore, summary judgment is not appropriate on this issue.
IV. Conclusion
Even under the rigorous standards imposed by
qualified immunity, the Court concludes that Defendants are not now entitled to judgment as a matter of
law. The record, viewed in the light most favorable to
Plaintiff, establishes genuine disputes of material
fact that preclude the protection of qualified immunity.
These disputed facts include, but are not necessarily
limited to the knowledge, actions, and intent of Defendants at the time they sought and executed the search
warrant for the Hooks residence and the facts and
circumstances attendant to Teresa Hooks’ detention.
These issues of fact and inference turn on credibility:
obviously, the credibility of Rodney Garrett is important, but the credibility of Defendants Brewer, Harrell
and Vertin are also under scrutiny here. Credibility
determinations are particularly within the province of
the jury. If there ever was a case before me involving
an assertion of qualified immunity that demanded a
trial by jury, this is it.
Moreover, at this pivotal summary judgment
phase of the case, it is appropriate to emphasize that

App.103a
the Court makes no factual findings but accepts the
facts plead by Plaintiff, all reasonable inferences
therefrom being drawn in favor of Plaintiff, who opposes the defense motions. The Court will not attempt
to chronicle or catalogue the reasonable inferences
which may flow from facts plead. Suffice it to say
that a jury may find many more than those which
presently occur to the presiding judge. For example,
while the Court has confined its examination of the
conduct of Sheriff Harrell and Sergeant Brewer to
the moment of their submission of the search warrant
application to the Magistrate, reasonable jurors may
attach critical importance to the animus of Sheriff
Harrell in gratuitously publishing false statements
of DNA evidence purporting to link David Hooks to
the methamphetamine found in possession of Rodney
Garrett. (See Harrell Dep. at 149-52.) This single example may manifest itself inferentially in manifold
ways. Suffice it to say that reasonable inferences from
Plaintiff’s factual allegations abound, belying the
protestations of simplicity proffered by the defense
under the rubric of qualified immunity. Facially, this
case is one where, on the defense side perhaps a
dozen eye witnesses are available and may testify.
On Plaintiff’s side, there were but two, one dead and
one survivor, who was sequestered shortly after the
shooting of her husband. Reasonable inferences drawn
from all the facts established by the evidence in the
case have at least the potential to overcome the
apparent disparity in eye witness testimony. Inferences
therefore are also of critical importance. Under the
circumstances, it is all the more appropriate that
this case, the facts which may be developed by the
evidence adduced at trial, and all reasonable inferences

App.104a
flowing therefrom, should be subjected to scrutiny
under the bright and revealing light of a jury trial.
Upon the foregoing and due consideration, the
Court concludes that Defendants are not entitled to
summary judgment on Plaintiff’s claims. Accordingly,
Defendants’ respective motions for summary judgment
(doc. nos. 75, 77, 78) are DENIED.62
ORDER ENTERED at Augusta, Georgia, this 29th
day of January, 2018.
/s/ Dudley Hollingsworth Bowen Jr.
United States District Judge

62 Plaintiff and Defendants have also filed motions to exclude
the proposed testimony of the parties’ respective expert witnesses.
(See Doc. Nos. 73, 74.) These motions remain pending before
the Court and will be addressed in subsequent separate orders.

App.105a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
DENYING PETITION FOR REHEARING EN BANC
(SEPTEMBER 1, 2020)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
TERESA POPE HOOKS, Individually,
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs-Appellees,
v.
CHRISTOPHER BREWER, in His Individual
Capacity, STEVE VERTIN, in His Individual
Capacity, WILLIAM HARRELL, “Bill”,
in His Individual Capacity,

Defendants-Appellants,
RANDALL DELOACH, in His Individual Capacity,

Defendant.
________________________
No. 18-10628-JJ
Appeal from the United States District Court
for the Southern District of Georgia

App.106a
Before: JORDAN, GRANT, and
SILER, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED,
no judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Panel Rehearing is
also denied. (FRAP 40)

 Honorable Eugene E. Siler, Jr., United States Circuit Judge
for the Sixth Circuit, sitting by designation.

App.107a
CASE SUMMARY SUBMITTED BY LAURENS
COUNTY SHERRIFF’S DEPARTMENT
(JANUARY 27, 2015)
INVESTIGATIVE REPORT DISTRICT ATTORNEY’S PACKET
Submitted By: Sgt. Robbie Toney
Laurens County Sheriff’s Department
________________________
Defendant: Rodney Jason Garrett (Adult)
Victim: David Hooks (Adult)
LSCO Case #: 14-31855
Charge #1:
Burglary 2nd Degree
O.C.GA 16.7-1
Charge #2:
Burglary 2nd Degree (Entering Auto)
O.C.G.A. 16-7-1
Charge #3
Burglary 2nd Degree (Entering Auto)
O.C.G.A. 16-7-1
Restitution
•

YES

Restitution owed to: David Hooks
Statement made by defendant?
•

YES

Brief case synopsis:
See Investigative Narrative

App.108a
Has a GCIC check been run on the defendant by any
law enforcement agency?
•

YES

CASE SUMMARY

Case #14-31855
Sgt Robbie Toney
David Hooks
On September 23, 2014 around 1400 hours David
Hooks contacted me, Sgt Robbie Toney, at the Laurens
County Sheriff’s Office to report that someone had
entered a shop at his residence located at 1184 Highway 319 North, East Dublin, Georgia. Hooks stated
that he had several guns stolen from the shop, that both
his vehicle and his wife’s vehicle had been entered
and money and guns taken, and a Lincoln Aviator
that he had was also taken. I asked Hooks for the
VIN on the Aviator so I could get it entered and that
while doing that I would have a Deputy meet him at
the house to start a report. Hooks then gave me the
VIN of 5LMEU88H6ZJ1-3-092. I told him that VIN’s
do not contain dashes and I told him that I would
run the VIN he gave me without the dashes to see if
it was the correct VIN. I went to the GCIC room at
the Sheriff’s Office and the VIN was run and came
back no record. I called Hooks back and he then gave
me the VIN of 5LMEU88H64ZJ13092. This was the
same VIN he gave previously but with the new character. I went back to GCIC and ran the VIN and it came
back registered to Richard Jefferys on a 2004 Lincoln

App.109a
Aviator. This is the correct VIN and was entered into
GCIC as being a stolen vehicle.
After entering the Aviator into GCIC I went to the
residence of Mr. Hooks. Upon arrival I met Deputy
Brian Fountain who responded to the call and Mr.
Hooks. Hooks stated to me that he woke earlier this
morning to leave to go to work and when he got into
his truck the keys were not in the ignition. Thinking
that he left them in the house he went to get them
and could not find them. He then went back to his
truck and found the keys on the floor board. He then
saw that the Aviator was missing and told his wife to
check her vehicle. At that point they found that they
had been entered because his wife was missing some
cash from the vehicle and a pistol. He then looked
around in the shop and saw that ammunition boxes
he has on a shelf was open and that a cabinet full of
more ammunition was pulled out and lying on the
floor. He said that a gun safe he has in the shop was
also open and several firearms were missing. He said
that the lock on the gun safe is broken and was not
locked but that the door was closed. Hooks said that
after finding the items missing he left to go to work
and that his wife had also gone to work. When he
returned this afternoon around 200 PM he contacted
me at the Sheriff’s Office to report the theft.
Once Hooks had shown me where the items were
located that had been taken I began to process the
items to try and collect latent prints. I dusted the
gun safe using fingerprint powder and attempted to
recover a latent print but upon lifting the print found
it to only be a smudge. I also attempted to dust a
small plastic tote containing ammunition boxes but
was again unable to find a usable latent print. Hooks

App.110a
had also stated that a cabinet located behind the door
of the shop had also been entered and I attempted to
dust it for fingerprints but due to the makeup of the
cabinet was unable to find a usable latent print. Due
to Hooks leaving for work after finding the theft and
reporting it later I did not attempt to process the
truck. This was because any latent prints found on
the outside of the vehicle or around the drivers area
of the truck would have been contaminated or covered
by Hooks getting in and out of the vehicle during the
time he was gone. After processing the scene I asked
Hooks if he had any ideas who may have done this
and he said that it may have been an employee or
former employee of his that knows the area due to
his residence being located so far off the main highway.
Hooks also stated that he would try and find any
serial numbers he could for the stolen guns and give
them to me as he finds them. I told Hooks that in the
mean time the Aviator was entered into GCIC so if it
was run by any law enforcement that it would come
back stolen and that I would notify the pawn shops
to be on the lookout for the firearms and other items
that were stolen.
On September 24, 2014 I called Hooks on his cell
phone but got his voicemail. I left a message for him
to call me back requesting a list of his employees so that
I could possibly obtain a suspect using that information. After leaving the message Sgt Steven Cox and I
went to the residence of Hooks and attempted to make
contact in person but upon arrival found no one at
home.
This same date after normal working hours I
was contacted by Sgt Lance Padgett. He contacted
me around 1900 hours to report that the Aviator had

App.111a
been located and he would contact me later with more
information. Around 2000 hours Padgett called me
back, saying that Rodney Garrett had turned himself
in saying that he had taken the Aviator and two guns
from a house on Highway 319. Padgett also told me
that Garrett reported that a bunch of meth was taken
from the truck but that he didn’t know it was drugs
until he stopped later to put gas in the Aviator. Padgett
told me that the interview with Garrett was recorded
and that Garrett was in custody for a warrant that
Sgt Gerald Frazier had on an unrelated case involving
Garrett. Padgett told me that one of the guns that was
taken from Hook’s was not reported. Garrett also
said that those were the only two guns that he took
and he also stated that he did not take any of the
other property that was reported stolen.
On September 26, 2014 I obtained a warrant for
Burglary 2nd Degree against Rodney Garrett for the
burglary of Hook’s shop. At this time none of the other
property taken from Hook’s shop has been recovered.
Property that was recovered from Garrett for the
unrelated warrant does not match any taken from
Hooks. Investigators will continue to try and locate any
and all property taken from Hook’s shop. The items
belonging to Hooks that was recovered are being kept
in the Evidence room of the Laurens County Sherriff’s
and also the Aviator is being held at the impound lot
of the Sherriff’s Office.
On or about October 3, 2014 Bryant Hines came
to the Sheriff’s Office to speak to me about a four
wheeler that had been reported stolen by Hooks in
August and also the Aviator that was stolen. Hines
stated that the four wheeler, which is a green in color
Arctic Cat, belonged to him and that the Aviator

App.112a
belonged to Dublin Auto Sales and they had asked
him to come and get the car. Hines had brought with
him a UCC Financing Statement from Wheeler County
State Bank dba Atlantic State Bank. The statement
showed Hines as being the debtor and also had the
Arctic Cat listed as the collateral. Hines also had a
copy of the title to the Aviator. This title showed the
vehicle owner as being Richard Jefferys but on the
back showed as the 1st and 2nd Dealers Assignment
as being Dublin Auto Sales with the date of 09-08-14.
I told Hines that none of the vehicles could be released
yet due to the ongoing investigation.
Due to the statement by Hines stating that the
four wheeler belongs to him and the Aviator belongs
to Dublin Auto Sales I am going to file a OCGA 17-5-50
with the Laurens County Magistrate Court so that
the rightful owners of the property can be identified.
On October 11, 2014 around 1330 hours Deputy
Kasey Loyd called me on the cell phone to let me know
that he had recovered some property from a location
that is associated with Rodney Garrett. Deputy Loyd
stated that he went to a residence on Wilkes Road and
recovered a 12 gauge bolt action shotgun, a 4 HP Honda
water pump, a Skilsaw, and a jewelry box containing
several watches. I advised Loyd to put the items in
evidence and I would check on it Monday morning.
On October 13, 2014 I had Sherry Mangum, Evidence Tech at the Sheriff’s Office remove the property
Deputy Loyd called me about from the Evidence drop
box. The items are a JC Higgins 12 guage bolt action
shot gun with no serial number, a red in color Skilsaw,
a 4 HP Honda water pump, a brown wooden jewelry
box containing four watches, and a red 12 gauge shotgun shell. The JC Higgins shotgun recovered matches

App.113a
a shotgun reported stolen by David Hooks. The location where the property was recovered belongs to
Lenwood Lord. Lord reported to the Sheriff’s Office
that when he went to check his property located at
623 Wilkes Road, Glenwood, Georgia he found the
shotgun in a closet. He then contacted the Sheriff’s
Office and Deputy Loyd found the other property that
Lord stated should not have been there. Lord told
Deputy Loyd that Rodney Garrett is his nephew and
had access to the property.
All property recovered was documented on
Property Receipt 16486 by Loyd and turned over to
the Laurens County Sheriff’s Office Evidence room.
On this same date of October 13, 2014 around
1350 hours I interviewed Rodney Garrett about the
recovered property and to also see if I could obtain
the location of the remaining items. After waiving
his Miranda warnings he stated that he could not
remember where he had the remaining items. When
I asked if he had been to his Uncle’s house on Wilkes
Road and left anything there he said that he could
not remember. I then showed him photographs of the
items recovered and he said that he must have gone
there but still could not remember. I asked about the
jewelry box containing the watches and he stated
that they were his and that the pocket watch and a
Citizens watch shown were gifts. I asked if he could
remember going anywhere else and he said that the
only place he really knew he went to was the woods
where he had been sleeping. I asked if there was a
possibility of the other items being in the woods he
replied that it could be because he went to his Uncle’s
and didn’t remember going. I then asked where he
had been staying in the woods and he said near Five

App.114a
Points. He said that it would be better to show me
than tell me how to get there. I told him that I would
have to check with my Superiors and that it was
something that would have to happen. I gave Garrett
my business card and told him that after I left if
there was anything else that he could remember to
help locate and recover the other property to get with
the jail staff at the facility he is at and tell them to
contact me with the information.

App.115a
SEARCH WARRANT AND AFFIDAVIT BY
INVESTIGATOR CHRIS BREWER
(SEPTEMBER 29, 2014)
IN THE MAGISTRATE COURT OF LAURENS COUNTY
STATE OF GEORGIA
Warrant No. 2014 1735
_____________________________________
To: All Peace Officers of the State of Georgia
Affidavit having been made before me by INV.
Chris Brewer an officer charged with the duty of
enforcing the Criminal Laws, that he has reason to
believe that in Laurens County, Georgia on the following described person, premises, or property:
The residence located at 1184 Highway 319 North,
Laurens County, Georgia. The residence of David
Nelson Hooks. To include all other vehicles, all
other persons, and outside buildings located on
the entire curtilage.
There is now located certain instruments, articles,
person(s), or things, namely:
Controlled substances in particular methamphetamine. Paraphernalia necessary for manufacturing,
packaging, cutting, weighing, and/or distributing
controlled substances. Currency of the United
States obtained, connected with and/or possessed
to facilitate the financing of illicit drug trafficking.
Which is a Violation of the Georgia Controlled Substances Act (O.C.G.A. 16-13-30)
Based upon the affidavit given under oath or
affirmation and all other evidence given to me under

App.116a
oath or affirmation, I am satisfied that there is probable
cause to believe that a crime is being committed or
has been committed and that the property described
above is presently located on the person, premises, or
property described above.
You are hereby commanded to enter, search and
seize within ten (10) days of this date, the person,
premises, or property described above. A copy of this
Warrant is to be left with the person searched, of if
no person is available, on the premises or vehicle
searched, and a written return, including an inventory
of any things seized, shall be made before me or a
Court of competent jurisdiction without unnecessary
delay after the execution of this Search Warrant.
SO ORDERED this 24th day of September, 2014
at 9:56 p.m.
/s/ Faith Snell
Judge of the Magistrate Court
Laurens County

App.117a
RETURN OF SERVICE
I executed this Search Warrant on the 24th day
of Sept, 2014, at 10:55 P.M. and searched the person,
premises or property described in the warrant.
A copy of this warrant: Was left in the following
conspicuous place: island in kitchen because no one
was available to be given this warrant.
Attached hereto is an inventory consisting of 0
pages, of the instruments, articles or things which
were seized pursuant to this Search Warrant. This
inventory was made in the presence _____ of and I
swear (affirm) that this inventory is a true and
detailed account of all instruments, articles or things
seized pursuant to this Search Warrant.
/s/ Chris Brewer
Affiant
Investigator
Title
Sworn and subscribed to before me this 29 day
of September, 2014
/s/ Faith Snell
Judge of the Magistrate Court
Laurens County

App.118a
AFFIDAVIT AND APPLICATION
FOR A SEARCH WARRANT
IN THE MAGISTRATE COURT OF LAURENS COUNTY
STATE OF GEORGIA
Docket No. 2014-1735
_____________________________________
The undersigned Inv. Chris Brewer being duly
sworn, deposes and says: I am an officer of the State
of Georgia or its political subdivisions charged with
the duty of enforcing the criminal laws, and that I
have reason to believe that in Laurens County, Georgia
on the person, premises, or property described as
follows:
The residence located at 1184 Highway 319 North,
Laurens County, Georgia. The residence of David
Nelson Hooks. To include all other vehicles, all
other persons, and outside buildings located on
the entire curtilage.
There is now located certain instruments, articles,
person(s), or things, namely:
Controlled substances in particular methamphetamine. Paraphernalia necessary for manufacturing,
packaging, cutting, weighing, and/or distributing
controlled substances. Currency of the United
States obtained, connected with and/or possessed
to facilitate the financing of illicit drug trafficking.
Which is a Violation of the Georgia Controlled Substances Act (O.C.G.A. 16-13-30)
The facts tending to establish probable cause that
a crime has been, or is being committed and the above
described instruments, articles or things described

App.119a
above are presently located at the above described
premises or property are as follows:
AFFIANT has been employed in law enforcement
since 1991.
AFFIANT is presently employed with the Laurens
County Sheriff’s Office Drug Unit as an investigator and has been employed as such since April of
1999. During this time AFFIANT has conducted,
assisted or been the lead agent on more than 1000
drug investigations for violations of the Georgia
controlled substances act including cocaine, marijuana, methamphetamine, and prescription drugs
along with other substances. AFFIANT also made
many other narcotic related arrests during its
career prior to joining the drug unit.
AFFIANT has received advanced training in controlled substance investigations both on a state and
federal level. Topics have included confidential
informants, drug identification, prescription drug
investigations, indoor marijuana grow operations,
street level drug interdiction, field sobriety testing
for persons under the influence of narcotics, search
and seizure for narcotic investigations, interviews
and interrogations, drug trends, physical and
electronic surveillance, gang activity with drugs,
field testing drugs, “crack” cocaine manufacturing,
various types of methamphetamine manufacturing process’s, symptoms of drug abuse, clandestine
labs, money laundering, and reverse “sting” drug
operations. AFFIANT has also been certified) as
a drug detection canine handler.
AFFIANT has authored and/or executed more than
50 search and seizure warrants resulting in the

App.120a
seizure of large quantities of controlled substances,
drug related paraphernalia, large amounts of U.S.
currencies and other assets of wealth (including
jewelry, electronic goods and real estate), vehicles,
firearms and other weapons, bank records, telephone books, receipts, list of known drug dealers
and other documents and items relating to the
transportation, ordering, purchasing and distribution of controlled substances.
It has been AFFIANT’S experience that items such
as utility bills, phone bills, and rent receipts are
essential in the investigation of narcotics violations in that they tend to establish control and/
or ownership of a residence or business.
AFFIANT is also familiar that drug traffickers
often purchase and /or title assets in fictitious
names, aliases, or in the name of relatives, or
associate in order to avoid detection and seizure
of these assets by governmental agencies even
though the drug traffickers actually own and
continually use these assets and exercise dominion and control over them.
AFFIANT is also familiar that persons dealing
in narcotics often possess firearms to protect themselves and their property.
AFFIANT is also familiar that drug traffickers
often maintain books, records, receipts, notes,
ledgers, airplane and/or bus tickets, car rental
agreements, and other written documents relating
to the transportation, ordering, sale and distribution of controlled substances.
AFFIANT is also familiar that drug dealers commonly maintain addresses and telephone numbers

App.121a
in books or papers which reflect the names,
address’s, and/or the telephone numbers of associates in their drug organization, their source of
narcotics, and their drug customers.
AFFIANT is also familiar that persons dealing
in narcotics often maintain pagers, cellular telephones, and walkie/talkies in order to contact their
customers, their supplier and other persons who
they use as security or lookouts during the course
of them doing business.
It has been AFFIANT’S experience that drug
traffickers frequently take or cause to be taken
photographs or videotapes of themselves, their
associates, their property, their product and large
amounts of currency, and that they usually maintain these photographs and video tapes in their
possession.
AFFIANT is also familiar that persons who deal
in narcotics will often “front” drugs to buyers
and that they keep records of these transactions
in order to keep track of who owes what. These
records are commonly referred to as “totes” or
“ledgers” and will often be found in the residence
of the dealer. Records of this nature are important to the investigation in that they tend to show
the intent of the dealer to possess and/or distribute
narcotics.
AFFIANT has also found that it is common for
persons dealing in narcotics to keep items such
as scales, plastic baggies, cigarette rolling papers,
“pipes” used to smoke narcotics, and other drug
paraphernalia and that these items are essential
in the investigation of drug violations in that

App.122a
they tend to establish the intent to possess and/
or distribute narcotics.
It has also been AFFIANT’S experience that drug
traffickers often maintain amounts of currency
that are the proceeds from drug transactions
and which are used to maintain and finance future
drug transactions.
Within the past 6 hours your Affiant spoke with
Rodney Garrett after Garrett had waived his
Miranda rights in writing. Garrett was in custody
for burglary and theft of a motor vehicle as well
as other offenses. Garrett had been taken into
custody after turning himself into Sgt. Ryan
Brooks of the Laurens County Sheriff Office and
reporting some of his crimes to Sgt. Brooks.
Your affiant responded to the location where
Brooks had met with Garrett where your affiant
recovered approximately 20 grams of suspected
methamphetamine, a digital scale, two firearms,
and a Lincoln Aviator which Garrett stated he
had taken from 1184 Highway 319 North, which
is within the confines of Laurens County, Georgia.
During the interview Garrett stated that during
the previous night he had traveled to the residence
at 1184 Highway 319 North with the intentions
of committing a theft. Garrett stated that he
entered the interior of a pickup truck which was
parked under the carport of the residence and
removed a “neoprene” bag and a digital scale
from the center console of the vehicle. Garrett
stated that he believed the bag contain currency
at the time he removed it from the vehicle.
Garrett stated that after taking a Lincoln Aviator
which was also parked at the residence and

App.123a
traveling into the city of Dublin he discovered
the bag contained a large amount of suspected
methamphetamine. Garrett stated that he then
became scared for his safety and placed the bag
and scale into a locked box which they had been
recovered from by your affiant.
Your affiant is familiar with the residence and
the occupant of the residence, David Hooks, from a
prior narcotics investigation involving Jeff Frazier.
During this investigation Frazier had been interviewed by law enforcement and stated that he had
been the source of supply for multiple ounces of
methamphetamine to Hooks which Hooks was
redistributing.
Garrett also admitted to committing other criminal
offenses in which he was a suspect and provided
other information which led to the recovery of
stolen property which law enforcement was
unaware of prior to this confession.
I swear or affirm that all of the information contained in this Affidavit and all testimony given by me
under oath is true to be best of my knowledge and
belief.
Affiant: /s/ Chris Brewer
Title: Investigator
Sworn to and subscribed to before me this 24th
day of September, 2014, at 9:56P.M.
/s/ Faith Snell
Judge of the Magistrate Court
Laurens Count

App.124a
LAURENS COUNTY SHERIFF DEPARTMENT
RECEIPT FOR PROPERTY
No. 16088
Case No. 14-31866
Name of the person from whom property was obtained
Owner Rodney Garett/David Hooks
Address
1369 Fountain Drive, Dublin, GA 31021
Location where property was obtained
Lincoln Aviator
Date 9-24-14; Time 5:52 pm

Item No.: 1
Quantity: 1
File No.: A1B
Description of Property:
Silver “Lock box” containing Blue “beAed” zippered pouch containing Tanita brand digital scale
model 1479V handtied plastic baggie containing
a handtied bag of a (IBI) crystallized substance
suspected to be methamphetamine.

App.125a
Item No.: 2
Quantity: 1
File No.: A1B
Description of Property
Ruger All-weather 77/22 .22 caliber rifle bearing
serial number 708-21522 with a Tasco 3-9 x 40
scope and magazine containing seven rounds of
ammunition
Item No.: 3
Quantity: 1
File No.: A1B
Description of Property
Shandong 1st Moonine works 12 gauge shotgun
bearing serial number YL 12-134; 04-00911 with
six rounds of ammunition.
Signature
/s/ Chris Brewer
Badge Number 40IN
CHAIN OF CUSTODY
Item No. 1-3
Date: 9-26-14
Relinquished by:

/s/ Chris Brewer

Received by:

/s/ {illegible}

App.126a
AFFIDAVIT OF TERESA POPE HOOKS
RELEVANT EXCERPTS
(JUNE 23, 2017)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually; and
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, in His Individual
Capacity, STEVE VERTIN, in His Individual
Capacity, WILLIAM “BILL” HARRELL, in
His Individual Capacity, and RANDALL DELOACH,
in His Individual Capacity,

Defendants.
________________________
Civil Action File No.: 3:16-CV-00023-DHB-BKE
COMES NOW, before the undersigned officer
authorized to administer oaths, TERESA POPE
HOOKS, who upon being duly sworn states on oath
as follows:
1.
My name is TERESA POPE HOOKS. I am over
the age of eighteen years old and am otherwise compe-

App.127a
tent to make this affidavit. This Affidavit is made
based upon my own personal knowledge.
[...]
6.
David rushed across the foyer into the living room
with his gun down by his side as I followed.
7.
Before David could reach the dining room while
still in the living room, shots were being fired. I
immediately turned and ran back across the foyer
into the master bedroom locking the door behind me.
After I was handcuffed by Vertin and taken outside
my home, I was near the kitchen door and could see
into the kitchen from where I sat. I did not see any
law officers searching inside of my home for the
entire time that I was in handcuffs. I was told that I
could not go back inside of my home. “Crime Scene”
tape was run around the place so no one could go in
or out.
8.
After I left for the hospital in the early morning
hours of Thursday, September 25, 2014, the GBI
sought and received their own search warrant for my
home, property, and vehicles. I was not present at
my home at any time during their search. I received
a copy of the Return of Search Warrant when I was
finally allowed to re-enter my home.
FUTHER AFFIANT SAITH NOT.
/s/ Teresa Pope Hooks

App.128a

Sworn and subscribed before me, This 23rd, day
of June, 2017.
/s/ Candice Lynn Forrest
Notary Public
Dodge County, GA
Comm. Exp 5/26/20

App.129a
DEPOSITION OF BUCK FORTE
RELEVANT EXCERPTS
(APRIL 4, 2017)
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually and
ESTATE of DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants.
________________________
Case No. 3:CV00023-DHB-BKE

[April 4, 2017 Transcript, p. 28]
. . . So did Rusty. They kind of said it at the same
time.
Q

When the door was breached, my understanding
is you would have been the second person
through the door?

A

That’s correct.

Q

There’s an island in the middle of the kitchen.

A

Correct.

App.130a
Q

As you went through the door, which side of the
island did you go on?

A

Okay. As you went through the door, Rusty went
to my immediate right. So if you’re facing
directly in the doorway, he went to the right—

Q

Okay.

A

—and I went to the left side. So he would have
been on the right side of the island and I would
have been over on the left side.

Q

Okay. Did you hear anybody say anything
regarding a gun?

A

Absolutely. Rusty immediately, as we were going
through the door, he and myself were both
yelling, “Sheriff’s office, search warrant.” And
then he yelled, “Gun. Gun. Gun.” And at that time,
I was on the left-hand side. I was clearing that
area for the rest of the guys who were coming in
and when I turned, that’s when I saw the gun.

Q

Did you see a gun laying on the counter?

A

I didn’t until after the fact.

Q

But you know there was a firearm laying—

A

On the island?

Q

—on the island?

A

Yeah. After, after, you know, the—

Q

Okay.

A

—initial incident, I saw the firearm. But, at that
time, the gun that I saw was the one that David
was holding.

Q

Okay.

App.131a
A

Where was David standing?

A

Okay. If you go in the room where the island is,
if you’re facing directly into the foyer to the right
side, there’s some area that I don’t know if it’s a
formal dining room or living room or what but
he appeared from that side to Rusty. And Rusty—
that’s—as he was walking out, that’s when Rusty
saw him with a gun. When Rusty said, “gun,
gun, gun,” I immediately turned around and I
saw the gun too because he, initially, was
looking at Rusty. And then when I came in, he
looked at me and he was pointing the gun
directly at me.

Q

And was he standing in that dining room area at
that point in time?

A

He was like in the doorway of it.

Q

Okay.

A

Like right there at the doorway.

Q

All right. Did you recognize that he didn’t have
any clothes on?

A

Not at the time, I didn’t.

Q

Okay. How would you characterize the lighting
in there?

A

Well, there was light from the foyer. I also had a
flashlight in my hand. I had it palmed so I had
turned the light on and I was focused on the
shotgun.

Q

And did everybody have a light?

A

I want to say yes. Most guys, they carry it on their
pistol. I didn’t have one on my pistol that night.

App.132a
Q

Okay. What happened next?

A

Well, when I turned and I saw David, he had a
gun at what would be considered a low ready. So
he was holding it like this and he was walking
toward me.

MR. BUCKLEY: When he said, like this, he had his
hands at chest high.
A

THE WITNESS: Yeah, chest high. And so I flashed
him with my flashlight and I said, “Drop the gun.
Drop the gun. Drop the gun.” And he kept walking
toward me and he raised it up and he shouldered
it. And once he shouldered it, that’s when we
had to eliminate him because he was a threat at
that time.

Q

So to your knowledge, everybody had their
flashlight shined on David?

A

I don’t recall everybody. I know that I had flashed
mine on him.

Q

Okay.

A

I don’t recall everybody though. I mean, I can’t
speak for anyone else.

Q

And when you went through the door, everyone
was yelling, “Sheriff’s department, search warrant”?

A

I know I was and I heard Rusty say it as well.

Q

And that would have pretty much put everybody
yelling at the same time?

A

Possibly. I could see that.

Q

And it was kind of the same with the gun situation.
Everybody was yelling—

App.133a
A

Well, Rusty said—

Q

—put down the gun at the same time?

A

—gun, gun, gun, and then when I saw it, I
immediately started yelling, “Drop the gun. Drop
the gun.”

Q

All right.

A

I was so focused I don’t know what anybody else
was saying.

Q

Okay. How many times did you fire your weapon?

A

I want to say the GBI said seven. I don’t—like,
when it actually happened, I know I fired a lot.

Q

Did you fire any rounds through the walls?

A

I was aiming toward him so if there was a
ricochet . . .

App.134a
DEPOSITION OF KASEY LOYD
RELEVANT EXCERPTS
(DECEMBER 9, 2016)
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually and
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants.
________________________
Case No. 3: 16CV00023-DHB-BKE

[December 9, 2016 Transcript, P. 40]
Q

Right. I understand.

A

Because I believe they were totally instructing
me that night to knock on the door, wait so
many seconds, knock on the door again and after
the third attempt—and we felt confident that
whoever was in the house had time to get to the
door—then I was would step to the side and
allow them to kick the door in.

App.135a
Q

So were you the person making the decision that
night as to when the door was to be breeched?

A

I ended up making that decision. I knew at the
time that we were there—honestly, I was expecting
contact to be made and everything just to go off,
like, smooth, but I did end up making the decision. I can’t remember if I was the sole one that
would have made that decision. Usually the
team leader in the stack is right there close by.
Once it’s knocked, you know the way they
trained us, once you know knock on the door so
many times and kind of feel really confident,
hey, nobody’s coming to the door, then usually
they’ll say go ahead and hit it. “Hit the door.”
“Go” or whatever they’re going to say to cue you
to move out of the way.

Q

Based on your training, what’s your understanding
of what a reasonable amount of time to wait for
somebody to come to the door is?

A

I believe that night he said somewhere around
five . . .
[...]

Q

And you took a position on the left side of the
door?

A

Yes, sir. That was—I was supposed to be on the
right side of the door. Part of the time I was in
the front of the doorway because I remember at
some point during the standing there I was, like,
this probably isn’t the best idea, you know, just
in case something bad does happen. So I kind of
moved over. I believe it was—I don’t know, it’s
in the report—exactly when I felt that way but

App.136a
yes, I was partially in front of the doorway to the
left side of the door kind of back and forth and
the SRT, the stack team was on my right.
Q

And being to the left side of the door—

A

Uh-huh, (affirmative). Yes, sir.

Q

—versus the right side of the door. Based on the
way the hallway goes down the Hooks’ home, it
would actually make you less visible being on
the left side of the door. Would it not?

MR. BUCKLEY: Object to the form of the question.
A

THE WITNESS: I don’t see how it would.

Q

Okay. You don’t think it would?

A

No, sir.

Q

My understanding is that you knocked and
announced. You said, “Sheriff’s office with a search
warrant.”?

A

Yes, sir.
[...]

Q

—and after the second time, you saw the light
flip on in the foyer?

A

Yes, sir.

Q

Okay. And after that, you saw a woman in a red
shirt at the end of the hall in the foyer?

A

Yes, sir.

Q

And you knew that was Teresa. Right?

A

I believed it to be Teresa. I mean, at the time I
did assume that it was Teresa.

App.137a
Q

When you saw her you didn’t see any weapons in
her hand?

A

I did not.

Q

Okay. And yet at some point in time, she moved
from the foyer into a different room?

A

I’m going to refresh my memory. I know when I
did see her, I looked away and I was in the
process of telling the stack team to, you know,
“Hey, they’re coming to the door. We can stand
down.”

Q

So while you’re looking at it, let me ask you this;
so, you’re having this—

MR. BUCKLEY: Well, let’s let him refresh since he
wants to. He’d asked to refresh in response to
your question.
MR. SHOOK: Okay. That’s fine.
MR. BUCKLEY: I just think it would be more productive.
A

THE WITNESS: Okay. If you’ll repeat your
question so I can remember?

Q

Okay. You knocked and announced,—

A

Yes, sir.

Q

—waited four to five seconds, knocked and
announced again,—

A

Yes, sir.

Q

—and after the second time, you saw the light
come on?

A

Yes, sir.

App.138a
Q

When you saw the light come on, you then saw a
woman in a red shirt down the hall toward what
you knew was the foyer?

A

Yes, sir.

Q

Once you saw her, you turned to the entry team
and you were about to go into a conversation
with them about them coming to the door?

A

Yes, sir. I remember doing that. I looked away.
The only reason I remember vaguely looking
away is because I caught myself and was like,
“That’s not smart. I don’t need to take my eyes
off of what’s in front of me just in case.” But I
did look at them and I said, “Hey,” somewhere
along the lines of, “Hey, I made contact,” you
know. Y’all can stand down. They’re coming to
the door. Something of that nature.

Q

Okay. You never made another knock and
announce?

A

That’s where—I couldn’t remember that night
when I was doing the interview and I read over
this. At some point I do recall after seeing her, I
knocked again. I don’t recall if it was—no, but at
the point after I told them they could stand
down, I never did knock again. Because when I
looked, I saw her and I know that my report
says she stepped off into the last room on the
right. I don’t recall that point now, I’m sure. I
mean, I would not have lied during this interview.
I’m trying to now but I know this. But just
memory sake, I do remember—I don’t remember
if she stayed there or she dipped off in the last
room on the right.

App.139a
I remember looking at them and when I looked
back up, to the best of my knowledge, that’s
when I saw her and David there for a brief amount
of time. And I still was under the impression that
they were coming but this happened so quick.
Q

And the point in time when you saw her and
David, they were in the hallway down toward
the foyer. Correct?

A

Yes, sir.

Q

You did not see any weapons in either David
Hooks’ hands or Teresa Hooks’ hands?

A

I’ve replayed that through my head a million times
and I can’t say that I did. I don’t know if it was
the island was in the way. That would be
speculation. I cannot remember if he did or not.

Q

You never indicated to anybody in the entry team
that you saw any weapons or anything of that
nature?

A

I did not.

COURT REPORTER: Excuse me. You don’t know if
what was in the way?
THE WITNESS: They were in the kitchen—
MR. BUCKLEY: He said the island.
COURT REPORTER: Island. Okay. That’s all. I just
needed that word. Thank you.
Q

MR. SHOOK: At the point in time when you saw
Teresa and David together, you never knocked
and announced again after that?

A

Not that I recall. I think as soon as I saw them, at
that point, they were looking at me. I was looking

App.140a
at them. I mean, I could see them clearly, you
know, in the foyer and I really, I thought they were
coming to the doorway. There was not a part of
me that thought that they were not coming to the
door. And when I looked away from them and
looked back, I saw David. I still thought they
were coming to the door and at some point, he—
the verbiage that I used was, “He dipped off to
the last room on the right.” I remember distinctly saying, “He dipped off in the last room on
the right.”
Q

And that would have been the living room?

A

I guess it is the living room. I still—I’m not sure.

Q

So we’ve knocked and announced twice and that
period of time is a matter of 15 seconds—

A

I can’t put a time on it.

Q

—when the light comes on? And my understanding
is that as opposed to knocking and announcing
repeatedly again, you made the decision to order
the breech?

A

When he dipped off in the last room on the right,
which is common with any, you know, training,
once contact is made and it’s an obvious attempt
of either fleeing, possibly destroying evidence. At
the point when they know the sheriff’s office is
at the door with a search warrant or we feel very
confident that they know, hey, it is the sheriff’s
office at your house. They do have a search warrant. It’s common to go ahead and effect your
search warrant because you don’t want them to
be able to go to: one, barricade themselves into a
room; to arm theirselves (sic); to, you know, me

App.141a
personally, if they destroy evidence on a search
warrant, that’s not my main concern. My main
concern would be the safety aspect of it so I
would be more or less of arming themselves.
So I do remember stepping out of the way. I
remember thinking they need to go ahead and
breech it. I may have said, you know, hit the
door. I don’t know that I did. I . . .
[...]
. . . different than they might have been if you
were at one of those other locations: a crack house,
a gang hideout, somewhere like that?
A

Yes, sir. That is why I believe the knock-andannounce was chosen. That’s why I thought it was
chosen because it wasn’t that type of situation.

Q

Well, the knock-and-announce was chosen but it
really wasn’t carried out. Was it?

MR. BUCKLEY: Object to the form. Argumentative.
Q

MR. SHOOK: You think it was carried out?

A

I do.

Q

You think it was carried out properly?

A

I do.

Q

All right. Once you moved out of the way, the door
was breeched and the entry team starts filing
in?

A

Yes, sir.

Q

And within a matter of literally seconds you heard
gunfire?

A

Yes, sir. It was pretty quick after going in.

App.142a
Q

Now my understanding is that the entry team,
as they were going in, all of them were yelling at
the same time.

A

It is a possibility, yes. Most people, as you cross the
threshold into a house, we would yell, “Sheriff’s
office with a search warrant.”

Q

And that would be some five or six people yelling
it to the top of their lungs?

A

They would have probably announced pretty loudly
and I’m sure that we, that he did. I don’t—that
was one of those times we went in a lot sooner.
It happened so quick even in my interview, like,
immediately after that, I was still not exactly—I
mean, I was sure that it was announced that I
remember. I think I remember even me saying it.
But yes, everybody would have announced it as
they were entering the threshold.

Q

And the way they would have announced it is
they would all be yelling it at the same time?

A

Usually when they cross the threshold. That’s in
the training or how it’s commonly practiced as
you’re going in so there is an offset. But yes, it is
possible that it was yelled at the same time.
(OFF THE RECORD)

Q

MR. SHOOK: Okay. In all the—I think we’ve
already covered the fact that all the entry team
members had on their dark colored tactical
gear?

A

They are green in color. Yes, sir.

Q

And in fact the discussion was made between
you and Stokes that the reason he wanted you in

App.143a
that uniform is he just didn’t want everybody
there with this dark clothing on?
A

Yes, sir.
[...]
. . . person inside the house responded to the effect,
“Give me a minute. I’ve got to get dressed.”?

A

I have.

Q

Did anything in how David Hooks was acting as
he walked towards you suggest that he didn’t
see you?

A

No. I’ve replayed that through my head as well
and I looked straight at him, he looked at me. I
mean, it wasn’t like it was a quick glance and
run into a room. It was, like, hey, you know, I’m
there. I don’t remember if I yelled or if I knocked
at that point. I thought they were coming to the
door and he runned (sic) off but no, he—

Q

Was he close enough by your impression that if
he had said something to you you would have
heard him?

A

Yeah. If he would have said something anywhere
near—like, loud enough or—since we’re on opposite
sides of the room, if I spoke in a proper voice did
I think he would hear me? Yes, he could have
easily heard me. There was no other noise
around me at the time. Everybody was quiet.

Q

So what if anything would have prevented you
from hearing him if he said hey, I’ve got to get
some clothes on? I’ll be right there.

A

I don’t think anything would have prevented it.

App.144a
Q

Was there anything in his conduct that suggested
he was just stepping out to put on some pants or
something?
[...]

App.145a
DEPOSITION OF RODNEY GARRETT
RELEVANT EXCERPTS
(DECEMBER 1, 2016)
IN THE MATTER OF:
HOOKS,
v.
BREWER
________________________
Case No. 3: 16CV00023-DHB-BKE

[December 1, 2016 Transcript, P. 39]
A.

Em-hmm.

Q.

And tell me how—what you did when you went
in the Chevrolet truck.

A.

Opened the door, got up in the seat and popped the
center console and found a neoprene bag. There
was probably 15, $20 cash just kind of wadded
up. I folded it up, grabbed it—

Q.

Okay.

A.

—and I went to get out and that’s when I noticed
the scales, there was a set of scales there.

Q.

Okay. Where were the scales sitting?

A.

They were in the bottom of the console.

Q.

Okay.

App.146a
A.

They had some papers and stuff like that laying on
top of them. They wasn’t visible when you first
opened the—the hatch of the console—

Q.

Right.

A.

But upon digging I found them—I seen them,
picked it up.

Q.

Okay. You—you picked up the set of scales and
took them with you?

A.

Set of scales, yes, sir, and a neoprene bag.

Q.

Okay. And you didn’t open the neoprene bag?

App.147a
DEPOSITION OF BRANDON FAIRCLOTH
RELEVANT EXCERPTS
(OCTOBER 10, 2016)
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually and
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants.
________________________
Case No. 3:16CV00023-DHB-BKE

[October 10, 2016 Transcript, p. 26]
. . . all this has come up. And like, you know, we’re
trying to get the documents for you and all.
Beyond that, I don’t have a clear recollection but
Lord knows, thousands of cases that, you know,
so.
Q.

Did this other information regarding Jeff Frazier
that Chris Brewer was telling you about, did he
ever tell you when that information was received?

App.148a
A.

I don’t think he ever told me any specific time. I
got the impression, which again, this is my best
recollection, but that it was sometime in the past.
It was not something that was super recent. I’ll
put it this way. I didn’t get the impression that he
was traveling on this information—this Jeff
Frazier information as a basis for, for lack of a
better term, non-staleness in terms of search
warrant issues.
You know, the stuff that you have with the other
guy who’s broken into the car, this Garrett guy,
that was supposed to have happened within the
last, you know, day or so or, you know, the last
few hours. Whatever the timeline was—the last
couple of days.
This other stuff, I don’t recall him specifically
saying, you know, when it happened. But I got
the impression that it had happened at some
time in the past. It wasn’t something super recent.
And I never got the impression that that was their
primary basis for asking for a search warrant.
[...]
. . . phone, whether they were just identifying
themselves at the start of the conversation or if
they interjected stuff, regardless, I’d say it was a
fairly informal conversation where there was back
and forth. And so, no, it wasn’t something where
I was just listening to information and then said,
“I think they will give you, you know, a warrant.”
It’s a interplay back and forth as what he was
telling me developed.

App.149a
Q.

Okay. Now, you’ve pointed out the law enforcement
is not required to run it by you before they make
application—

A.

Oh, no. I would say the vast majority of the times,
given the amount of warrants that are taken,
being arrest or search warrants, they don’t. But
still, you’re going to have a number of agencies
and a number of officers and a number of cases
where they do. It’s a frequent thing but certainly,
you know, it’s probably in the grand scheme of
things, a small percentage of what they’re doing
overall.

Q.

And your sense, in terms of the reason for the
inquiry with you, would you—was your sense
that it was a good faith effort to make sure they
had adequate information?

A.

Oh, yeah. And I think they definitely, they were
trying to make sure that when they went to the
Magistrate Court, that they were going to have
enough to get a sufficient warrant. And, you know,
it’s not that they are . . .
[...]

App.150a
DEPOSITION OF ROBERT TONEY
RELEVANT EXCERPTS
(SEPTEMBER 12, 2016)
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually and
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants.
________________________
Case No. 3:16CV00023-DHB-BKE

[September 12, 2016 Transcript, p. 23]
Q.

Okay. After you tried to obtain prints if you could,
talk to Mr. Hooks, you then returned to your
office?

A.

No, sir. It was 5:00 o’clock at that point. There
was really nothing else that I could do. I had
already entered the stolen vehicle in the GCIC.
So I told him I would get back with him the next
morning to do some follow up because he had

App.151a
mentioned quite possibly it might be a disgruntled
employee.
Q.

Uh-huh, (affirmative).

A.

—I told him I would follow up with him the next
morning. So when I left I went home at that
point.

Q.

Did you end up compiling a list of what Mr. Hooks
reported as having been taken?

A.

What he reported to us that day was listed on
the incident report.

Q.

Okay. On the 24th, just noting from your report,
September 24th, you spoke to Mr. Hooks again
by way of cell phone? You called him on his cell?

A.

I called him and I left a voicemail because he did
not answer.

Q.

Okay. And did—what were you trying to learn
from him by calling him back?

A.

I was wanting to see if I could generate a suspect
list from him.

Q.

Uh-huh, (affirmative).

A.

If he had any ideas or anybody I could talk to
that may have been involved with this. I even
left on his voicemail that I was wanting to try to
find out about any employees that he may have
let go or if any that worked with him that wasn’t
(sic) happy with him.

Q.

Did you check with any of the pawn shops?

A.

I did.

App.152a
Q.

And what’s the—what is it that you can find out
by checking with pawn shops?

A.

Well, the list of property that I have, we just go
around to all the pawn shops and say has anybody brought in anything like this.

Q.

Uh-huh, (affirmative).

A.

And if they do, then we get a copy of the pawn
ticket to see who it is. If it’s a firearm, then we’ll
get the serial number off of it and do a ATF
trace on it to see who it come (sic) back to. And
basically there’s a lot we can do from checking
pawn shop PTs.

Q.

Are the pawn shop owners required to report the
weapons that are turned in to them or that they
purchase?

A.

Yes, sir. If they do a pawn or if they buy a
firearm from an individual, they have to do a
pawn sheet. They have to list the person that
carries it to sell or to pawn. They have to get a
copy of a driver’s license or some kind of photo
I.D. showing their date of birth, their Social . . .
[...]

App.153a
DEPOSITION OF RYAN BROOKS
RELEVANT EXCERPTS
(SEPTEMBER 12, 2016)
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually and
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants.
________________________
Case No. 3:16CV00023-DHB-BKE

[September 12, 2016 Transcript, p. 30]
Q

Okay. Between the 21st and the 24th, do you
recall any other steps that you might have taken
to investigate—did you have anything else to do
that dealt with Garrett?

A

No, sir. I was off until the next incident happened.

Q

So on the 24th tell us what happens on that day.

A

On the 24th I was working night shifts and I
was still at home in the bed. I received a phone

App.154a
call from Ms. Beverly Garrett, which is Rodney’s
mother. She told me that Mr. Monty was having
issues with his blood pressure and was hurting
in his chest and asked me if I would come over
and help her. I asked her if she had called 911
and she said, no, that she didn’t know anybody
else to call, that he wouldn’t listen to nobody
(sic) and wouldn’t go to the doctor and asked me
if I would just get over there.
I get up and put on my uniform shirt and pants
because I didn’t know if I would have time to
come back home to fully get ready. So I just
threw my shirt and pants on and my boots and I
run out and leave and go to their house.
When I get there she’s standing in the backyard
and I said, “Where’s Mr. Monty?”
She said, “He’s on the back porch.”
So we walked up to the porch. It’s a screened in
porch and I asked him if he was okay and he
said that he would be in just a few minutes. I
said, “Well, whatcha mean by that?” . . .
[...]
A.

Yes, sir. He said there was another gun, possibly
like a SKS rifle. He said he didn’t need anything
like that, but he just needed to shoot deer with
and that he was going to take the deer that he
killed and sell them in Dublin.

Q.

Right. As of the—as of your first talking with
Garrett about where he had gotten the car and
the theft, were you yet aware of the report from
David Hooks that his house had been robbed

App.155a
and, you know, things had been taken from his
property?
A.

No, sir.

Q.

The vehicle that you were shown by Garrett,
that’s the Aviator?

A.

Yes, sir.

Q.

And you located the VIN number on it?

A.

Yes, sir.

Q.

And called it in?

A.

Yes, sir.

Q.

And what happened when you called it in?

A.

I don’t remember if it came back stolen over the
911 or not.

Q.

Okay. Let’s see. Let me direct your attention to
this second bracketed paragraph there. In your
report I believe that you wrote that “He told me
stole the vehicle from the Wrightsville Highway,
a random vehicle, identification number with 911
came back stolen”?

A.

Yes, sir.

Q.

And that’s indeed what happened?

A.

Yes, sir.

Q.

Then after that point in time you had contact
with Mr. Frazier again?

A.

Yes, sir.

Q.

And eventually y’all set up contact with Sergeant
Brewer and Corporal Burris?

A.

Yes, sir.

App.156a
MR. BUCKLEY: Can we make clear, you said Mr.
Frazier? There’s a Mr. Frazier in this case. This
was Sergeant Frazier, I believe.
MR. SPEARS: Absolutely. There’s a Sergeant Frazier.
There’s Jeff Fraser.
MR. BUCKLEY: Who is not a police officer.
MR. SPEARS: Who is not a police officer, right.
Q.

MR. SPEARS: There is a sentence, let me direct
your attention to it. See where it says, “Rodney
said he went to his mother,” etcetera, “and then
decided to turn himself in. Sergeant Frazier
called me back and I told him about the drugs,
scales, and guns.” Do you see that?

A.

Yes, sir.

Q.

As of this point, that is to say when you were
having this initial contact with Sergeant Frazier,
you’ve seen the Aviator, and you’ve checked the
VIN number. My . . .
[...]

Q.

In the third line from the top it’s indicated by
the officer who’s speaking with you that the key
was subsequently located and the box opened.
Do you recall having told the GBI officer that?

A.

No, sir.

Q.

At some point as you’re there, still there at the
property, the Garrett property, am I correct in
understanding that you asked Rodney Garrett
about a four wheeler that he had been riding?

A.

Yes, sir.

App.157a
Q.

And tell me, when you asked him that, did you
have some suspicion that maybe it wasn’t his?

A.

I don’t know. He was in a stolen truck so I didn’t
know. No.

Q.

Understanding that you didn’t know one way or
another, did you wondered possibly if it was
stolen?

A.

Yes, sir.

Q.

And what did you learn from Rodney Garrett
about the four wheeler?

A.

I can’t remember what he told me about it. He
told me where it was at and we went to the
location.

Q.

I’m looking at some—I think it’s this long paragraph that starts with “We left the location.” Do
you see that?

A.

Yes, sir. That’s where he told me it was located
or where it was at the time.

Q.

And you’re—at this point you’re accompanied by
Sergeant Brewer and Corporal Burris, correct?

A.

Yes, sir. They’re in the vehicle behind me.

Q.

And I take it Rodney Garrett is in the vehicle
that you’re operating?

A.

Yes, sir.

Q.

And you drove out to Greg Couey—is it Couey?

A.

Yes, sir. Greg Couey.

Q.

C-O-U-E-Y. And what happened there?

A.

We got him out of the car, Rod, and he walked us
down in the woods and showed us where the four

App.158a
wheeler was at. The four wheeler wouldn’t crank
and it was really thick in there with briars. I mean,
it wasn’t any way—it was down in, like, a creek
bottom and there wasn’t any way we could push
it out.
Sergeant Brewer called Captain Wright and told
him about it and Captain Wright said to leave it
there and that he would deal with it.
Q.

What position did Captain Wright have? Why
would—what’s your understanding of why that
contact or that—

A.

He’s the Captain over investigations.

Q.

Okay. For that shift or in general?

A.

In general.

Q.

And the—I take it that given that you had . . .
[...]

App.159a
DEPOSITION OF STEVE VERTIN
RELEVANT EXCERPTS
(SEPTEMBER 12, 2016)
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually and
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants.
________________________
Case No. 3:16CV00023-DHB-BKE

[September 12, 2016 Transcript, p. 18]
A.

I’m proud of it.

Q.

Who was doing—in your mind, who was putting
together this plan?

A.

All I can tell you is who I got briefed by. I got
briefed by Stokes and then the drug unit did
their part of the brief, which was not about tactics.

Q.

Okay. Did anyone bring up the fact that Mr.
Hooks’ home had been burglarized a couple of
nights earlier?

App.160a
MR. BUCKLEY: Object to form.
A.

THE WITNESS: To my understanding his home
had not been burglarized. It was a building on
the property or something.

Q.

Okay. But there had been a burglary on his
property?

A.

Yeah.

Q.

Was anything mentioned about the fact that this
was going to take place approximately at 11:00
o’clock at night?

A.

Yeah. Yeah. We discussed that and that’s why we
put a uniformed deputy at the front door and a
uniformed deputy at the carport door. There was
a marked patrol car leading the SRT van in, and
several of us—I know me in particular and Jeremy
Reese both said, you know, we’re going to knock
and announce until somebody answers the door.
We’re not in a hurry, we’re going to give them
plenty of time to get to the door.
[...]
. . . their schedule was.

Q.

And it’s 11:00 o’clock at night?

A.

It’s a little bit before, but sure.

Q.

So after two minutes of knocking and announcing,
Jeremy gives the—a minute and a half to two minutes, gives the announcement to breach, correct?

MR. BUCKLEY: Object to the form.
A.

THE WITNESS: No. That’s not correct. It wasn’t
because of the two minutes. It was because somebody was coming to the door and then ducked off

App.161a
in another room. Because we would have stayed
there until somebody came to the door.
Q.

What about ducking off into the other room made
it a requirement that the breach be done?

A.

Well, that creates a circumstance to where we
could breach the door. I mean, that’s a (unintelligible) circumstance for safety. You come to the
door and you see somebody at your door and you
duck off in another room after these people are
yelling, “Sheriff’s office with a search warrant.”
There’s blue lights in your yard.

Q.

And you said it yourself, there was a lot of people
yelling, “Search warrant, Sheriff’s office”?

A.

When the entry was made, yes. When they were
knocking and announcing it was Kasey.

Q.

No one said they saw anybody with a weapon
before . . .
[...]

App.162a
DEPOSITION OF LANCE PADGETT
RELEVANT EXCERPTS
(AUGUST 17, 2016)
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually and
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants.
________________________
Case No. 3:16CV00023-DHB-BKE

[August 17, 2016 Transcript, p. 33]
A.

Yes.

Q.

In asking him that then you were basically asking
where the rest of the things that were taken
from the Hooks’ home were?

A.

Again, I was just trying to press him to admit to
taking those guns, also.

App.163a
Q.

Right. Because it was your understanding that the
theft had included more than just what Garrett
was admitting to?

A.

That was my understanding.

Q.

At the time you asked him that, did you believe his
statement or his—put it this way, did you believe
his denials? “No, I didn’t take any—didn’t have
anything to do with it.” Anything along those
lines? Did you believe him?

A.

The issue on this is that he’s already admitted to
stealing the truck and, I believe, two guns. So I
was sitting there wondering, well, if he’s admitting
to those, why is he not admitting to all of them?
So I tend to believe him that he was telling me
the truth.

Q.

Even though you also understood that he could
have sold them for drugs?

A.

No. Like I said, that was just a tactic to try to get
him to flip and say, yeah, I sold the rest of them
for drugs.

Q.

Right.

A.

Or he might have sold them to his cousin and
just didn’t want to get his cousin in trouble.

Q.

Right.

A.

I mean, I’m just throwing that out there. But that
was the reason. I had no evidence to prove that
he sold these guns to anybody.

Q.

Right. And no evidence—no evidence to the contrary, except his word?

App.164a
A.

That’s it, and that he was in possession of the
vehicle.

Q.

Do you recall that you asked during the interview,
as you and Mr. Brewer are there, that you asked
Garrett about a saw that was missing from an
Andy Cullens? Do you remember that?

A.

Yes.

Q.

And Garrett claimed to have purchased this saw
from a John Shinholster?

A.

Yes, I remember that.

Q.

And claimed that when he purchased it, he knew
it was hot?

A.

Uh-huh, (affirmative).

Q.

The chainsaw?

A.

Yeah, I remember that conversation.

Q.

Okay. Did you ever check out whether Garrett
was . . .
[...]
. . . conversation?

A.

Other than the interview we did with Rodney, I
don’t remember seeing anything, whether he
had it or not.

Q.

In talking about—when Brewer was talking about
the information he’d gotten from this Frazier person about drugs, and again we’re talking about
Frazier, the suspect, okay? Because I know there’s
more than one Frazier in Laurens County. As to
that, what, if anything, did Rodney—what, if any-

App.165a
thing, did Stewart say about how recent he had
gotten that information?
A.

Stewart?

MR. BUCKLEY: Yeah.
MR. SPEARS: I’m sorry. What did I say?
MR. BUCKLEY: Stewart. Brewer?
Q.

MR. SPEARS: Brewer. Yeah. I apologize.

A.

What’s the question again?

Q.

Did he vouch for when he got that information
from Frazier? Did Brewer vouch for it?

A.

I can’t remember.

Q.

Do you recall if you asked him about that?

A.

I—

Q.

How long ago was this?

A.

I don’t—I don’t remember asking. Like I said, I
don’t have nothin’ to do with that side of it. If I
asked him, it was just off the cuff and he told me
and I—I don’t remember his answer if I even asked
him.

Q.

During the course of the telephone—tell me what
you recall about the telephone communication with
Faircloth.

A.

Basically, we just—Brewer called Brandon Faircloth, told him that we had Rodney. Well, I don’t
even remember if he used his name. Told him
about the interview that we had with the suspect.
Basically, told him what he said as far as the
drugs being found in the house—or in the vehicle.
Told him about a chainsaw that was stolen, that

App.166a
we knew nothin’ about. And just basically talking
to him about the past information that he had with
Frazier, and him—but that was basically the
conversation.
Q.

What—you mentioned the chainsaw that I think
you said, “We didn’t know anything about.” Help
me out here because as I listened to the interview
with Garrett, I didn’t catch the chainsaw. I heard
the words saw and chainsaw being talked about—

A.

Uh-huh, (affirmative).

Q.

—but I don’t—was there a point in that interview
where he said, “Oh, I stole this chainsaw,” and
either you understood that to have been something
no one knew anything about or Brewer said it
wasn’t anything that you knew anything about?
Because I don’t—I didn’t hear that in the interview
and I was just asking.

A.

And I think Ryan is the one that brought that
up, Sergeant Brooks. And he’s the one that said
something—I believe a saw that was stolen from
Cullens, Andy Cullens.

Q.

Right.

A.

And that it hadn’t been reported stolen yet, that
they didn’t even know it.

Q.

So you think it’s a reference to that?

A.

Yeah. That’s exactly what he was talking about.

Q.

Ryan might have talked about that. I don’t recall
him saying that in this—during the course of the
interview. So Ryan might have brought it up
separate from the interview?

App.167a
A.

No. I think it’s in the interview. I can’t remember,
but—

Q.

All right. Okay. By the best of your recollection
was the call to Faircloth about five minutes or so
after the Garrett interview?

A.

Oh, yeah. It was fairly quick after the interview.

Q.

Round about 9:00 o’clock is when it happened?

A.

Now that I don’t know.

Q.

At some point in the conversation with Faircloth,
do you recall that Faircloth made the comment,
something along the lines, “It sounded pretty
thin”?

A.

I don’t remember that.

Q.

Do you recall Brewer ever explaining to Faircloth
that Frazier’s report to Brewer linking drugs
and Hooks was a . . .
[...]

App.168a
DEPOSITION OF BILL HARRELL
RELEVANT EXCERPTS
(AUGUST 17, 2016)
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually and
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants.
________________________
Case No. 3:16CV00023-DHB-BKE

[August 17, 2016 Transcript, p. 73]
Q.

So in—on this particular date, who made the
decision to use the SRT team or the SRT in this
—the service of this particular warrant, search
warrant?

A.

Like I say, we always use them.

Q.

It’s a standing policy?

App.169a
A.

If we—if we—no, it’s not a standing policy but if
we feel like it’s something that we use all the time,
yes, it would be.

Q.

Okay. Well, Sheriff, here’s the thing, if it’s not a
standing policy who has to make the decision?
So what I’m asking you is who is the person that
said in this case we’re going to use the sheriff’s
response team in the service of this warrant on
David Hooks’ home?

A.

Like I was telling you, I got a page. It said they
were going to execute the warrant and the SR
team was going to be there. I can’t remember if
it was Steven Howard or if it was Brian Stokes
or whoever at the head at the time and that’s
when I got there and I followed up on what they
said.

Q.

So—

A.

But as you were saying, it was a standard policy?
No, I don’t have a standard policy of who, but we
try to use them as much as we can on any
warrant.

Q.

And have you given those instructions to your
captains in that regard?

A.

No. Uh-uh, (negative). But thing about it is if we
—if we’re going to serve a search warrant, we go
ahead and make sure we try to do it.

Q.

So you haven’t, at some point in time in the past,
in a meeting with your captains or your SRT
people said, look, if we’re going to serve a search
warrant, we need to use them if they’re available.

A.

We try to, ‘cause here’s the thing about it is—

App.170a
Q.

But have you said that?

A.

If I have, I don’t recall. But here’s the thing about
it is, I can remember years ago when we served
search warrants, they (sic) might not be but one
or two of us go serve a search warrant. Our biggest
concern is about the overall safety of everybody,
and that’s the reason we use them.

Q.

Do you know who made the decision in this case
then for the sheriff’s response—

A.

For—

Q.

—team to be deployed to David Hooks’ home?

A.

No, sir, I do not.

Q.

You were in the briefing and had knowledge that
that was going to happen, the SRT was going to be
used?

A.

Yes. The SR team was there already when I got
there.

Q.

Again, at the point in time when you arrive at
the briefing, you are the highest ranking law
enforcement officer . . .
[...]

MR. SHOOK: He didn’t answer with a yes or a no.
MR. BUCKLEY: Yeah, he did. Yes, he did.
MR. SHOOK: No, he didn’t.
A.

THE WITNESS: I said I try to go to every one I
can. Now as for how many search warrants been
done since then, I cannot tell you.

Q.

MR. SHOOK: Whatever the number of search
warrants that’s been done since September the

App.171a
25th of 2014, which is almost two years—it’s a
year and eleven—almost eleven months—you’ve
been to one since then?
A.

I may have been to another one but I cannot recall.

Q.

But on this particular night, a search warrant
that was going to be served on a rainy night you
wanted to be there, didn’t you?

A.

I went because I got the page.

Q.

Now going back to the uniforms that—that the
SRT wears, if a person is looking down on them
and it’s dark, can they see the word “sheriff” on
their chest or on their back?

MR. BUCKLEY: Object to the form.
Q.

MR. SHOOK: Looking straight down on them?

A.

I’m sure—unless they were—unless they were out
to the side, they probably couldn’t see it.

MR. SHOOK: All right. All right. Let’s—we’re inside
five, I think? All right. Let’s take a break.
(BREAK)
[...]
. . . earlier, that this was intended to be a “knock
and announce.”
A.

That’s correct.

Q.

What was the discussion in the briefing about
how the “knock and announce” was to take place?

A.

They would knock and announce on the door and
say, “Sheriff’s office.” We’d have a deputy at the
back door, patrol car, be wearing a Class A

App.172a
uniform, and from what I understand, I think
they were familiar with Casey.
Q.

And a Class A uniform is what you’re wearing?

A.

Yes. Uh-huh, (affirmative).

Q.

So it’s a—what color would you call that?

A.

It’s blue.

Q.

Navy, dark navy blue?

A.

I don’t know what you going to call it but it’s a
blue to me.

Q.

But it’s a dark navy blue?

A.

Uh-huh, (affirmative). Uh-huh, (affirmative).

MR. BUCKLEY: Say yes or no.
A.

THE WITNESS: Yes. I’m sorry. Apologize.

MR. BUCKLEY: It’s all right.
Q.

MR. SHOOK: Okay. And a pair of khaki pants?

A.

Yes, it’s something similar to khaki. Uh-huh,
(affirmative).

Q.

Okay.

A.

And they have a black or dark color stripe on them.
[...]

App.173a
DEPOSITION OF CHRISTOPHER BREWER
RELEVANT EXCERPTS
(AUGUST 16, 2016)
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually and
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants.
________________________
Case No. 3:16CV00023-DHB-BKE

[August 16, 2016 Transcript, p. 21]
. . . had was that his possession of the meth was
possession that he had come into without a plan.
Is that accurate? Without a plan to have meth?
A.

Yes, that was my initial belief.

Q.

And in connection with what he reported to you,
he came upon the meth in a console of a white
pickup truck?

A.

Yes. I believe that was his statement.

App.174a
Q.

And in that console he found a bag and he found
scales. Correct?

A.

And some currency.

Q.

And he took the currency, the bag, and the scales?

A.

That’s correct.

Q.

And the currency—his story was that he was
unaware of the content of the bag that he had
taken until after he had left the scene stolen the
car that he stole?

A.

Yes.

Q.

So if his possession, as it turned out, of meth—the
bag was inadvertent, what possible purpose did
he have, that you concluded he had, in taking
scales from the home?

A.

I have no idea.

Q.

The scales as you understood them to be were
scales that could be used for weighing. Correct?

A.

Correct.

Q.

And in your opinion as a narcotics investigator,
when you were informed, and I take it you saw
the scales.
[...]
. . . said. Forgive me. If you would—

A.

That’s okay. Garrett said that he had been staying
with the Olivers prior to going to the Hooks’ residence. I had some information that the Olivers were
allegedly involved with the Hooks in distribution
of narcotics. The fact that the Hooks’ residence
sits quite a distance off the road and Garrett

App.175a
was saying that he just saw the columns and
decided to walk through, down this road to see
where it led and it just happened to be the Hooks’
residence, Garrett’s admission that he was—had
used narcotics, I just felt like anybody basically
anybody that was involved in methamphetamine
that was—and I hate to generalize this, but from
the east side of—what we commonly refer to as
the river, being the east side of Laurens County—
would not have known that that was the Hooks’
residence, especially somebody involved in narcotics. I just thought that that was almost to the
point of being unbelievable but there was—and
we, during our interview, we attempted to trip
him up and to get him to, you know, admit, hey,
he did know where he was going and he just was
adamant that he had no idea that that was the
Hooks’ residence.
Q.

I believe you came to the conclusion that he,
being Garrett, where he had stayed and having
said that he had probably used some meth before
he talked to you, that he was in one way or
another involved in narcotics, generally?
[...]

A.

No, sir.

Q.

And you’ve looked over your application in preparation for your deposition, have you not?

A.

Yes.

Q.

And along those lines, did you look over the supplemental report that we were discussing earlier?

A.

I’ve looked over it recently but it was not in
preparation for this.

App.176a
Q.

Within the last couple of months maybe?

A.

Yes.

Q.

In addition then let me ask whether you listened
to the interviews that the GBI conducted of you
following David Hooks’ death?

A.

I have not.

Q.

Have you read their narrative of those interviews?

A.

Yes.

Q.

Have you read them within the last year?

A.

Yes.

Q.

Within the last month?

A.

Within the last week.

Q.

Okay. As a general matter let me ask you this
then, referring now to the GBI narratives, not the
audio obviously, but just their narratives, can
you think of anything that—any statement that’s
attributed to you in their narrative of their
interview of you that you believe is . . .
[...]
. . . Brooks.

Q.

And during—while you were out there at the
Garrett properties—did you go with the officers
as they went to where Garrett had his shed and
there was equipment there?

A.

I did.

Q.

He was pointing out, “No, that’s mine. That might
be somebody else’s,” that process?

A.

Yes.

App.177a
Q.

So, through that you learned that there were
other things that he had taken, that he had stolen,
in addition to the allegation of the earlier vehicle
theft and the, now, most current allegation involving the Hooks’ vehicle, etcetera? Right?

A.

I think I understand what you’re asking me but
I’ll answer it and if it doesn’t answer what you’re
asking me, you’ll have to rephrase the question.
While we were on the scene, Sergeant Brooks,
apparently has known the Garretts for an extended
period of time and he started talking with Rodney
and asking him about other thefts. And Rodney
was trying, in my opinion, was trying to be as
forthcoming as possible. Took us to the shed.
Took us into his house and, you know, Sergeant
Brooks was asking him about property that was
there and Rodney was trying to explain if it had
or had not been involved in a theft. Now some of
the crimes that Garrett admitted to during the
course of that evening—and I’m talking about
from our initial encounter with Garrett through
the interviews that Sergeant Padgett conducted—
were crimes that were not documented, to my
understanding, by the sheriff’s department. He
admitted to crimes we had no knowledge of.
That was, once again, used as a basis of whether
or not he was being truthful that night.

Q.

Can you name one item of property that Garrett
said that he had taken that was one that was
not previously known to the sheriff’s department?

A.

Me, personally? No, sir. Because I don’t work property crimes and I don’t generally work thefts and
burglaries, those were unimportant to me. I know
that as a law enforcement officer that’s a bad

App.178a
statement to say but was not something that I was
going to focus on. That would have been Sergeant
Padgett and the other general crime investigators—that would have been their responsibility to
follow-up on that or to have knowledge of those
thefts.
Q.

So at the time that you were there in Garrett’s
presence as he’s making reference to what you
concluded were crimes that had not yet been
documented, based on what you’ve just told me,
I take it that you didn’t note what those crimes
were? At the time?

MR. BUCKLEY: Object to the form of the question.
Q.

You didn’t jot down what the crimes were that
he . . .
[...]
. . . for him. Now he’s in trouble because he’s
saying, “Hey, I got this car back there and it’s
got meth in it.” So he’s being arrested?

MR. BUCKLEY: I’ll object to that narrative.
Q.

MR. SPEARS: We know that he—

MR. BUCKLEY: Misstates facts. That’s the for objection.
Q.

MR. SPEARS: Okay. So there’s an arrest warrant
for him and it has to do with thefts. So he’s
being arrested for theft regardless. Right?

A.

Yes.

Q.

And you’re there at the scene and he’s admitting
other crimes—other offenses while you’re there?

App.179a
A.

At the scene? Yes. He’s admitting the theft of
Hooks’ property.

Q.

Right.

A.

At the scene.

Q.

And at the scene. What I’m trying to do is understand, again going back to the statement that you
made that Garrett was admitting to crimes that
were ones that had not yet been documented?

A.

Yes.

Q.

That’s what I’m trying to get back to. Okay?

A.

Yes.

Q.

So with that as a predicate, what crime did he
admit to for which you concluded there was no
documentation of it?

A.

It’s generally—I would have to say it was a theft.
It was quite possible it was a burglary but at the
very least, it was a theft. This did not occur on
the initial scene at the Garretts. This occurred
during the interviews.

Q.

Okay. Were there any admissions by Garrett, in
addition to this one, that you concluded were his
reporting to you of crimes that had not yet been
documented?

A.

I’m going to have to answer this in a general
term because I don’t deal with property crimes. I
hope this will clear up. While we’re in the interview, he starts talking about other thefts, possible
burglaries. I honestly do not know because I did
not follow-up with them.

App.180a
For example, I took that candy. What candy? Oh,
it was some candy that was at this house over
here on this—we don’t have no report of that.
And I took this pen. Oh, you talking about the
pen from so and so’s house? Yeah, I took that pen.
So he was reporting crimes that he had committed
in the past, some of which the investigators, the
general crime investigators, were familiar with
and some that they had no knowledge of.
So I think I actually have, maybe, misspoke in
saying . . .
[...]
. . . Were you present for his interview or am I—
A.

No.

Q.

So as of—as of the time that you met with the
magistrate on the Hooks’ warrant application,
you were—I’m trying to see if I understand the
logistic of this thing. You were aware there was
a Jeffrey Frazier person who had made allegations
about David Hooks. Correct?

A.

Yes.

Q.

And the allegations were made in 2009, right?

A.

Are you asking me did I know it then or do I
know it now?

Q.

Well, did you know it then?

A.

I did not know the date.

Q.

Well, when you told the magistrate that Jeffrey
Frazier had made allegations about David Hooks,
before telling her that what steps, if any, had you

App.181a
taken to determine when Jeffrey Frazier had in
real time made those allegations?
A.

None. That night? You’re asking me that night.

Q.

That night. That’s what I’m asking.

A.

No, I did not take any steps. I just had an independent recollection of Frazier having made these
statements in the past.

Q.

And that independent recollection was based on
what source of information?
[...]
. . . recall—it goes—my initial hearings about
Hooks goes as far back as 2002.
But Frazier was the one that gave us, what I’d
say is gave us the most information about Hooks.
You know, where he lived and how much methamphetamine he was alleged to be distributing and
what I say are specifics that I can attribute
directly to Hooks.
Then after Frazier there were other people that
started coming forward and they were talking—
you know, when they talked about Hooks then I
knew who they were talking about and it just
went into my basis of knowledge of Hooks at that
point.

Q.

When did Sergeant Frazier first say anything to
you about Hooks?

A.

I cannot recall. I can tell you that it was shortly
after he interviewed the May subject. I’m saying
May because that’s the name that’s in my mind.
I believe that was who that person was. So if I’m
wrong about a last name, I’m just wrong about it.

App.182a
Q.

Okay.

A.

But it was shortly after he conducted an interview
he came down and was like, “Hey, do you know
this guy?” just interviewed this subject on an
unrelated case and he volunteered this information
about David Hooks. It was, like, that’s accurate
information. We’re familiar with . . .
[...]
. . . reference to when the information was received
by you or anyone in the Narcotics Unit from
Frazier. Do you agree?

A.

That’s correct.

Q.

You were aware when you met with the magistrate
judge that the contact with Frazier, as you now
have described it, was an interview with Burris
in 2009. Correct?

A.

I think you asked me a multi-part question again.
I knew prior to meeting with the magistrate or
upon meeting with the magistrate that Burris had
relayed to me the information from his interview
with Frazier. I did not have an independent
recollection of it being 2009.

Q.

Do you agree that the recency of information with
respect to drug transactions is an important piece
of information in criminal investigations?

A.

It can be.

Q.

And it is an important piece of information with
respect to assessing whether or not a particular
subject of an investigation currently possesses
illegal drugs?

MR. BUCKLEY: Object to the form.

App.183a
THE WITNESS: It can be.
Q.

Knowing that it can be, can you explain to me
why you did not tell the magistrate when the
information had been received from Frazier or
why you didn’t yourself go back and look?

A.

The short answer would be trying to expedite
the process. I didn’t go back and pull Frazier’s
file. I also—I knew when I was meeting with the
magistrate that Sergeant Frazier had this recorded
interview with this subject, May, where May had
alleged that Hooks was distributing methamphetamine. But because I couldn’t recall May’s name
at the time I was writing the search warrant, I
didn’t include May’s information in that affidavit.
I just couldn’t recall the subject’s name and chose
to just leave that information out completely
rather than possibly taint the magistrate with
information that I wasn’t 100 percent sure about.
In my mind the Frazier interview/incident had—
was much more recent than 2009 when I was
preparing the search warrant.

Q.

What had you thinking it was much more recent?

A.

I guess because I’m getting old and time goes by
a lot faster than I thought. Even if you review
my interview with the GBI, I reference the fact
that we had interviewed Frazier two or three
years ago. In my mind it had only been a couple
of years since we had interviewed Frazier when
this information had come up about Hooks. I
was slightly shocked that it was 2009 once I
went back and started pulling files for the GBI
and everything.

App.184a
Q.

Before you went to talk to the magistrate with
the Hooks’ application, did you communicate with
Tim Burris about Frazier? Let me narrow it
because I’m talking about that day. Did you talk
to Burris about his contact with Frazier?

A.

I believe I did—

Q.

Okay.

A.

—but I don’t—I don’t—I hesitate to swear to that
under oath, but yes, I did speak with Burris.

Q.

Did you make any inquiry as to how long ago that
was?

A.

Once again, I don’t recall specific questions that
we talked about or information that we referenced back and forth, but I believe that while I
was typing the search warrant, we discussed
Frazier’s—the information that Frazier had gave
us. Basically, just more of a hey, this is what I’m
typing; isn’t that what he said, type of situation.

Q.

Okay.

A.

Not, hey, when was the time, what was the setting,
where were y’all at, you know, all that kind of
stuff. I don’t recall interviewing him all that.

Q.

So Deputy Burris was in your presence at some
period of time during the course of your preparation of the warrant?

A.

At different periods of time. He was doing other
things and then I would—his office was adjacent
to mine. You know, I’d be, like, “Hey, Tim,” what
about so and so, or have you notified these people,
and all the other things that go into preparing
for a search warrant as well as preparing a . . .

App.185a
[...]
. . . like, every charge he had. I do recall he was
a convicted felon.
Honestly, I can’t sit here today do I recall him
have a gun in the house. I think there was a gun
in the house, but I don’t think—maybe this helps
if I explain it this way. Frazier was Corporal
Burris’ case and that was his case file. He was
the one that was responsible for knowing the
minutia of everything there. Basically my responsibilities at that time, the time of the Frazier
case and in the future cases, were hey, do you, you
as in Corporal Burris, does Burris need anything
from me, you know, and assisting Burris in making
sure that everything that needs to happen in that
case happens.
Q.

With respect to the subject May, who had contact
with Sergeant Frazier, can you tell me anything
that you knew about him before you—that you
knew about him and were aware of on the day
that you applied for the search warrant involving
Burris?

A.

By name?

Q.

May. Mr. May.

A.

Yes, sir. I’m asking you, are you—I was aware. I
remembered that Sergeant Frazier had told me
he had interviewed a subject and that during that
interview Hooks had stated that he was selling a
large amount of methamphetamine. But at the
time that I was applying—authoring the search
warrant and applying for a search warrant, I
couldn’t recall the guy’s name. I couldn’t recall

App.186a
how recent it had been. I really couldn’t recall
anything other than I remembered Gerald telling
me about this guy.
“Hey, Tim, do you remember that guy’s name or
anything?” But neither one of us could come up
with enough information while I was writing to
include that in the affidavit.
Q.

Okay. And I take it you didn’t reach out to
Sergeant Frazier on that day of taking out that
search warrant?

A.

No, sir. And to further clarify, I didn’t go back
through my notebooks and see, hey, in 2002 Robbie
Miller was telling—told you about David Hooks.
I mean, I didn’t go—it would have took me a
substantial amount of time to go through every
piece of Intel I’ve ever gathered to determine
that there were nothing—there was nothing else
relating to Hooks in any of my notebooks or
anything. Those are the ones that I can remember.
I could remember Frazier basically because Frazier
was the one that first gave us enough information
that I thought, hey, if we can collaborate some of
this, this might be actionable. This may be something we can use. Then we just were never able to
gather enough to make it actionable, in my mind.
[...]
. . . The only time some record would have been
made is if a case file was generated by driving
by this particular place.

Q.

Are you aware of any other case files that linked
Hooks to narcotics other than the May one and
the Frazier one?

App.187a
A.

Robbie Miller. For me to sit right here and call
names, it’s kind of hard to do. I think Tony
Fulford spoke to—it’s not a case file, but he
spoke with Captain Chris Bracewell after the
fact or after the search warrant, about Hooks.
Gosh. I’m not trying to be flippant, but there
were so many people that came forward after
the fact it was, like, you know, I knew this or I
knew that, and I didn’t make a record of almost
any of it because at that point it was, like, hey,
it’s no use to me for purposes of this search
warrant now. This is after the fact. Why didn’t
you tell me this, you know, before? Those are the
names that I independently recall. Fulford’s was
even after the incident.

Q.

What’s the time frame of the allegations of Robbie
Miller?

A.

2002.

Q.

What were the allegations?

A.

That David Hooks was distributing methamphetamine.

Q.

What, if any, step did you take to set up a controlled buy from David Hooks or a controlled sale
to David Hooks of illegal drugs?
[...]
. . . it, the information you had about Mark May
came from Sergeant Frazier?

A.

That’s correct.

Q.

And you haven’t had occasion to be in person
with Mark May and get information directly from
him?

App.188a
A.

Not to my recollection.

Q.

So with respect to whatever Sergeant Frazier told
you about Mark May, to the best of your recollection it is the case, is it not, that Mark May never
claimed to have been inside of the Hooks’ home?

A.

Not to my knowledge.

Q.

Is that also the case with respect to Jeff Frazier,
or do you recall?

A.

I don’t have any knowledge that he said that one
way or the other.

Q.

So as of the day of the search warrant was there
any source of information, law enforcement or
informant or citizen, any source of information
that you had that provided you with information
about any drug activity taking place inside the
Hooks’ home?

A.

If you specifically narrow it down to inside the
home then I’d have to answer no.

Q.

And the—as of the time of the application for the
search warrant there was only—in your understanding at least, there was only one site at which
anyone claimed that . . .
[...]
. . . a used car lot or something, or if the tag was
from a used car lot or came back to a used car lot.
I don’t remember if it came back to an individual
person or if it came back to a, quote/unquote,
“dealership” or used car lot.

Q.

Referring to the truck from which Garrett claimed
to have taken the bag and the scale, what step,

App.189a
if any, was taken to determine the ownership of
that truck prior to the search?
A.

I believe it was investigator Toney who told us
that there was, in fact, a vehicle which Garrett
was describing parked where Garrett was describing it as being.

Q.

Was the VIN run?

A.

By me.

Q.

Was it run by anybody to the best of your knowledge?

A.

I do not know.

Q.

So the ownership of that vehicle insofar as you
could tell one way or another prior to—on the day
of the search warrant application, was unknown?

MR. BUCKLEY: Object to the form of the question.
A.

THE WITNESS: I think you’re asking me a legal
question and I don’t think we—I am unaware if
anybody ran the VIN or established that David
Hooks was, in fact, the legal owner of the vehicle
which was alleged to have been parked under his
carport and from which Hook—I mean, Garrett
took the items that he stated. Now I don’t—Garrett said it was under Hooks’ carport. The investigator said, hey, there is a vehicle just like that
under Hooks’ carport. I assumed it was Hooks’
vehicle. Now, it might have been in Ms. Teresa
Hooks’ name or it could have been in his son’s
name or it could have been in his daughter’s
name or great granddaughter or somebody else’s
name. I don’t know who the legal owner of it is. But
it was my belief that the vehicles parked under

App.190a
the carport belonged to Hooks, per se Hooks as
in the Hooks family.
Q.

It could have been one of his employees?

A.

It’s possible.

Q.

But no investigation was done then as to the
actual ownership prior to and on the day of the
search warrant application?

A.

By me? No, sir.

Q.

By anyone, to the best of your knowledge?

MR. BUCKLEY: Object to the form.
A.

THE WITNESS: I don’t know.

Q.

In the affidavit that is included in Exhibit 1 you
said that Garrett claimed that he placed the bag
and scale that he stole from the pickup truck
console in the carport into a lockbox. Do you recall
that?

MR. BUCKLEY: Where are you?
MR. SEARS: My notes.
[...]
. . . basis of whether he was being truthful at all.
Q.

It didn’t occur to you that he might have gotten
the drugs somewhere else other than Hooks
after he sold stolen property from Hooks?

MR. BUCKLEY: Object to the form of the question.
A.

THE WITNESS: No, sir. That never crossed my
mind.

Q.

So you didn’t eliminate it. You just didn’t even
think about it?

App.191a
MR. BUCKLEY: Object to the form of the question.
A.

THE WITNESS: There was no reason to think
that.

Q.

Do you recall during the interview with Garrett
at the sheriff’s department that Lance Padgett
told Garrett that he was having a hard time
believing that all he took from. Hooks’ home was
two guns, the bag, and the money, and the car?

A.

Do I independently recall that? No, sir. But I’m
not disputing that that happened. Once again,
that was quite possibly one of the incidences where
we were trying to trip Garrett up and make him
admit stuff that he had not already admitted. You
know, hey, change—trying to get him to change
his story. His story did not change.

Q.

Are you familiar with how long cocaine can remain
in someone’s system after they’ve ingested it as
a general matter?

A.

I used to know it right off the top of my head
and . . .
[...]
. . . I mean, I’m sure if I sat here for a little bit I
could probably come up with other reasons but
that’s the initial one that just jumps out in my
head.

Q.

Can you recall that that was the reason that
night for getting the warrant in the time period
that you—

A.

Yes, we—

Q.

—went to get?

App.192a
A.

Yes. We were concerned. When we were discussing
whether or not we should even apply for a search
warrant that was one of the things that came up
was, you know, hey, once he finds out, he as
being Hooks, finds out that Garrett’s in custody
and we’ve got this meth off of Garrett, anything
that’s there is gone, as in Hooks is going to get
rid of it.

Q.

Okay. So the premise for your concern is that
Hooks knows Garrett?

A.

THE WITNESS: If—

MR. BUCKLEY: Object to the form of the question.
THE WITNESS: If Hooks knows Garrett.
Q.

Well, understanding that. But your—the need to
move quickly, within one night, after—within the
same night that you get the information from
Garrett comes from the surmise that if Hooks
learns that Garrett is in custody that if there is
any legal drugs present at the home that it will
be eliminated?

MR. BUCKLEY: Object to form.
[...]
Q.

MR. SPEARS: Something along those lines, right?

MR. BUCKLEY: Object to form. Asked and answered.
A.

THE WITNESS: And the fact that—there are
several factors in that statement. If Hooks does,
in fact, know Garrett and learns that Garrett is
cooperating then that’s a reason why Garrett—I
mean, Hooks, would get rid of any evidence
there. If Hooks learns, even if he doesn’t know
Garrett, and he learns, hey, they’ve got a bunch

App.193a
of dope from a bag with a scale that may have
my fingerprints or DNA or, you know, some
other evidence associating me with these
narcotics, hey, they might come looking here. I
need to get rid of all that stuff. So that, you
know, that’s a basis for why I thought, hey, we
need to do the search warrant tonight. We need
to move on this.
Q.

So if the premise of your concern was—well, let’s
isolate it out like this. Okay.

MR. SHOOK: Less than one minute.
MR. BUCKLEY: Why don’t we go off.
(OFF THE RECORD)
Q.

MR. SPEARS: Before you entered the metal box
that you got from Garrett, were any photographs
taken of it?

A.

I do not recall.

Q.

Once it was opened and—once it was opened,
were any photographs taken of any of the
contents of the box before any of the contents
were removed?
[...]

App.194a
DEPOSITION OF TERESA POPE HOOKS
RELEVANT EXCERPTS
(AUGUST 8, 2016)
IN THE MATTER OF:
TERESA POPE HOOKS, Individually, ET AL.
v.
CHRISTOPHER BREWER, ET AL.
________________________
Julie Ann Jones Reporting
1579 Monroe Drive, Suite F-331
Atlanta, Georgia 30324
404.892.9391
www.julieannjonesreporting.com

[August 8, 2016 Transcript, p. 66]
Q.

Okay.

A.

Yes.

Q.

If it comes to you, just shout it out and we’ll move
on. Bear with me a sec.
Is Eastside still in business?

A.

No.

Q.

Has it been liquidated? I mean, you sold—

A.

Somewhat.

Q.

—you sold the trucks and such?

A.

(Witness nods head affirmatively.) Yes.

Q.

Yes?

App.195a
A.

(Witness nods head affirmatively.)

Q.

Okay. And to your knowledge, up to the time of
the incident, other than doing some, as you’ve
put it, trading at the pawn shop, his sole source
of income was running Eastside Construction
Company?

A.

Correct.

Q.

What kind of things would he trade at the pawn
shop to your knowledge?

A.

Guns.

Q.

Did he travel to gun shows regularly?

A.

No.

Q.

So—and he—he had a number of guns, correct?

A.

Correct.

Q.

To your knowledge, most of those were acquired
over the years either at the pawn shop that you
referenced or maybe with other hunters?

A.

Correct.

Q.

What was the name of that pawn shop again?
I’m sorry.

A.

Eastside Surplus—Army Surplus.

Q.

Do you know who does own it?

A.

Kelly Thigpen.

Q.

Do you know of Kelly to be in business other
than in a pawn shop?

A.

Yes.

Q.

What does he do?

App.196a
A.

He is—not construction, but it’s acoustical.

Q.

Tile?

A.

Yes.

Q.

Okay. And it was with that business that he would
sometimes work with your husband?

A.

Right. Right.

Q.

Okay. There’s some reference in the discovery or
in your statement to the GBI perhaps about a
hearing loss that you have?

A.

Yes.

Q.

You are unable to hear out of one of your ears?

A.

Right ear.

Q.

The right ear? How did that happen?

A.

Virus.

Q.

When you were?

A.

It was about five years ago.

Q.

Have you had hearing tested about that?

A.

Yes.

Q.

And it’s a hundred-percent loss in that ear?

A.

Close to it.

Q.

Okay. What about your other ear?

A.

It’s fine.

Q.

Okay. What kind of things do you have trouble
hearing?

A.

High frequency.

App.197a
Q.

Like when you’re listening to the radio or
something like that?

A.

Right.

Q.

After the incident when your son—your son,
excuse me. I’ll start over.
After the incident when your husband was
hospitalized, are you aware that a sampling
was taken that indicated a positive test for
amphetamine?

A. Yes.
Q.

Has anyone given you an explanation of what
that was?

A.

No.
[...]

[August 8, 2016 Transcript, p. 114]
Q.

Okay. When you—But you did have an understanding that your husband was going to be
coming back at night because of the theft?

A.

Yes.

Q.

Okay. And that was unusual; he normally would
stay away for days—

A.

Yes.

Q.

—when working? And—But that was the extent
of the conversation about he—he was coming back?

A.

Right.

Q.

Words to the effect, well, with what happened
Monday, I’m going to come home every night?

A.

Yeah.

App.198a
Q.

All right. Expectation that it might just be for
this week and then things get back to—

A.

Yes.

Q.

—normal? Okay.

A.

Yes.

Q.

So as you watched T.V. with your husband and
as you worked in the craft room, as you went to
bed, you were not anxious that something else
was going to happen—

A.

Right.

Q.

—you thought that was an isolated incident?

A.

I did.

Q.

But when this car comes up and these people
are—these figures are out there, you thought
back to the theft?

A.

I did.

Q.

All right. Tell me what happened next.

A.

I saw the figures when I looked out the window.
I got out of bed and started yelling for David.

Q.

You started yelling for David?

A.

(Witness nods head affirmatively.)

Q.

Okay. Let me ask you a question. Had—With
your hearing loss, had you ever had trouble
hearing people talk to you from downstairs?

A.

Some.

Q.

Okay. So in terms of anything the police may
have said while standing either at the back door
or the front door based on your experience with

App.199a
your hearing loss, they may have said something
and you didn’t hear it, correct?
A.

I heard them yelling.

Q.

You heard the police yelling?

A.

I heard them yelling.

Q.

All right. From outside?

A.

Yes.

Q.

And they were yelling what?

A.

I don’t know.

Q.

Okay. Was it a whole bunch of them yelling or
one voice yelling? I mean, could you tell?

A.

No.

Q.

Okay. So it could’ve been one person yelling?

A.

Could’ve been.

Q.

Okay. Did you hear them knock on the door?

A.

I heard them beat on the door.

Q.

Okay. And by the door, you think it was the back
door?

A.

It was.

Q.

Okay. Do you know one way or the other whether
an officer was at the front door?

A.

No.

Q.

Was it typical for you to receive guests and visitors
through the back door?

A.

Yes.

App.200a
Q.

Okay. The back door had a glass window pane in
it—

A.

At the time.

Q.

—that you could see out?

A.

Yes.

Q.

Okay. Had you had occasion at that time of day
in the past to have a visitor come to the back
door and knock in your life living at that property?

A.

I mean, I’m sure I have in my life.

Q.

Okay. So you have at that time of day under
those conditions seen someone at the back door
from the kitchen?

A.

Yeah—

Q.

And—

A.

—I would say so.

Q.

And been able to see them, correct?

A.

(No response.)

Q.

Generally?

A.

Yeah.

Q.

Okay. All right, so you are still in the upstairs
bedroom when you hear the banging on the door
and someone yelling?

A.

No.

Q.

No. Where are you by this time?

A.

I’ve come down the stairs.

Q.

Okay. The stairs—When you come down the stairs,
at the bottom of those steps, where are you

App.201a
relative to the square that is the house? Are you
closer to the kitchen or closer to the front?
A.

Closer to the front.

Q.

Okay. Why don’t you put DS for downstairs for
where the bottom of the stairs is relative to the
house?

A.

(Witness complies with the request of counsel.)

Q.

Okay. When you come to the bottom of the
stairs, as the crow flies there is a DS straight in
line with the back door.

A.

Uh-huh (affirmative).

Q.

Is there anything obstructing your view—

A.

There’s a wall right here (indicating) that juts
out a little bit right here where the bathroom is.

Q.

All right. When you got to the bottom of the
stairs, had—You’ve talked in your statement
before about how they broke the door in.

A.

Uh-huh (affirmative).

Q.

Had that already happened by the time you got
to the bottom of the steps?

A.

No.

Q.

Okay. When you got to the bottom of the steps,
did you look to the back of the house?

A.

I’m sure I turned and looked.

Q.

Did you see anyone?

A.

Forms.

Q.

Forms?

A.

Uh-huh (affirmative).

App.202a
Q.

Okay. You did not see a uniformed officer?

A.

No.

Q.

You did not see Officer Loyd?

A.

No.
[...]
. . . the door down. The door had been knocked
down. He stepped back like he was going to get—
grab his pants, and then he heard the door, so
he come around me from here (indicating). He
come around me and went into the den, and this
is the dining room that goes into the kitchen. It
kind of goes in a circle.

Q.

Okay. Now, let me stop you right there.

A.

Okay.

Q.

So he comes out. I want you to just make a little
line that is the door to the master bedroom.

A.

(Witness complies with the request of counsel.)

Q.

All right, so he comes out the—and you would
agree with me that where it says master, the
line that’s about two inches to the right of that on
this diagram is the door to the master bedroom,
correct?

A.

That’s the door right there (indicating), uh-huh
(affirmative).

Q.

So I’m right?

A.

Uh-huh (affirmative).

Q.

Yes or no?

A.

Yes.

App.203a
Q.

Thank you. You had just come down these steps
and were standing where it says DS, downstairs,
correct?

A.

Right.

Q.

And you were facing your husband who came
out this door (indicating)?

A.

Right.

Q.

He had a shotgun with him?

A.

Right.

Q.

Okay. He was naked?

A.

Right.

Q.

He asked you who it was, you said, I don’t know,
and your impression was he turned around like to
put on pants or something?

A.

Right.

Q.

And at that point the door got crashed in?

A.

Correct.

Q.

All right. So it’s your testimony that you and
your husband were situated right at the threshold
of the master bedroom when the police broke
through the back door?

A.

I was here at the end of the stairs.

Q.

Okay.

A.

I wasn’t that close to him.

Q.

You were within eight feet of him?

A.

Right.

App.204a
Q.

And he was standing in the doorway of the master
bedroom when they penetrated the back door?

A.

Correct.

Q.

Okay. All right. When they penetrated, where . . .
. . . you were standing, did you turn around and
see that the door had been busted open?

A.

Yes.

Q.

Straight down the hall, right?

A.

I heard it more than saw—I think I heard it and
then I saw it.

Q.

Right. But from this point where you have DS,
you’ve told me about this partial wall—

A.

Right.

Q.

—one can look and see the back door straight
down a hallway there, correct?

A.

If you’re situated right you can.

Q.

Right. One can also walk from that spot to the
back door without going through any other
rooms, correct?

A.

Right.

Q.

The shortest path between where you were and
plus eight feet where your husband was to the
back door is straight down that hallway, correct?

A.

Yes.

Q.

Okay. All right. So—But you’re saying your
husband took the gun with him—He still had
the gun with him—

A.

Yes.

App.205a
Q.

—the shotgun? He was still naked?

A.

Right.
[...]

[August 8, 2016 Transcript, p. 126]
Q.

And he went past you and into a side room?

A.

No. There’s a big door here (indicating) that goes
into our den.

Q.

Okay. So he went through that door into the den?

A.

Uh-huh (affirmative).

Q.

Yes or no?

A.

Yes.

Q.

Which then is connected to the dining room?

A.

Right here (indicating).

Q.

Which then is connected to the kitchen?

A.

Right.

Q.

Which the kitchen is where that door is, correct?

A.

Right.

Q.

All right. So rather than going straight down the
hallway to the door, he went through the den,
and your sense was—You didn’t follow him into
the dining room, did you?

A.

I followed him to the den.

Q.

Okay. And you saw him go in the dining room?

A.

Yes.

Q.

And then he went in the direction of the kitchen,
or—

App.206a
A.

Right.

Q.

—did you see that?

A.

I saw him go in the direction of—

Q.

All right.

A.

—the kitchen.

Q.

But you didn’t see him—

A.

No.

Q.

—actually go in? All right. What did you—
During this—But by the—by the time he—your
husband starts into the den—

A.

Yes.

Q.

—the back door has already been penetrated?

A.

Yeah.

Q.

Okay. All right. So in the time it takes him to go
through the den, into the dining room and then
into the kitchen, the police had already been in
the house all that time, correct?

A.

Yes.

Q.

Okay. Tell me what happened next.

A.

When he went into the living room, I followed
behind him, but the shots were already being
fired, so before I could get to the dining room, I
ran back into the bedroom.

Q.

And shut the door?

A.

And shut the door.

Q.

And it’s your testimony, as with your
[...]

App.207a

[August 8, 2016 Transcript, p. 164]
Q.

Less than 10 seconds?

A.

Yes. Well, yeah.

Q.

Okay. And your recollection is, as far as any substantive or factual conversation about what had
happened, from the time you came out with your
hands up till you gave your statement to the GBI,
no conversations about what had happened or
what was going on—

A.

No.

Q.

—of any substance, right?

A.

No.

Q.

Okay. When you left the scene, you were aware
that your husband had been transported to a
hospital?

A.

Yes.

Q.

And you knew which hospital?

A.

I found out before we left.

Q.

From whom?

A.

We called them. Fairview.

Q.

Okay. Is that the first hospital you called?

A.

Yes.

Q.

Okay. And so when you left, you and Brandon
went to the hospital?

A.

We met my daughter.

Q.

Okay. At her house?

A.

No, in town.

App.208a
Q.

Okay. Where had she been?

A.

She was at her boyfriend’s.

Q.

Okay. Where does he live?

A.

Mount Vernon.

Q.

And what’s his name?

A.

Matt Waller.

Q.

Does he have any business affiliation with your
husband?

A.

No.

Q.

Okay. He lives in Dublin?

A.

No, he lives in Mount Vernon.

Q.

I’m sorry, you said that. All right. What does he
do?

A.

Towing. Vehicle repo, towing.

Q.

Oh, okay.

A.

Wrecker.

Q.

Got it. Tow truck?

A.

Yeah.

Q.

All right. When you were coming down the steps
and banging on the wall, what were you yelling?

A.

David.

Q.

Just that?

A.

Just that.

Q.

When your husband went through the den into
the dining room, you lost sight of him?

A.

I did.

App.209a
Q.

And it’s fair to say that where he was standing
when the first shot was fired is something you
don’t know, correct?

A.

No.

Q.

He could’ve been in the doorway of the kitchen,
gotten into the kitchen. You don’t know, correct?

A.

I don’t.

Q.

All right. You do know that when you last saw
him, he had a shotgun with him?

A.

Yes.

Q.

And he was moving at a fairly fast rate of speed
into the dining room?

A.

Yes.

Q.

Okay. At least from your perspective, at the time
you heard the first shot fired, you still didn’t
know it was law enforcement, correct?

A.

No.

Q.

The last thing your husband said to you was,
who is it?

A.

Correct.

Q.

Okay. You didn’t talk to him again after that?

A.

No.

Q.

When you talked to—to Connie—I’m sorry, your
daughter?

A.

Carla.
[...]

App.210a
DEPOSITION OF WILLIAM MEEKS
RELEVANT EXCERPTS
(APRIL 4, 2017)
IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
DUBLIN DIVISION
________________________
TERESA POPE HOOKS, Individually and
ESTATE OF DAVID HOOKS,
by Teresa Pope Hooks, Administratrix,

Plaintiffs,
v.
CHRISTOPHER BREWER, ET AL.,

Defendants.
________________________
Case No. 3:16CV00023-DHB-BKE

[April 4, 2017 Transcript, p. 45]
. . . and Sergeant Forte was telling him to drop the
gun. I heard him say it once or twice. “Drop the
gun. Drop the gun.”
Instead of dropping the gun, he raised the gun to
a shooting position and started to turn towards
Sergeant Forte. At that time, I fired my weapon.
Q.

Am I correct in saying that when each person
entered the house, they were yelling, “sheriff’s
department”?

App.211a
A.

Yes, sir. Sheriff’s department with a search warrant.

Q.

And that pretty much had everybody yelling at
the same time?

A.

Yeah. As each member goes through the door,
“sheriff’s department, search warrant.”

Q.

And when David Hooks became present, everybody
was yelling at the same time to put the gun down?

A.

Mr. Hooks was present when I made entry.

Q.

Do you know how many times you fired?

A.

I do not.

Q.

Do you know where the projectiles from your
gun went?

A.

No, sir. I was aimed at center mass. And I heard
Sergeant Forte holler, “gun here.” In answer to
your last question, I heard Sergeant Forte say,
“Drop the gun. Drop the gun.” I don’t know who
else said drop the gun.

Q.

Did you say it?
[...]

